No. ______

In the

Supreme Court of the United States
SCOTT A. SELDIN, INDIVIDUALLY AND AS
TRUSTEE OF THE SELDIN 2002 IRREVOCABLE TRUST,
DATED DECEMBER 31, 2002, ET AL.,
Petitioners,
V.
ESTATE OF STANLEY C. SILVERMAN, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF NEBRASKA
PETITION FOR A WRIT OF CERTIORARI
BARTHOLOMEW L. MCLEAY ROMAN MARTINEZ
KUTAK ROCK LLP
Counsel of Record
1650 Farnam Street
GREGORY G. GARRE
CAROLINE A. FLYNN
Omaha, NE 68102
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-3377
roman.martinez@lw.com
Counsel for Petitioners

i
QUESTIONS PRESENTED
The Federal Arbitration Act (“FAA”) provides a
mechanism for courts to enforce arbitration awards.
The FAA also specifies grounds on which courts may
vacate or modify those awards. The questions
presented are:
1. Whether the FAA categorically forecloses
courts from vacating an arbitration award on the
ground that the award is contrary to public policy.
2. Whether the FAA’s protection against an
arbitrator’s “evident partiality” (9 U.S.C. § 10(a)(2)) is
triggered when there is a reasonable impression of
partiality, or instead by a more heightened standard
such as a showing of actual bias.

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner Scott A. Seldin, individually and as
trustee of the Seldin 2002 Irrevocable Trust, dated
December 13, 2002, was an appellant, crossappellant, and cross-appellee in the Nebraska
Supreme Court.
Petitioners Millard R. Seldin,
individually and as trustee of the Millard R. Seldin
Revocable Trust, dated October 9, 1993 (“Millard R.
Seldin Revocable Trust”); Seldin Real Estate, Inc., an
Arizona corporation; Kent Circle Investments, LLC,
an Arizona limited liability company; and Belmont
Investments, LLC, an Arizona limited liability
company, were appellants and cross-appellees in the
Nebraska Supreme Court.*
Respondents Estate of Stanley C. Silverman;
Theodore M. Seldin, individually and as trustee of the
Theodore M. Seldin Revocable Trust, dated May 28,
2008; Howard Scott Silverman, as trustee of the
Amended and Restated Stanley C. Silverman
Revocable Trust, dated August 26, 2006; Silverman
Holdings, LLC, a Nebraska limited liability company;
SCS Family, LLC, a Nebraska limited liability
company; TMS & SNS Family, LLC, a Nebraska
limited liability company; Sarah N. Seldin and Irving
*
Millard Seldin passed away on January 24, 2020, while
this case was pending before the Nebraska Supreme Court. As
explained in the letter to the Clerk filed concurrently with this
petition, petitioner Scott Seldin has been appointed as the
personal representative of Millard’s estate and is also the new
trustee of the Millard R. Seldin Revocable Trust. Petitioners will
move to substitute Scott Seldin in place of Millard Seldin if
certiorari is granted. See State Farm Mut. Auto. Ins. Co. v.
Campbell, 537 U.S. 1042 (2002) (granting respondents’ motion
to substitute a party in place of party who passed away before
the grant of certiorari).

iii
B. Epstein, as trustees of the Theodore M. Seldin and
Sarah N. Seldin Children’s Trust, dated January 1,
1995; Uri Ratner, as trustee of the Stanley C.
Silverman and Norma R. Silverman Irrevocable Trust
Agreement (2008), dated April 10, 2008; John W.
Hancock, Irving B. Epstein, and Randall R. Lenhoff,
as trustees of the Theodore M. Seldin and Sarah N.
Seldin Irrevocable Trust Agreement (2008), dated
May 12, 2008; and Seldin Company were appellees
and cross-appellants in the Nebraska Supreme Court.
RULE 29.6 STATEMENT
Pursuant to this Court’s Rule 29.6, Seldin Real
Estate, Inc. states that it has no parent corporation
and that no publicly held company owns 10% or more
of its stock.
RELATED PROCEEDINGS
Seldin v. Estate of Silverman, No. S-19-310,
Supreme Court of Nebraska, judgment entered March
6, 2020 (939 N.W.2d 768), rehearing denied August 4,
2020.
Seldin v. Seldin, No. S-19-311, Supreme Court of
Nebraska, judgment entered March 6, 2020 (939
N.W.2d 768), rehearing denied August 4, 2020.
Seldin v. Estate of Silverman, No. A-19-310, Court
of Appeals of Nebraska, petition to bypass court of
appeals review sustained October 3, 2019.
Seldin v. Seldin, No. A-19-311, Court of Appeals of
Nebraska, petition to bypass court of appeals review
sustained October 3, 2019.
Seldin v. Seldin, No. CI 17-4272, District Court of
Douglas County, Nebraska, judgment dated May 3,
2018, motion to alter or amend the judgment denied
February 28, 2019.

iv
Seldin v. Estate of Silverman, No. CI 17-6276,
District Court of Douglas County, Nebraska,
judgment entered May 3, 2018, motion to alter or
amend the judgment denied February 28, 2019.
Seldin v. Seldin, No. CI 17-7509, District Court of
Douglas County, Nebraska, judgment entered May 3,
2018.
Seldin v. Seldin, No. CI 16-8394, District Court of
Douglas County, Nebraska, judgment entered May 3,
2018.
Seldin v. Seldin, No. CI 17-506, District Court of
Douglas County, Nebraska, judgment entered May 3,
2018.
Seldin v. Seldin, No. CI 17-651, District Court of
Douglas County, Nebraska, judgment entered May 3,
2018.
Seldin v. Seldin, No. CI 17-3637, District Court of
Douglas County, Nebraska, judgment entered May 3,
2018.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDINGS BELOW .......... ii
RULE 29.6 STATEMENT......................................... iii
RELATED PROCEEDINGS ..................................... iii
TABLE OF AUTHORITIES ................................... viii
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED...................................1
INTRODUCTION .......................................................2
STATEMENT OF THE CASE ....................................4
A. Statutory Background ....................................4
B. The
Seldin
Business
Dispute
And Arbitration ...............................................6
C. Proceedings Below ........................................10
REASONS FOR GRANTING THE WRIT................13
I. The Court Should Resolve The Split Over
Whether The FAA Permits Courts To Vacate
Arbitration Awards That Violate Public
Policy ....................................................................14
A. Courts Are Irreconcilably Divided On
This Issue ......................................................14
B. The Nebraska Supreme Court’s
Decision Was Wrong .....................................19

vi
TABLE OF CONTENTS—Continued
Page
C. The Court Should Resolve The Split Of
Authority On The Public Policy
Exception In This Case .................................23
II. The Court Should Also Resolve The Split
Over The FAA’s “Evident Partiality”
Standard...............................................................26
A. Courts Have Divided Over Whether
The FAA Requires Arbitrators To
Satisfy The Same Ethical Standards As
Judges ............................................................26
B. The Nebraska Supreme Court’s
Standard For Finding “Evident
Partiality” Is Wrong ......................................31
C. The Court’s Intervention Is Needed On
This Question As Well ..................................34
CONCLUSION ..........................................................36
APPENDIX
Opinion of the Supreme Court of Nebraska,
Seldin v. Estate of Silverman, 939 N.W.2d
768 (Neb. 2020) ...................................................1a

vii
TABLE OF CONTENTS—Continued
Page
Order of the District Court of Douglas County,
Nebraska on Motion to Vacate the
Arbitrator’s Final Award and Motion to
Confirm Arbitration Award as Judgment,
Seldin v. Seldin, Nos. CI 17-4272 and
CI 17-6276 (Companion Case Nos. CI 167509; CI 16-8394; CI 17-506, CI 17-651;
and CI 17-3637) (Neb. Dist. Ct., Douglas
Cty. May 3, 2018) ..............................................43a
Order of the District Court of Douglas County,
Nebraska on Motion to Alter or Amend,
Motion for Attorney Fees and Costs,
Motion for Supersedeas Bond, Seldin v.
Seldin, Nos. CI 17-4272 and CI 17-6276
(Companion Case Nos. CI 16-7509; CI 168394; CI 17-506, CI 17-651; and CI 173637) (Neb. Dist. Ct., Douglas Cty. Feb. 28,
2019) ..................................................................80a
Order of the Supreme Court of Nebraska
Denying Rehearing, Seldin v. Estate of
Silverman, Case No. S-19-000310, and
Seldin v. Seldin, Case No. S-19-000311
(Neb. Aug. 4, 2020) .........................................100a
9 U.S.C. § 9 ............................................................102a
9 U.S.C. § 10 ..........................................................103a
9 U.S.C. § 11 ..........................................................104a

viii
TABLE OF AUTHORITIES
Page(s)
Abbott v. Law Office of Patrick J. Mulligan,
440 F. App’x 612 (10th Cir. 2011) .................18, 24
Abel v. Conover,
104 N.W.2d 684 (Neb. 1960) ................................25
Al-Harbi v. Citibank, N.A.,
85 F.3d 680 (D.C. Cir. 1996) ................................29
Andorra Services Inc. v. Venfleet, Ltd.,
355 F. App’x 622 (3d Cir. 2009) ...........................24
ANR Coal Co. v. Cogentrix of North
Carolina, Inc.,
173 F.3d 493 (4th Cir.), cert. denied, 528
U.S. 877 (1999)...............................................28, 29
Applied Industrial Materials Corp. v.
Ovalar Makine Ticaret Ve Sanayi, A.S.,
492 F.3d 132 (2d Cir. 2007) .................................29
Aspic Engineering & Construction Co. v.
ECC Centcom Constructors, LLC,
913 F.3d 1162 (9th Cir. 2019)................................3
Bangor Gas Co. v. H.Q. Energy Services
(U.S.) Inc.,
695 F.3d 181 (1st Cir. 2012) ................................17
Barnett v. City of Scottsbluff,
684 N.W.2d 553 (Neb. 2004) .................... 13, 33, 35
Bosse v. Oklahoma,
137 S. Ct. 1 (2016)................................................22

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Brentwood Medical Associates v. United
Mine Workers,
396 F.3d 237 (3d Cir. 2005) .................................15
Brown v. TGS Management Co.,
271 Cal. Rptr. 3d 303 (Ct. App. 2020) .................21
Burlington Northern Railroad Co. v. TUCO
Inc.,
960 S.W.2d 629 (Tex. 1997) ...........................27, 30
Caputo v. Wells Fargo Advisors, LLC,
No. CV 19-17204 (FLW), 2020 WL
2786934 (D.N.J. May 29, 2020) ...........................18
Cavalier Manufacturing, Inc. v. Gant,
143 So. 3d 762 (Ala. 2013) ...................................18
CD & L Realty LLC v. Owens Illinois, Inc.,
535 F. App’x 201 (3d Cir. 2013) .....................18, 24
Coffee Beanery, Ltd. v. WW, LLC,
300 F. App’x 415 (6th Cir. 2008), cert.
denied, 558 U.S. 819 (2009) .................................17
Comedy Club, Inc. v. Improv West
Associates,
553 F.3d 1277 (9th Cir. 2009)..............................16
Commonwealth Coatings Corp. v.
Continental Casualty Co.,
393 U.S. 145 (1968) .......................... 3, 5, 28, 31, 32
Cooper v. WestEnd Capital Management,
LLC,
832 F.3d 534 (5th Cir. 2016)................................28

x
TABLE OF AUTHORITIES—Continued
Page(s)
DeMartini v. Johns,
693 F. App’x 534 (9th Cir. 2017) .........................16
Dowd v. First Omaha Securities Corp.,
495 N.W.2d 36 (Neb. 1993) ................ 13, 29, 31, 34
Dunham v. Lithia Motors Support Services,
Inc.,
No. S-15068, 2014 WL 1421780 (Alaska
Apr. 9, 2014) .........................................................17
Eastern Associated Coal Corp. v. United
Mine Workers, District 17,
531 U.S. 57 (2000) .......................... 2, 12, 14, 19, 22
Epic Systems Corp. v. Lewis,
138 S. Ct. 1612 (2018)..........................................24
Frazier v. CitiFinancial Corp.,
604 F.3d 1313 (11th Cir. 2010)............................18
Freeman v. Pittsburgh Glass Works, LLC,
709 F.3d 240 (3d Cir. 2013) ...........................28, 31
Gill v. Whitford,
138 S. Ct. 1916 (2018)..........................................31
Gregory v. Ashcroft,
501 U.S. 452 (1991) ..............................................22
Hall Street Associates, L.L.C. v. Mattel, Inc.,
552 U.S. 576 (2008) .......................... 2, 4, 13, 15, 23

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Halliburton Co. v. Chubb Bermuda
Insurance Ltd.
[2020], UKSC 48,
https://www.supremecourt.uk/cases/
docs/uksc-2018-0100-judgment.pdf .....................33
Hoskins v. Hoskins,
497 S.W.3d 490 (Tex. 2016) .................................19
Hurd v. Hodge,
334 U.S. 24 (1948) ..........................................20, 25
Immersion Corp. v. Sony Computer
Entertainment America LLC,
188 F. Supp. 3d 960 (N.D. Cal. 2016)..................18
JCI Communications, Inc. v. International
Brotherhood of Electrical Workers, Local
103,
324 F.3d 42 (1st Cir. 2003) ..................................27
Lessin v. Merrill Lynch, Pierce, Fenner &
Smith, Inc.,
481 F.3d 813 (D.C. Cir. 2007) ..............................15
Matthews v. National Football League
Management Council,
688 F.3d 1107 (9th Cir. 2012)..............................16
McKool Smith, PC v. Curtis International,
Ltd.,
650 F. App’x 208 (5th Cir. 2016) .........................18

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Merit Insurance Co. v. Leatherby Insurance
Co.,
714 F.2d 673 (7th Cir.), cert. denied, 464
U.S. 1009 (1983) .............................................28, 34
Monster Energy Co. v. City Beverages, LLC,
940 F.3d 1130 (9th Cir. 2019), cert.
denied, 207 L. Ed. 2d 1100 (2020) .................27, 34
Morelite Construction Corp. v. New York
City District Council Carpenters Benefits
Fund,
748 F.2d 79 (2d Cir. 1984) ....................... 26, 27, 28
Municipal Workers Compensation Fund,
Inc. v. Morgan Keegan & Co.,
190 So. 3d 895 (Ala. 2015) ...................................27
Muschany v. United States,
324 U.S. 49 (1945) ................................................22
National Railroad Passenger Corp. v.
Fraternal Order of Police, Lodge 189
Labor Committee,
855 F.3d 335 (D.C. Cir. 2017), cert.
denied, 138 S. Ct. 979 (2018) ...............................17
Nationwide Mutual Insurance Co. v. Home
Insurance Co.,
429 F.3d 640 (6th Cir. 2005)................................28
Ormsbee Development Co. v. Grace,
668 F.2d 1140 (10th Cir.), cert. denied,
459 U.S. 838 (1982) ..............................................29

xiii
TABLE OF AUTHORITIES—Continued
Page(s)
Oxford Health Plans LLC v. Sutter,
569 U.S. 564 (2013) ..............................................14
Ploetz v. Morgan Stanley Smith Barney
LLC,
894 F.3d 894 (8th Cir. 2018)..........................29, 30
Positive Software Solutions, Inc. v. New
Century Mortgage Corp.,
476 F.3d 278 (5th Cir. 2007)................................30
Rice v. Santa Fe Elevator Corp.,
331 U.S. 218 (1947) ..............................................21
Rite Aid New Jersey, Inc. v. United Food
Commercial Workers Union, Local 1360,
449 F. App’x 126 (3d Cir. 2011) ...........................24
Schmitz v. Zilveti,
20 F.3d 1043 (9th Cir. 1994)................................27
Schwartz v. Merrill Lynch & Co.,
665 F.3d 444 (2d Cir. 2011) .................................16
Sheldon v. Vermonty,
269 F.3d 1202 (10th Cir. 2001)............................15
Southwest Airlines Co. v. Local 555,
Transport Workers Union AFL-CIO,
912 F.3d 838 (5th Cir. 2019)................................17
Sphere Drake Insurance Ltd. v. All
American Life Insurance Co.,
307 F.3d 617 (7th Cir. 2002), cert.
denied, 538 U.S. 961 (2003) .................................28

xiv
TABLE OF AUTHORITIES—Continued
Page(s)
State v. Henderson,
762 N.W.2d 1 (Neb.), cert. denied, 557
U.S. 921 (2009)...............................................12, 21
Stolt-Nielsen S.A. v. AnimalFeeds
International Corp.,
559 U.S. 662 (2010) ..............................................23
Sullivan v. Endeavor Air, Inc.,
856 F.3d 533 (8th Cir. 2017)................................17
Tenaska Energy, Inc. v. Ponderosa Pine
Energy, LLC,
437 S.W.3d 518 (Tex. 2014) .................................27
Titan Tire Corp. of Freeport, Inc. v. United
Steel, Paper & Forestry, Rubber,
Manufacturing, Energy, Allied Indus. &
Service Workers International Union,
734 F.3d 708 (7th Cir. 2013)................................16
United Paperworkers International Union,
AFL-CIO v. Misco, Inc.,
484 U.S. 29 (1987) .......................... 2, 12, 14, 20, 22
United States v. Texas,
507 U.S. 529 (1993) ..............................................20
University Commons-Urbana, Ltd. v.
Universal Constructors Inc.,
304 F.3d 1331 (11th Cir. 2002)......................27, 32
Visiting Nurse Association of Florida, Inc.
v. Jupiter Medical Center, Inc.,
154 So. 3d 1115 (Fla. 2014), cert. denied,
135 S. Ct. 2052 (2015)....................................18, 19

xv
TABLE OF AUTHORITIES—Continued
Page(s)
W.R. Grace & Co. v. Local Union 759,
International Union of United Rubber,
Cork, Linoleum & Plastic Workers,
461 U.S. 757 (1983) ...................................... passim
Wachovia Securities, LLC v. Brand,
671 F.3d 472 (4th Cir. 2012).................... 16, 19, 20
Wells Fargo Advisers, LLC v. Watts,
540 F. App’x 229 (4th Cir. 2013), cert.
denied, 574 U.S. 870 (2014) .................................16
Wilko v. Swan,
346 U.S. 427 (1953) ..............................................15
FEDERAL STATUTES
9 U.S.C. § 1 et seq. ......................................................4
9 U.S.C. § 2 ..................................................................4
9 U.S.C. § 9 ..................................................................4
9 U.S.C. § 10 ................................................................4
9 U.S.C. § 10(a)(2) .................................................3, 26
9 U.S.C. § 10(a)(4) .....................................................20
9 U.S.C. § 11 ................................................................4
28 U.S.C. § 1257(a)......................................................1
45 U.S.C. § 153 ..........................................................17

xvi
TABLE OF AUTHORITIES—Continued
Page(s)
STATE CONSTITUTIONAL AND
STATUTORY PROVISIONS
Neb. Const. art. I, § 3 ................................................25
Neb. Const. art. VII, § 5 ............................................25
Neb. Rev. Stat. § 24-739......................................10, 34
Neb. Rev. Stat. § 25-2604.01...............................33, 35
OTHER AUTHORITIES
AAA, Code of Ethics for Arbitrators in
Commercial Disputes (effective
Mar. 1, 2004) ..................................................32, 33
AAA, Commercial Arbitration Rules and
Mediation Procedures (effective
July 1, 2016) .........................................................33
Cal. Civ. Proc. Code § 1281.9(a)................................33
Edward C. Dawson, Speak Now or Hold
Your Peace: Prearbitration Express
Waivers of Evident-Partiality
Challenges, 63 Am. U. L. Rev. 307
(2013) ....................................................................30
Braydon Roberts, An Evident
Contradiction: How Some Evident
Partiality Standard Do Not Facilitate
Impartial Arbitration, 43 J. Corp. L. 681
(2018) ....................................................................30

xvii
TABLE OF AUTHORITIES—Continued
Page(s)
Restatement (Third) U.S. Law of Int’l
Comm. Arb. (Proposed Final Draft 2019) ...........31
Revised Uniform Arbitration Act § 12 (Nat’l
Conf. Comm’rs on Unif. State L. 2000) ...............33
5 Williston on Contracts § 12:1 (4th ed.
2020, Westlaw) .....................................................19
Kathryn A. Windsor, Defining Arbitrator
Evident Partiality: The Catch-22 of
Commercial Litigation Disputes, 6 Seton
Hall Cir. Rev. 191 (2009) .....................................30

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners respectfully ask this Court for a writ of
certiorari to review the judgment of the Nebraska
Supreme Court in this case.
OPINIONS BELOW
The decision of the Nebraska Supreme Court (App.
1a-42a) is reported at 939 N.W.2d 768. The district
court decisions confirming the arbitration award
(App. 43a-79a) and denying petitioners’ motion to
alter the judgment (App. 80a-99a) are not published.
JURISDICTION
On March 6, 2020, the Nebraska Supreme Court
affirmed the final judgment of the district court (App.
42a). On August 4, 2020, the Nebraska Supreme
Court summarily denied petitioners’ timely motion
for rehearing (App. 100a). On March 19, 2020, this
Court extended the time within which to file a petition
for a writ of certiorari to 150 days from, inter alia, the
order denying a timely petition for rehearing. This
Court has jurisdiction under 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The relevant statutory provisions are set out in the
appendix to this petition. App. 102a-04a.

2
INTRODUCTION
This case directly implicates two acknowledged
conflicts of authority about the grounds on which
courts may refuse to enforce arbitration awards under
the Federal Arbitration Act (“FAA”).
First, for nearly forty years, this Court has
recognized that courts may refuse to enforce
arbitration awards that contravene an “explicit,”
“well defined,” and “dominant” public policy. W.R.
Grace & Co. v. Local Union 759, Int’l Union of United
Rubber, Cork, Linoleum & Plastic Workers, 461 U.S.
757, 766 (1983); see also United Paperworkers Int’l
Union, AFL-CIO v. Misco, Inc., 484 U.S. 29, 42 (1987);
Eastern Associated Coal Corp. v. United Mine
Workers, Dist. 17, 531 U.S. 57, 62 (2000).
Nonetheless, some lower courts have read this Court’s
decision in Hall Street Associates, L.L.C. v. Mattel,
Inc., as eliminating, sub silentio, that longstanding
public-policy exception, because Hall Street stated
that the grounds for vacatur and modification of an
award set forth in the FAA are “exclusive.” 552 U.S.
576, 578 (2008). Hall Street has given rise to a 5–4
split among federal and state courts, with the
majority holding that the common-law public-policy
exception survives. In the case below, the Nebraska
Supreme Court sided with the minority, holding that
Hall Street categorically foreclosed it from even
considering
petitioners’
argument
that
the
arbitrator’s award in this case runs afoul of Nebraska
public policy. This Court should grant review to
clarify the continuing vitality of this limited—but
necessary—ground for vacatur of arbitration awards.
Second, the decision below further entrenched an
even more longstanding divide regarding one of the

3
FAA’s enumerated grounds for vacatur: the provision
allowing courts to set aside an award when the
arbitrator
has
shown
“evident
partiality.”
9 U.S.C. § 10(a)(2).
This Court emphasized the
importance of that protection over fifty years ago,
explaining that courts “should, if anything, be even
more scrupulous to safeguard the impartiality of
arbitrators than judges.” Commonwealth Coatings
Corp. v. Continental Cas. Co., 393 U.S. 145, 148-49
(1968)
(emphasis
added).
Accordingly,
Commonwealth Coatings interpreted the FAA to
require vacatur where the arbitrator failed to disclose
a personal interest “that might create an impression
of possible bias”—a standard directly aligned with
what is expected of judges. Id. at 148-49. But because
of confusion over a concurring opinion in that case,
federal and state courts have divided 7–4 on whether
the Commonwealth Coatings majority’s standard is
the one they should follow. The Nebraska Supreme
Court has adopted the more stringent standard,
under which an award can be vacated only if an
observer “would have to conclude” that the arbitrator
was actually biased in favor of one party. App. 21a
(emphasis added).
Both questions presented have generated
widespread confusion in the lower courts and
unnecessary litigation over the scope of judicial
review under the FAA. And both questions have only
increased in importance as arbitration has become
more prevalent. As one federal court of appeals
rightly observed, “[w]e have become an arbitration
nation.” Aspic Eng’g & Constr. Co. v. ECC Centcom
Constructors, LLC, 913 F.3d 1162, 1169 (9th Cir.
2019). But arbitration’s rise as a primary forum for
dispute resolution makes it all the more crucial to

4
preserve the essential fail-safes of the system. This
case presents an ideal opportunity for the Court to
issue essential guidance for courts applying the FAA
nationwide. The Court should grant certiorari.
STATEMENT OF THE CASE
A.

Statutory Background

The Federal Arbitration Act, 9 U.S.C. § 1 et seq.
(“FAA”), establishes a federal policy in favor of
enforcing arbitration agreements involving interstate
commerce. See id § 2. The FAA also provides a
framework for judicial enforcement of resulting
awards. Section 9 of the FAA enables parties to bring
a court action for an order “confirming” the award. Id.
§ 9. Sections 10 and 11, in turn, provide enumerated
grounds on which a court may decline to enforce an
award in full or in part. Id. §§ 10-11.
In recent years, courts have wrestled with whether
courts may look beyond the FAA’s enumerated
grounds when deciding whether an arbitration award
should be enforced or set aside. In Hall Street, this
Court held that parties cannot expand the scope of the
FAA’s judicial review by contractual agreement,
explaining that Sections 10 and 11 “provide the FAA’s
exclusive grounds for vacatur and modification” of
awards. 552 U.S. at 584. The Court did not decide,
however, whether the FAA permits courts to apply
additional judicially created, common-law bases for
vacatur or modification.
See id. at 585.
Consequently, in the wake of Hall Street, an
acknowledged circuit split has developed about the
continued vitality of one such ground: the narrow
common-law doctrine, recognized in three of this
Court’s prior cases, under which courts may refuse to

5
enforce an award that violates a well-defined public
policy. See infra at 14-19.
Confusion has also arisen over FAA Section
10(a)(2), which authorizes courts to set aside an
award “where there was evident partiality . . . in the
arbitrator.” In Commonwealth Coatings, Justice
Black’s six-Justice majority opinion interpreted the
phrase “evident partiality” to impose a “simple
requirement”: that “arbitrators disclose to the parties
any dealings that might create an impression of
possible bias.” 393 U.S. at 148-49. The Court
explained that this “reasonable impression of bias”
standard aligned with what is expected of judges—
because it “rest[s] on the premise that any tribunal
permitted by law to try cases and controversies not
only must be unbiased but also must avoid even the
appearance of bias.” Id. at 150 (emphasis added); see
also id. at 148.
Justice White, joined by Justice Marshall, wrote a
concurrence stating that he was “glad to join” Justice
Black’s majority opinion. Id. at 150 (White, J.,
concurring).
But despite the majority’s clear
language equating the neutrality of arbitrators and
judges and adopting an “impression of bias” standard,
Justice White noted that he did not read the majority
opinion to “decide” that “arbitrators are to be held to
the standards of judicial decorum of Article III judges,
or indeed of any judges.” Id. And although Justice
White agreed that “evident partiality” did not
necessarily mean actual bias, see id. at 151 n.*, he
never explained what showing short of the majority’s
“reasonable impression of partiality” standard he
believed the FAA requires. This interplay between
the Commonwealth Coatings majority and Justice
White’s concurrence has given rise to a split of

6
appellate authority over the proper standard for
evaluating claims of an arbitrator’s evident partiality
under Section 10(a)(2). See infra at 26-31.
B.

The Seldin
Arbitration

Business

Dispute

And

1. This case arises out of a business dispute.
Over fifty years ago, petitioner Millard Seldin
founded what became a highly successful real-estate
business in the Omaha, Nebraska area. App. 3a.
Millard’s brother, respondent Theodore Seldin, and
Millard’s brother-in-law, Stanley Silverman, also
joined the business years later. Id. Eventually,
however, Millard relocated from Omaha to Scottsdale,
Arizona. Id. And beginning in 2007, Millard and his
son, petitioner Scott Seldin—referred to in the
proceedings below, along with the other petitioners,
as the “Arizona Seldins”—began to suspect that
Theodore and Stanley were mismanaging their jointly
owned properties and engaging in self-dealing. Id.
Theodore and Stanley—described in the proceedings
below, along with the other respondents, as the
“Omaha Seldins”—countered with contentions of
their own.
The two sides decided their business relationship
had reached an irreconcilable end, and in February
2010, they entered into a formal separation
agreement. App. 3a-4a. As part of that agreement,
they agreed to settle their disputes through
arbitration in accordance with the commercial rules

7
of the American Arbitration Association (“AAA”) and
Nebraska law. Id. at 4a; E1-A, 47, 49.1
The AAA-appointed arbitrator, attorney Eugene
Commander, divided the parties’ dueling causes of
action and defenses into 10 “claims,” and further
bifurcated the proceedings on each claim, deciding
liability first, and then damages.
App. 4a-5a.
Petitioners prevailed on several of their claims and
were awarded millions of dollars. Id. at 46a. But
respondents also prevailed in part, and when all was
said and done, the arbitrator rendered a net award in
favor of respondents. Id. at 46a-47a.
2. This petition concerns the arbitrator’s
treatment of respondents’ most significant claim:
their causes of action in connection with the “Sky
Financial” asset. Sky Financial is an Arizona limited
liability company through which the Seldins (via
various entities) acquired fast-food restaurant
franchises. App. 5a.
The crux of respondents’ claim was that petitioner
Millard invested their money to become part owners
of Sky Financial without their full knowledge and
consent. But respondents pursued two inconsistent
theories of recovery. On the first theory, respondents
sought to recover against Millard and the other
petitioners under securities law for the wrongful
investment itself—and sought rescissionary damages
intended to put them back in the position they would
have been in had they never made the investment at
all. E2, 99-100; E2, 321-23. On the second theory,
respondents sought to recover against Millard and
1

Citations to “E#, [page]” refer to exhibits to the bill of
exceptions filed in Nebraska Supreme Court Nos. S-19-310, S19-311.

8
petitioners as owners of Sky Financial—alleging that
Millard absconded with a corporate opportunity by
not asking them to participate in Sky Financial’s
management and earn certain fees and compensation.
E2, 98-100.
In opposing the securities claims, petitioners
raised a defense based on respondents’ failure to
“tender” their ownership interests in Sky Financial,
as required by applicable law. App. 5a. In an
untimely effort to obviate that defense, respondents
came up with a bizarre solution: They offered to
“assign” their Sky Financial interests to the
arbitrator.
At the September 2016 arbitration
hearing in which they proposed this arrangement,
respondents explained that the assignments would be
“in the sense of an interpleader[],” and would enable
the arbitrator to decide to whom the tender of the Sky
Financial interests should be made. E2, 481:16-24;
see also App. 5a-6a, 18a-19a.
Petitioners expressed unease about the procedure
and declined to “commit” on the record about how it
should be “recognized.” E2, 482:4-8; see also App. 61a.
Likewise, the arbitrator noted that he was “in
unchartered waters here.”
E2, 481:13-14.
Nevertheless, he ultimately stated:
ARBITRATOR: Well, the only way I
know how to deal with this right now is
to consider this an act of interpleading
these interests to me. I’m not an officer
of the court, but I do have jurisdiction
over the matter, so for the time being,
at least, I’ll accept them.
Id. at 483:11-16; App. 19a. The arbitrator then asked
whether, “[w]ith that understanding in mind,” his

9
acceptance of the assignments would be acceptable to
both sides; counsel for petitioners answered yes. E2,
at 483:16-19, App. 19a; see also App. 6a.
3. In October 2016, the arbitrator entered an
interim award in respondents’ favor on their Sky
Financial claim. App. 6a. The arbitrator granted
respondents $1,962,528 in damages on their lostcorporate-opportunity claims based on respondents’
status as co-owners. Id. But the arbitrator also
awarded respondents $3,135,681 in rescissionary
damages for the securities violations—that is,
awarding them damages as if they had never been
owners of Sky Financial at all. Id. In April 2017, the
arbitrator reaffirmed those damages awards in the
Final Award, which—when offset by petitioners’
recovery—resulted in a net award to respondents of
$2,997,031, plus post-award interest. Id.
The Final Award also addressed respondents’
assignments of the Sky Financial interests to the
arbitrator during the arbitration hearing, noting that
the arbitrator had “accepted” the assignments “as a
form of temporary interpleader for the limited
purposes stated in the record.” E1-QQ, 462-63. But
then—and
notwithstanding
his
award
of
rescissionary damages—the arbitrator assigned the
interests back to respondents. Id. at 463. And in reconveying the interests, the arbitrator revealed for
the first time his belief that he had obtained those
interests in Sky Financial in his personal capacity:

10
The Arbitrator, individually and
d/b/a Gene Commander, Inc., a
Colorado corporation, disclaims and
releases any and all right, title and
interest in any and all membership
interests that were or could have been
the
subject
of
the
Original
Assignments.
And to the extent
deemed necessary, the Arbitrator
hereby re-assigns any and all such
interests back to the assignors.
Id. (emphasis added). At no point between the
September 2016 hearing and the April 2017 Final
Award did the arbitrator disclose to the parties his
apparent discovery that he had taken ownership of
the Sky Financial interests in his personal capacity—
not merely in a role akin to an officer of the court. Nor
did the arbitrator seek the parties’ written consent to
his proceeding over their dispute notwithstanding
that personal interest, as would be required of a judge
under Nebraska ethics law. See Neb. Rev. Stat. § 24739.
C.

Proceedings Below

1. Respondents filed an action in the District
Court of Douglas County, Nebraska seeking
confirmation of the Final Award under the FAA. App.
45a-46a. Petitioners opposed confirmation and asked
the court to either modify or vacate the award. Id. at
46a.
As relevant here, petitioners argued that the Sky
Financial portion of the award could not be enforced
because it granted respondents a double recovery:
Respondents received rescissionary damages as if
they had never invested in Sky Financial at all, while

11
also receiving damages based on their status as Sky
Financial owners. E50, 13-19. This double recovery
was rendered a triple recovery, moreover, by the
arbitrator’s assignment of the Sky Financial interests
back to respondents.
This windfall, petitioners
argued, violated a well-established Nebraska public
policy—enshrined in the state constitution—
permitting only compensatory damages for actual
losses. Id.
Petitioners additionally argued that the Sky
Financial portion of the award, or if necessary the
entire award, should be vacated under FAA Section
10(a)(2) due to the arbitrator’s evident partiality.
They pointed out that respondents’ assignments
apparently left “the Arbitrator himself as the record
owner of the [Sky Financial] shares,” thus “creat[ing]
an inherent conflict for him in any ruling to follow.”
Id. at 4-7; see also id. at 12, 24-25; E53-A, 12-15.
Petitioners further argued that they had never
provided written consent to the arbitrator continuing
to preside over the case while harboring a personal
interest in its subject matter, as required under Neb.
Rev. Stat. § 24-739. E53-F, 1-2. And they argued that
the arbitrator’s personal interest cast an appearance
of bias over the subsequent proceedings. E53-B, 6.
The district court rejected these arguments, ruling
in favor of respondents and confirming the Final
Award in full. App. 78a-79a; see also id. at 99a.
2. The Nebraska Supreme Court affirmed on
direct review.
App. 41a-42a.
The Court
acknowledged petitioners’ argument that the Sky
Financial award “violates Nebraska public policy by
creating a massive windfall for [respondents].” Id. at
11a. But the Court held that the FAA categorically
foreclosed its ability to set aside an award on that

12
basis: “[U]nder the FAA, a court is not authorized to
vacate an arbitration award based on public policy
grounds.” Id. at 25a.
In reaching this conclusion, the Nebraska
Supreme Court acknowledged its contrary prior
holding in State v. Henderson, 762 N.W.2d 1 (Neb.),
cert. denied, 557 U.S. 921 (2009). App. 22a-23a. In
Henderson—which arose under the Nebraska
Uniform Arbitration Act—the Nebraska Supreme
Court had drawn on decisions by this Court
recognizing the common-law authority to set aside
arbitral awards that contravene public policy. 762
N.W.2d at 246-50 (citing W.R. Grace, 461 U.S. at 766;
Misco, Inc., 484 U.S. at 42; Eastern Associated Coal,
531 U.S. at 62). But the Nebraska Supreme Court
nonetheless determined that it could not apply the
same public-policy exception to petitioners’ case in
light of this Court’s later decision in Hall Street—
which the Nebraska Supreme Court understood to
“abrogate[] public policy as grounds for vacating an
arbitration award” in cases governed by the FAA.
App. 25a. The Court therefore declined to “address
the merits of [petitioners’] argument that the
purported windfall in favor of [respondents] is
contrary to public policy.” Id.
The Nebraska Supreme Court also rejected
petitioners’ argument that the arbitrator’s receipt of
the Sky Financial interests gave rise to evident
partiality under FAA Section 10(a)(2). App. 20a. The
Court acknowledged petitioners’ argument that the
arbitrator’s conduct violated Neb. Rev. Stat. § 24-739,
which “provides . . . that a judge shall be disqualified
in any case in which he or she is a party or interested
except by mutual consent of the parties, which mutual
consent is in writing and made part of the record.”

13
App. 20a. The Court also acknowledged its prior
“instruction” that “‘judges and arbitrators are subject
to the same ethical standards.’” Id. at 20a-21a
(quoting Barnett v. City of Scottsbluff, 684 N.W.2d
553, 560 (Neb. 2004)).
Nonetheless, the Court refused to apply those
standards under the FAA, explaining that it had
previously “rejected a ‘judicial ethics’ standard when
analyzing the FAA’s requirement of ‘evident
partiality.’” App. 21a. Citing its precedent adhering
to Justice White’s Commonwealth Coatings
concurrence, the Nebraska Supreme Court explained
that evident partiality can only be found “where a
reasonable person would have to conclude that an
arbitrator was partial to one party to the arbitration,”
id. (quoting Dowd v. First Omaha Sec. Corp., 495
N.W.2d 36, 43 (Neb. 1993)), and “is not made out by
the mere appearance of bias,” id. at 20a (citation
omitted). Petitioners did not carry that “‘heavy
burden’” here, the Court explained, because there is
“no evidence that the arbitrator engaged
in . . . partiality by accepting the assignment of Sky
Financial.” Id. at 20a-21a (citation omitted).
REASONS FOR GRANTING THE WRIT
This petition presents two questions that have
long vexed federal and state courts: (1) whether the
public-policy exception to the enforceability of
arbitration awards was abrogated, sub silentio, by
this Court’s decision in Hall Street Associates, L.L.C.
v. Mattel, Inc., 552 U.S. 576 (2008); and (2) the proper
standard for “evident partiality” under FAA Section
10(a)(2).
Both questions are the subject of
longstanding, intractable, and acknowledged splits.
And in both instances, the confusion directly results

14
from a prior decision of this Court. Only the Court
can eliminate the uncertainty and clarify the proper
standards for confirmation of arbitration awards
going forward.
I. The Court Should Resolve The Split Over
Whether The FAA Permits Courts To Vacate
Arbitration Awards That Violate Public
Policy
First, the Court should resolve the split over
whether courts reviewing arbitration awards under
the FAA are foreclosed from setting aside awards that
are contrary to public policy.
A.

Courts Are Irreconcilably Divided On
This Issue

1. Judicial review of arbitration awards under
the FAA is necessarily circumspect, and courts should
overturn an award only in rare circumstances. See
Oxford Health Plans LLC v. Sutter, 569 U.S. 564, 568
(2013). But in three previous decisions spanning
nearly forty years, this Court recognized one such
circumstance: When the award would violate an
“explicit public policy,” the court should not enforce it.
W.R. Grace & Co. v. Local Union 759, Int’l Union of
United Rubber, Cork, Linoleum & Plastic Workers,
461 U.S. 757, 766 (1983); see also Eastern Associated
Coal Corp. v. United Mine Workers, Dist. 17, 531 U.S.
57, 62 (2000) (referring to “the legal exception that
makes unenforceable” an award “‘that is contrary to
public
policy’”
(citation
omitted));
United
Paperworkers Int’l Union v. Misco, Inc., 484 U.S. 29,
42 (1987) (explaining that this public-policy exception
derives from the common law). As a result, for many
years, it was widely recognized that courts could
vacate arbitral awards, including awards governed by

15
the FAA, if they resulted in “violations of public
policy.” Sheldon v. Vermonty, 269 F.3d 1202, 1206
(10th Cir. 2001); see also, e.g., Lessin v. Merrill Lynch,
Pierce, Fenner & Smith, Inc., 481 F.3d 813, 816 (D.C.
Cir. 2007); Brentwood Medical Assocs. v. United Mine
Workers, 396 F.3d 237, 241 (3d Cir. 2005).
That understanding has unraveled in the wake of
this Court’s 2008 decision in Hall Street. The Hall
Street parties had entered into an agreement stating
that a district court could vacate the arbitral award
“where the arbitrator’s conclusions of law are
erroneous.” 552 U.S. at 579. This Court found that
the FAA forbids such a contractual expansion of
judicial review. Explaining that Sections 10 and 11
“provide the FAA’s exclusive grounds for vacatur and
modification,” id. at 584, the Court held that the
parties could not supplement those provisions by
agreement.
In the Hall Street opinion, the Court addressed its
previous suggestion, in Wilko v. Swan, 346 U.S. 427,
436 (1953), that courts may vacate awards due to the
arbitrator’s “manifest disregard of the law.” See 552
U.S. at 584-85. The Hall Street Court explained that
Wilko did not establish a norm of “expandable judicial
review.” Id. But it declined to resolve whether the
lower courts had been right to recognize “manifest
disregard of law” as an additional vacatur ground—
either as “a new ground for review,” or as a
“shorthand” for one of the enumerated grounds in
Section 10. Id. at 585. Importantly, no party asked
the Court to overrule its decisions in Eastern
Associated Coal or W.R. Grace regarding the publicpolicy exception, and the Court did not state that it
was doing so.

16
2. After Hall Street, there is now widespread
confusion about whether courts are permitted to
vacate or modify FAA-governed awards on any
ground not expressly listed in Sections 10 and 11. In
particular, courts are starkly divided over the
remaining vitality of the common-law public-policy
exception recognized in W.R. Grace and its progeny.
a. Five courts—the Second, Fourth, Seventh,
and Ninth Circuits, as well as the Alaska Supreme
Court—have all continued to apply the public-policy
exception in post-Hall Street FAA decisions.
The Seventh Circuit has squarely rejected the
argument that Hall Street had any effect on the
public-policy doctrine.
See Titan Tire Corp. of
Freeport, Inc. v. United Steel, Paper & Forestry,
Rubber, Mfg., Energy, Allied Indus. & Serv. Workers
Int’l Union, 734 F.3d 708, 716-17 & n.8 (7th Cir. 2013)
(explaining that “the Hall Street Court did not
overrule Eastern Associated Coal or W.R. Grace, both
of which recognized a public policy exception”).
The Second, Fourth, and Ninth Circuits have
likewise rejected the argument that Hall Street
eliminated judicially created grounds for vacatur. See
Schwartz v. Merrill Lynch & Co., 665 F.3d 444, 45152 (2d Cir. 2011); Wachovia Sec., LLC v. Brand, 671
F.3d 472, 481-83 (4th Cir. 2012); Comedy Club, Inc. v.
Improv W. Assocs., 553 F.3d 1277, 1281, 1289-90 (9th
Cir. 2009). Consistent with that position, those courts
have continued to apply the public-policy exception in
particular.
See Schwartz, 665 F.3d at 451-52;
Matthews v. National Football League Mgmt. Council,
688 F.3d 1107, 1111-12 (9th Cir. 2012); DeMartini v.
Johns, 693 F. App’x 534, 537 (9th Cir. 2017); Wells
Fargo Advisers, LLC v. Watts, 540 F. App’x 229, 231
(4th Cir. 2013), cert. denied, 574 U.S. 870 (2014).

17
The Alaska Supreme Court has also applied the
public-policy exception in a post-Hall Street case, over
one party’s argument that the exception was a dead
letter. Dunham v. Lithia Motors Support Servs., Inc.,
No. S-15068, 2014 WL 1421780, at *6 (Alaska Apr. 9,
2014); see also Dunham Appellees Br. 9-13, 2013 WL
7206235.2
b. By contrast, the Eleventh Circuit and the
highest courts of Alabama and Florida—as well as the
Nebraska Supreme Court here—have held that Hall
Street categorically forecloses the possibility of a
public-policy challenge to an award governed by the
2

The Sixth Circuit has not addressed the continued
vitality of the public-policy exception, but it has held that Hall
Street did not eliminate the “manifest disregard of the law”
ground for vacatur. Coffee Beanery, Ltd. v. WW, LLC, 300 F.
App’x 415, 418-19 (6th Cir. 2008), cert. denied, 558 U.S. 819
(2009). It is unlikely that court would reach a different
conclusion as to the public-policy exception. Similarly, the First
Circuit has strongly suggested that the public-policy exception
remains viable without fully resolving the issue. See Bangor Gas
Co. v. H.Q. Energy Servs. (U.S.) Inc., 695 F.3d 181, 188 (1st Cir.
2012) (assuming, post-Hall Street, that arbitration award
directing a party to violate FERC rules and regulations would be
“vulnerable” on public policy grounds). And although the Fifth,
Eighth, and D.C. Circuits have not addressed the public-policy
exception’s continued vitality in the FAA context, all three have
continued to apply that exception in reviewing arbitral awards
under the Railway Labor Act (“RLA”), which—like the FAA—
provides enumerated grounds for vacatur and does not list an
express public-policy ground. See Sullivan v. Endeavor Air, Inc.,
856 F.3d 533, 537 (8th Cir. 2017); National R.R. Passenger Corp.
v. Fraternal Order of Police, Lodge 189 Labor Comm., 855 F.3d
335, 338 (D.C. Cir. 2017), cert. denied, 138 S. Ct. 979 (2018);
Southwest Airlines Co. v. Local 555, Transp. Workers Union
AFL-CIO, 912 F.3d 838, 844 (5th Cir. 2019); 45 U.S.C. § 153,
First(q).

18
FAA. Those courts reason that “the judicially-created
grounds for vacatur we have recognized in our prior
precedent . . . are no longer valid” after Hall Street,
based on this Court’s language about the “exclusivity”
of the grounds set forth in FAA Sections 10 and 11.
Frazier v. CitiFinancial Corp., 604 F.3d 1313, 1314,
1323-24 (11th Cir. 2010); see also Cavalier Mfg., Inc.
v. Gant, 143 So. 3d 762, 768-69 & n.5 (Ala. 2013);
Visiting Nurse Ass’n of Fla., Inc. v. Jupiter Med. Ctr.,
Inc., 154 So. 3d 1115, 1128, 1132 (Fla. 2014), cert.
denied, 135 S. Ct. 2052 (2015); App. 24a-25a. In
effect, these courts have concluded that, in Hall
Street, this Court overruled, sub silentio, its decisions
recognizing the public-policy exception in Eastern
Associated Coal and W.R. Grace, at least in the FAA
context.3
c. The split on the question presented is
acknowledged. As one district court has explained,
“the Circuit Courts of Appeals have . . . disagreed on
whether the public policy exception continues to serve
as cognizable means for challenging an arbitration
award.” Caputo v. Wells Fargo Advisors, LLC, No. CV
19-17204 (FLW), 2020 WL 2786934, at *3 (D.N.J. May
29, 2020); see also Immersion Corp. v. Sony Comput.
Ent. Am. LLC, 188 F. Supp. 3d 960, 968-69 (N.D. Cal.
2016). In addition, numerous courts have recognized
the more general confusion over what Hall Street
3

The Third, Fifth, and Tenth Circuits have noted that
the continued validity of the public-policy exception is an open
question following Hall Street, but have declined to resolve it.
See CD & L Realty LLC v. Owens Ill., Inc., 535 F. App’x 201, 205
n.3 (3d Cir. 2013); McKool Smith, PC v. Curtis Int’l, Ltd., 650 F.
App’x 208, 212 (5th Cir. 2016) (per curiam); Abbott v. Law Off. of
Patrick J. Mulligan, 440 F. App’x 612, 620, 624 & n.20 (10th Cir.
2011).

19
meant when it said that the grounds in Sections 10
and 11 are “exclusive.” See, e.g., Wachovia, 671 F.3d
at 481 & n.7 (“Hall Street has been widely viewed as
injecting uncertainty” and “[o]ur sister circuits have
split into three camps about the meaning of the word
‘exclusive’ . . . .”); Visiting Nurse, 154 So. 3d at 1130
(referring to the “federal circuit court split regarding
whether Hall Street prohibits all extra-statutory
grounds for vacating an award, including judicially
created grounds”). As Judge Willett has explained,
the proper treatment of common-law vacatur doctrine
in FAA cases has created “disarray” and a “quagmire.”
Hoskins v. Hoskins, 497 S.W.3d 490, 498-500 (Tex.
2016) (concurring).
B.

The Nebraska Supreme Court’s Decision
Was Wrong

The Nebraska Supreme Court chose to join the
wrong side of the split. Nothing in the FAA abrogates
courts’ longstanding authority to decline to enforce an
arbitral award that violates well-defined public
policy.
1. Three decisions of this Court—W.R. Grace,
Misco, and Eastern Associated Coal—have squarely
recognized a public-policy exception to the general
prohibition on overturning arbitrator awards. Those
decisions grounded the exception in a centuries-old
common-law principle of contracts. See 5 Williston on
Contracts § 12:1 (4th ed. 2020, Westlaw). Courts
must treat an arbitration award as if it represented
the parties’ own agreement. See Eastern Associated
Coal, 531 U.S. at 62. Thus, a court’s “refusal to
enforce” an award on public-policy grounds “is a
specific application of the more general doctrine,
rooted in the common law, that a court may refuse to

20
enforce contracts that violate law or public policy.”
Misco, 484 U.S. at 42; see also W.R. Grace, 461 U.S. at
766.
Although W.R. Grace, Eastern Associated Coal
Corp., and Misco all considered the public-policy
exception in the context of labor arbitration, they
announced a common-law rule that applies in other
contexts as well. This is made crystal clear by the
W.R. Grace Court’s citation to Hurd v. Hodge, 334
U.S. 24 (1948)—a case about judicial enforcement of
racially restrictive covenants—to establish the
existence of the rule that the Court was “obliged” to
follow. See W.R. Grace, 461 U.S. at 766; see also Hurd,
334 U.S. at 35 (“Where the enforcement of private
agreements would be violative of [the public policy of
the United States], it is the obligation of courts to
refrain from such exertions of judicial power.”).
This Court generally presumes Congress is aware
of the area of law in which it legislates and does not
intend to displace common-law rules. See United
States v. Texas, 507 U.S. 529, 534 (1993) (invoking the
“principle” that “‘[s]tatutes which invade the common
law . . . are to be read with a presumption favoring the
retention of long-established and familiar principles,
except when a statutory purpose to the contrary is
evident’” (alteration in original) (citation omitted)).
Here, there is no indication Congress intended to
displace this common-law rule in enacting the FAA.
To the contrary, the public-policy exception fits
naturally within Section 10(a)(4), which allows a
court to vacate an award where “the arbitrator[]
exceeded their powers.” 9 U.S.C. § 10(a)(4); cf.
Wachovia, 671 F.3d at 483 (noting that the “manifest
disregard of law” exception can be understood as a
“judicial gloss” on Section 10(a)(4)). The arbitrator’s

21
“powers” derive from the parties’ arbitration
agreement. And because the parties themselves
cannot agree to violate the law, the arbitrator exceeds
his or her powers when the award compels a violation
of public policy. See Brown v. TGS Mgmt. Co., 271
Cal. Rptr. 3d 303, 312-13 (Ct. App. 2020) (reversing
confirmation of an award that violated public policy
under the California Arbitration Act’s analogous
provision allowing for vacatur when the “arbitrators
exceeded their powers” (citation omitted)).
2. It is hardly surprising that Congress would
preserve this narrow escape valve to avoid judicial
enforcement of awards that violate well-defined
public policy. The Nebraska Supreme Court’s
decision in State v. Henderson illustrates why. 762
N.W. 2d 1 (Neb.), cert. denied, 557 U.S. 921 (2009). In
Henderson, the Court refused to confirm an award
reinstating a known member of the Ku Klux Klan to
his position as a police officer. Id. at 8-9, 17-18. The
award at issue was governed by the Nebraska
Uniform Arbitration Act, which (like the FAA) does
not explicitly provide for vacatur on public-policy
grounds; the Nebraska Supreme Court nonetheless
applied the common-law exception based on the
federal W.R. Grace trio of cases. See id. at 8-9. It
would be unjust—and entirely illogical—for the state
court to be compelled to enforce the same award if the
officer’s employment contract had instead arisen in
interstate commerce and been subject to the FAA.
Indeed, if the Nebraska Supreme Court’s
understanding of the FAA were correct, the federal
statute would have withdrawn state courts’
traditional jurisdiction to remedy violations of state
law in connection with interstate contracts. That
cannot have been Congress’s intent. Cf. Rice v. Santa

22
Fe Elevator Corp., 331 U.S. 218, 230 (1947) (“[W]e
start with the assumption that the historic police
powers of the States [are] not to be superseded by
[federal law] unless that was the clear and manifest
purpose of Congress.’”); Gregory v. Ashcroft, 501 U.S.
452, 464 (1991) (courts should be “absolutely certain”
that Congress intended to displace state authority
over qualifications of state adjudicators).
Moreover, this Court has already defined the
public-policy exception’s narrow contours. As the
Court held in W.R. Grace, an award may only be
vacated if the policy is “explicit,” “well defined and
dominant,” and “ascertained ‘by reference to the laws
and legal precedents and not from general
considerations of supposed public interests.’” 461
U.S. at 766 (quoting Muschany v. United States, 324
U.S. 49, 66 (1945)); see also Misco, 484 U.S. at 43-44;
Eastern Associated Coal, 531 U.S. at 62. The
exception is not a license for courts to freely overturn
awards because they seem unfair or reached the
wrong result, as this Court has already held in
policing the exception’s use. See Eastern Associated
Coal, 531 U.S. at 63-67.
3. Despite all this, a number of courts—
including the Nebraska Supreme Court below—have
held that Hall Street “abrogated” this common-law
exception. App. 25a. But they have misread that
decision. This Court never stated that it was
overruling its decisions recognizing the public-policy
exception. See Bosse v. Oklahoma, 137 S. Ct. 1, 2
(2016) (per curiam) (“[I]t is this Court’s prerogative
alone to overrule one of its precedents.” (alteration in
original) (citation omitted)). And the case did not
present an opportunity to do so. The narrow question
presented in Hall Street was whether the parties

23
could add an additional ground for judicial vacatur by
contractual agreement. See 552 U.S. at 578. It was in
that context that the Court explained that Section
10(a)’s enumerated “statutory grounds” were
“exclusive.” Id. The decision did not reject commonlaw bases for vacatur of arbitration awards. Nor did
it decide the scope of Section 10(a)(4).
In fact, this Court has since made clear that Hall
Street did not definitively resolve this issue. In StoltNielsen S.A. v. AnimalFeeds International Corp., the
Court noted that the question whether “‘manifest
disregard’ survives [the] decision in Hall Street”—
either “as an independent ground” or “as a judicial
gloss on the enumerated grounds for vacatur set forth
at 9 U.S.C. § 10”—remains open. 559 U.S. 662, 671
n.3 (2010). Stolt-Nielsen would not have said that if
Hall Street necessarily abrogated all extra-statutory
bases for vacatur, or if such bases could not possibly
be understood as a gloss on Section 10(a)(4). The
Nebraska Supreme Court’s contrary reading of Hall
Street—shared by at least three other appellate
courts—is simply mistaken.
C.

The Court Should Resolve The Split Of
Authority On The Public Policy
Exception In This Case

This Court’s intervention is necessary now. Only
this Court can definitively resolve the conflict over
whether Hall Street in fact overruled this Court’s
prior decisions recognizing a public-policy exception.
Nor will further percolation eliminate the entrenched
divide on this issue. The courts that have entertained
public-policy challenges following Hall Street were
aware of the decision and its purported significance.
Likewise, the courts on the other side interpret Hall

24
Street as tying their hands. See, e.g., App. 24a-25a.
Others have strenuously avoided deciding the issue,
preferring to await “firm guidance from the Supreme
Court.” Abbott v. Law Off. of Patrick J. Mulligan, 440
F. App’x 612, 620, 624 n.20 (10th Cir. 2011).
Answering this recurring threshold question is
crucial to preserving the benefits of arbitration as a
cost-effective alternative to litigation. Parties agree
to arbitration because it can provide “quicker, more
informal, and often cheaper resolutions for everyone
involved.” Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612,
1621 (2018). But since Hall Street, parties have been
forced to litigate whether the public-policy ground for
vacatur survives. This is especially wasteful because
courts often end up deciding the merits of the publicpolicy challenge anyway, finding that route more
straightforward than wading into the post-Hall Street
morass.4
This case presents an ideal vehicle to put the issue
to rest. The question presented was dispositive to the
Nebraska Supreme Court’s analysis: The Court’s sole
basis for rejecting petitioners’ public-policy argument
was its determination that the FAA does not permit
vacatur on such grounds at all. See App. 25a
(“Because public policy is not a ground for vacating an
arbitration award under the FAA, we need not
address the merits of [petitioners’] argument that the

4
For instance, the Third Circuit has three times avoided
deciding whether public-policy review survives Hall Street for
this reason. See CD & L Realty, 535 F. App’x at 205 n.3; Rite Aid
N.J., Inc. v. United Food Commercial Workers Union, Local
1360, 449 F. App’x 126, 129 (3d Cir. 2011); Andorra Servs. Inc.
v. Venfleet, Ltd., 355 F. App’x 622, 628 n.6 (3d Cir. 2009).

25
purported windfall in favor of [respondents] is
contrary to public policy.”).
And although this Court would not need to reach
the question (it would be an issue for the Nebraska
Supreme Court on remand), the state public policy at
issue here undoubtedly meets the “explicit,” “well
defined and dominant” test this Court adopted in
W.R. Grace, 461 U.S. at 766. The Nebraska public
policy against double recovery is longstanding, wellestablished, and enshrined in the Nebraska
Constitution. See, e.g., Abel v. Conover, 104 N.W.2d
684, 689-90 (Neb. 1960) (“[D]amages which double or
treble the actual compensatory damages established,
are in contravention . . . of the Nebraska
Constitution” (citing Neb. Const. art. I, § 3 and id. art.
VII, § 5)). Indeed, the Nebraska Supreme Court has
described the rule that “the measure of recovery in all
civil cases is compensation for the injury sustained”
as “so well settled that we dispose of it merely by the
citation of cases so holding.” Id. at 688. And there
can be no question that a state constitutional
prohibition qualifies as “dominant.” See Hurd, 334
U.S. at 34-35 (courts cannot enforce private
agreements at odds with “public policy as manifested
in the Constitution”).
Finally, it would be advantageous to address the
question presented when reviewing a state-court
decision refusing to enforce a state public policy. The
Nebraska Supreme Court firmly believed that the
FAA categorically requires the enforcement of an
award even if the award violated well-established and
dominant state law. App. 25a. Because this Court’s
interpretation of the FAA will therefore carry
significant federalism consequences, it makes sense

26
to resolve the question presented in a case—like this
one—bringing those considerations to the fore.
II. The Court Should Also Resolve The Split
Over The FAA’s “Evident Partiality”
Standard
Certiorari is also warranted to address a second
issue: the Nebraska Supreme Court’s mistaken
standard for finding “evident partiality” under FAA
Section 10(a)(2). The decision below implicates an
equally deep and even more longstanding split of
authority on this question of paramount importance
to arbitrations nationwide.
A.

Courts Have Divided Over Whether The
FAA Requires Arbitrators To Satisfy The
Same Ethical Standards As Judges

One of the enumerated grounds for vacatur under
the FAA is “where there was evident partiality . . . in
the arbitrators.” 9 U.S.C. § 10(a)(2). But “[e]xactly
what constitutes ‘evident partiality’ by an arbitrator
is a troublesome question,” and has been for a very
long time. Morelite Constr. Corp. v. New York City
Dist. Council Carpenters Benefits Fund, 748 F.2d 79,
82 (2d Cir. 1984). The confusion stems from this
Court’s 1968 decision in Commonwealth Coatings,
and in particular from courts’ attempts to reconcile
Justice White’s concurring opinion with the majority’s
analysis.
a. Four courts—the Ninth and Eleventh
Circuits, as well as the highest courts of Alabama and
Texas—have employed standards that faithfully
adhere to Justice Black’s majority opinion. These
courts have held that evident partiality must be found
when the arbitrator fails to disclose a fact or
circumstance that gives rise to a “reasonable

27
impression of partiality” (or “reasonable impression of
bias”). See Schmitz v. Zilveti, 20 F.3d 1043, 1047 (9th
Cir. 1994); University Commons-Urbana, Ltd. v.
Universal Constructors Inc., 304 F.3d 1331, 1339
(11th Cir. 2002); Municipal Workers Comp. Fund, Inc.
v. Morgan Keegan & Co., 190 So. 3d 895, 915-16 (Ala.
2015); Burlington N. R.R. Co. v. TUCO Inc., 960
S.W.2d 629, 636 (Tex. 1997). In other words, if an
arbitrator fails to disclose an interest that creates an
impression of bias, those courts say the nondisclosure
suffices to justify vacatur. See, e.g., Tenaska Energy,
Inc. v. Ponderosa Pine Energy, LLC, 437 S.W.3d 518,
525, 527 (Tex. 2014) (holding that “the standard for
evident partiality in Commonwealth Coatings . . .
requires vacating an award if an arbitrator fails to
disclose facts which might, to an objective observer,
create a reasonable impression of the arbitrator’s
partiality” and “evident partiality is established from
the nondisclosure itself”); Monster Energy Co. v. City
Beverages, LLC, 940 F.3d 1130, 1135-36 (9th Cir.
2019), cert. denied, 207 L. Ed. 2d 1100 (2020).
b. By contrast, seven federal courts of appeals—
and the Nebraska Supreme Court—have rejected the
Commonwealth Coatings majority’s analysis and
instead adhered to a much heightened standard,
supposedly derived from Justice White’s concurrence.
See, e.g., Morelite, 748 F.2d at 83 & n.3 (explaining
that Justice White’s opinion reflects the Court’s
holding and “much of Justice Black’s must be read as
dicta”). The First, Second, Third, Fourth, Fifth, Sixth,
and Seventh Circuits require a party seeking vacatur
of an award to show that “a reasonable person would
have to conclude that an arbitrator was partial to one
party to the arbitration.” Id. at 84 (emphasis added);
see also JCI Commc’ns, Inc. v. Int’l Bhd. of Elec.

28
Workers, Local 103, 324 F.3d 42, 51 (1st Cir. 2003);
Freeman v. Pittsburgh Glass Works, LLC, 709 F.3d
240, 253 (3d Cir. 2013); ANR Coal Co. v. Cogentrix of
N.C., Inc., 173 F.3d 493, 500 (4th Cir.), cert. denied,
528 U.S. 877 (1999); Cooper v. WestEnd Capital
Mgmt., LLC, 832 F.3d 534, 545 (5th Cir. 2016);
Nationwide Mut. Ins. Co. v. Home Ins. Co., 429 F.3d
640, 645 (6th Cir. 2005); Merit Ins. Co. v. Leatherby
Ins. Co., 714 F.2d 673, 681 (7th Cir.), cert. denied, 464
U.S. 1009 (1983). In practice, this “would have to
conclude” standard effectively demands a showing of
actual bias—though even Justice White did not
purport to go that far. See Commonwealth Coatings,
393 U.S. at 151 n.* (White, J., concurring).
Further watering down the FAA rule, many of
those courts (including the Nebraska Supreme Court
here) have specifically held that arbitrators are
subject to lower disqualification standards than
judges, also in direct contravention of the
Commonwealth Coatings majority.
See, e.g.,
Freeman, 709 F.3d at 251-53 (holding that the
“appearance
of
bias”
standard,
i.e.,
“the
disqualification standard for federal judges,” is
inapposite);
Morelite,
748
F.2d
at
82-83
(acknowledging that Justice Black’s opinion
“appeared to impose upon arbitrators the same lofty
ethical standards required of Article III judges,” but
rejecting that discussion as dicta); Sphere Drake Ins.
Ltd. v. All Am. Life Ins. Co., 307 F.3d 617, 621 (7th
Cir. 2002), cert. denied, 538 U.S. 961 (2003)
(explaining that “the ‘appearance of partiality’ ground
of disqualification for judges does not apply to
arbitrators”). As the Second Circuit has explained its
position, “[u]nlike a judge, who can be disqualified ‘in
any proceeding in which his impartiality might

29
reasonably be questioned,’” an “arbitrator is
disqualified only when a reasonable person . . . ‘would
have to conclude’ that an arbitrator was partial to one
side.” Applied Indus. Materials Corp. v. Ovalar
Makine Ticaret Ve Sanayi, A.S., 492 F.3d 132, 137 (2d
Cir. 2007) (citations omitted).
In addition—and also unlike the Ninth and
Eleventh Circuits—courts on the long side of this split
have held that an arbitrator’s failure to disclose a
potential conflict “has no independent legal
significance and does not in itself constitute grounds
for vacating an award” under Section 10(a)(2). ANR
Coal, 173 F.3d at 499-500; see also Dowd v. First
Omaha Sec. Corp., 495 N.W.2d 36, 42 (Neb. 1993).
c. Some circuits have adopted mixed or muddled
standards. The Tenth Circuit has stressed that
“[a]rbitrators are, of course, obligated to disclose
possible bias,” while simultaneously holding that “it
is only clear evidence of impropriety which justifies”
vacatur. Ormsbee Dev. Co. v. Grace, 668 F.2d 1140,
1147 (10th Cir.), cert. denied, 459 U.S. 838 (1982).
The D.C. Circuit has offered two competing standards
in the same decision—referring to the arbitrator’s
“duty to disclose facts that ‘might create an
impression of possible bias,’” while noting that that a
party “‘must establish specific facts that indicate
improper motives.”’ Al-Harbi v. Citibank, N.A., 85
F.3d 680, 683 (D.C. Cir. 1996) (citations omitted). The
Eighth Circuit has forthrightly acknowledged that its
decisions are internally inconsistent: While its earlier
opinions utilized the “‘impression of possible bias’”
standard, “over time [the circuit’s] interpretation of
evident partiality has migrated” toward a more
stringent showing. Ploetz v. Morgan Stanley Smith
Barney LLC, 894 F.3d 894, 898 (8th Cir. 2018)

30
(citation omitted); see also id. (admitting that it is
unclear “which of our constructions of [evident
partiality]” is “circuit precedent”).
d. It is thus clear that federal and state courts
are employing conflicting and inconsistent standards
for resolving evident-partiality challenges.
This
confusion about the proper benchmark undoubtedly
leads to divergent results:
The “reasonable
impression of partiality” standard “is much broader”
than the “would have to conclude” standard, “as
circumstances can convey an impression of partiality
without necessarily dictating a conclusion of
partiality.”
Burlington, 960 S.W.2d at 633-34
(citation omitted).
This striking lack of uniformity has been widely
noted. See Ploetz, 894 F.3d at 898; Positive Software
Sols., Inc. v. New Century Mortg. Corp., 476 F.3d 278,
281 (5th Cir. 2007) (en banc); Burlington, 960 S.W.2d
at 633-34. Indeed, scholars have long lamented the
“longstanding, wide-ranging, and intractable judicial
division over evident-partiality doctrine,”5 noting that
the courts’ “struggle” over “whether to apply the
majority or concurrence” in Commonwealth Coatings
has “resulted in multiple interpretations,”6 and that
“the standards for what constitutes evident partiality
are vague and oftentimes conflicting.”7
5

Edward C. Dawson, Speak Now or Hold Your Peace:
Prearbitration Express Waivers of Evident-Partiality Challenges,
63 Am. U. L. Rev. 307, 324 (2013).
6
Braydon Roberts, An Evident Contradiction: How Some
Evident Partiality Standard Do Not Facilitate Impartial
Arbitration, 43 J. Corp. L. 681, 683 (2018).
7

Kathryn A. Windsor, Defining Arbitrator Evident
Partiality: The Catch-22 of Commercial Litigation Disputes, 6

31
B.

The
Nebraska
Supreme
Standard
For
Finding
Partiality” Is Wrong

Court’s
“Evident

The Court should also grant review because the
Nebraska Supreme Court’s position is manifestly at
odds with Commonwealth Coatings.
Justice Black’s opinion for the majority explicitly
adopts an “impression of possible bias” standard that
holds arbitrators to the same standards as judges,
including when it comes to disclosure of conflicts. 393
U.S. at 148-49. The only way courts on Nebraska’s
side of the split can justify their disregard of that
language is to deem Justice White’s narrower
concurring opinion controlling. See, e.g., Freeman,
709 F.3d at 251-52. The Nebraska Supreme Court
has even downgraded the six-Justice majority to a
“plurality opinion,” stating that courts have no
obligation to follow the majority’s “holding” that an
impression of bias suffices. Dowd, 495 N.W.2d at 42.
This misunderstands basic rules of judicial
decisionmaking and vertical stare decisis. Justice
White concurred in the Court’s decision (not just in
the judgment), explaining that he was “glad to join”
the majority opinion. Commonwealth Coatings, 393
U.S. at 150 (White, J., concurring). The “additional
remarks” of a concurring opinion, id., cannot, of
course, rewrite the majority’s reasoning. See Gill v.
Whitford, 138 S. Ct. 1916, 1931 (2018) (“The
reasoning of this Court with respect to the disposition
Seton Hall Cir. Rev. 191, 192 (2009); see also Restatement
(Third) U.S. Law of Int’l Comm. Arb. § 4.18, cmt. B (Proposed
Final Draft 2019) (reporter’s note) (noting that “federal courts
have diverged significantly in defining ‘evident partiality,’” due
to a lack of “guidance” from this Court).

32
of this case is set forth in this opinion and none
other.”).
Even if the Commonwealth Coatings majority’s
approach were not binding, it is the right one. As the
Court explained, “if anything,” courts should “be even
more scrupulous” when it comes to policing the
impartiality of arbitrators than when considering
whether judges are impartial. 393 U.S. at 148-49.
This is because many of the other safeguards of the
judicial system, including appellate review, are not
present in the arbitration context. See id. A robust
standard that polices apparent partiality thus
“ensures that parties can view arbitration as a
substitute for litigation.”
University CommonsUrbana, 304 F.3d at 1338.
Further, and as the Commonwealth Coatings
majority also stressed, the “reasonable impression of
partiality” standard achieves basic fairness without
sacrificing arbitration’s benefits.
Requiring
arbitrators to adhere to the “simple requirement” that
they be free of conflicts that can give rise to the
impression of bias—or else disclose such conflicts and
obtain proper consent—is not onerous or unduly
disruptive to arbitrations. Commonwealth Coatings,
393 U.S. at 149.
To the contrary, such rules are the norm in
arbitration proceedings. The AAA Code of Ethics for
Arbitrators in Commercial Disputes requires
arbitrators to avoid “acquiring any financial or
personal interest, which is likely to affect impartiality
or which might reasonably create the appearance of
partiality.” AAA, Code of Ethics for Arbitrators in
Commercial Disputes, Canon I.C (effective Mar. 1,
2004) (emphasis added). The AAA Code also requires

33
disclosure of any such conflicts on an ongoing basis.
Id., Canon II.B-C.8
Likewise, the Revised Uniform Arbitration Act
(“RUAA”) requires arbitrators to disclose “any known
facts that a reasonable person would consider likely
to affect [their] impartiality,” including a financial
interest in the outcome. RUAA § 12(a)-(b) (Nat’l Conf.
Comm’rs on Unif. State L. 2000). And many States—
including Nebraska—impose rules of judicial ethics
on arbitrators under state law. See Neb. Rev. Stat.
§ 25-2604.01
(arbitrators
are
subject
to
disqualification on same grounds as judges); Barnett,
684 N.W.2d at 560; accord Cal. Civ. Proc. Code
§ 1281.9(a) (requiring arbitrators to disclose “all
matters that could cause a person aware of the facts
to reasonably entertain a doubt” as to their
impartiality, including the “existence of any ground
specified in [California law] for disqualification of a
judge”).9 Needless to say, jurisdictions and arbitral
bodies would not impose these standards if they were

8

AAA rules additionally require arbitrators to disclose
“any circumstance likely to give rise to justifiable doubt as to the
arbitrator’s impartiality or independence, including . . . any
financial or personal interest in the result of the arbitration.”
AAA, Commercial Arbitration Rules and Mediation Procedures,
R-17(a) (effective July 1, 2016).
9

See

Insurance

also

Ltd.

Halliburton

Co.

v.

Chubb

Bermuda

[2020],
UKSC
48
¶ 50,
https://www.supremecourt.uk/cases/docs/uksc-2018-0100judgment.pdf (explaining that English law requires removal of
an arbitrator where “circumstances exist that give rise to
justifiable doubts as to his impartiality” (citation omitted)); id.
¶ 132 (holding that an arbitrator must disclose circumstances
that “might reasonably cause the objective observer” to “conclude
there was a real possibility that the arbitrator was biased”).

34
unrealistic or fundamentally unsuited to the nature
of arbitration. See Monster Energy, 940 F.3d at 1137.
C.

The Court’s Intervention Is Needed On
This Question As Well

The standard for evaluating evident partiality
challenges under FAA Section 10(a)(2) is
unquestionably important and recurring. Until this
Court clarifies the proper standard, the unnecessary
confusion will remain. See Merit Ins., 714 F.2d at 681
(pointing out that “the only Supreme Court
decision [on evident partiality] provides little
guidance”).
This case presents a clean opportunity to
eliminate it. The Nebraska Supreme Court’s refusal
to apply the “reasonable impression of bias” standard
squarely implicates the split. App. 21a; see also
Dowd, 495 N.W.2d at 43. And the Court’s position
was determinative of the partiality challenge here.
Petitioners argued that the arbitrator’s receipt of the
Sky Financial interests would have required
disqualification under Nebraska judicial ethics law
and thereby established the reasonable impression
that the arbitrator was partial to respondents.
Specifically, the arbitrator never disclosed his posthearing determination—first revealed in the Final
Award—that he believed he had acquired the
assigned Sky Financial interests in his personal
capacity, not just as an “officer of the court.” See
supra at 9-10. At no point did the arbitrator seek
petitioners’ written consent to his presiding over the
remainder of the arbitration notwithstanding his
belief that he held a personal interest in the subject
matter of the dispute—as Nebraska judicial ethics
law would require. Neb. Rev. Stat. § 24-739; see also

35
Neb. Rev. Stat. § 25-2604.01; Barnett, 684 N.W.2d at
560.
The Nebraska Supreme Court sidestepped those
arguments based on an error of federal law. Relying
on its own earlier decision “reject[ing the] ‘judicial
ethics’ standard,” the Court emphasized petitioners’
need to show that an observer “would have to conclude
that [the] arbitrator” was biased in favor of
respondents. App. 21a (emphasis added). Based on
the application of that stringent standard, the Court
dismissed the arbitrator’s violation of Nebraska
ethics law as insufficient. Id. at 20a-21a.
Certiorari is warranted to resolve the conflict on
this recurring issue and clarify that the “reasonable
impression of bias” standard governs the analysis
under Section 10(a)(2). The Court should remand for
reconsideration of petitioners’ challenge under the
correct legal standard.

36
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
BARTHOLOMEW L. MCLEAY
KUTAK ROCK LLP
1650 Farnam Street
Omaha, NE 68102

ROMAN MARTINEZ
Counsel of Record
GREGORY G. GARRE
CAROLINE A. FLYNN
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-3377
roman.martinez@lw.com
Counsel for Petitioners

December 31, 2020

APPENDIX

TABLE OF CONTENTS
Page
Opinion of the Supreme Court of Nebraska,
Seldin v. Estate of Silverman, 939 N.W.2d
768 (Neb. 2020) ...................................................1a
Order of the District Court of Douglas County,
Nebraska on Motion to Vacate the
Arbitrator’s Final Award and Motion to
Confirm Arbitration Award as Judgment,
Seldin v. Seldin, Nos. CI 17-4272 and
CI 17-6276 (Companion Case Nos. CI 167509; CI 16-8394; CI 17-506, CI 17-651;
and CI 17-3637) (Neb. Dist. Ct., Douglas
Cty. May 3, 2018) ..............................................43a
Order of the District Court of Douglas County,
Nebraska on Motion to Alter or Amend,
Motion for Attorney Fees and Costs,
Motion for Supersedeas Bond, Seldin v.
Seldin, Nos. CI 17-4272 and CI 17-6276
(Companion Case Nos. CI 16-7509; CI 168394; CI 17-506, CI 17-651; and CI 173637) (Neb. Dist. Ct., Douglas Cty. Feb. 28,
2019) ..................................................................80a
Order of the Supreme Court of Nebraska
Denying Rehearing, Seldin v. Estate of
Silverman, Case No. S-19-000310, and
Seldin v. Seldin, Case No. S-19-000311
(Neb. Aug. 4, 2020) .........................................100a
9 U.S.C. § 9 ............................................................102a
9 U.S.C. § 10 ..........................................................103a
9 U.S.C. § 11 ..........................................................104a

1a
SUPREME COURT OF NEBRASKA
Millard R. SELDIN, individually and as Trustee
of the Millard R. Seldin Revocable Trust,
dated October 9, 1993, et al., appellants
and cross-appellees,
and
Scott A. Seldin, individually and as Trustee
of the Seldin 2002 Irrevocable Trust, dated
December 31, 2002, appellant, cross-appellant,
and cross-appellee,
v.
ESTATE OF Stanley C. SILVERMAN et al.,
appellees, cross-appellants, and cross-appellees.
Theodore M. Seldin, individually and as Trustee
of the Amended and Restated Theodore M. Seldin
Revocable Trust, dated May 28, 2008, et al.,
appellees, cross-appellants, and cross-appellees,
v.
Millard R. Seldin, individually and as Trustee
of the Millard R. Seldin Revocable Trust,
dated October 9, 1993, et al., appellants
and cross-appellees,
and
Scott A. Seldin, individually and as Trustee
of the Seldin 2002 Irrevocable Trust,
dated December 31, 2002, appellant,
cross-appellant, and cross-appellee.
Nos. S-19-310, S-19-311.
Filed March 6, 2020

2a
939 N.W.2d 768
Heavican, C.J., Cassel, Stacy, Funke, Papik, and
Freudenberg, JJ.
Heavican, C.J.
I. INTRODUCTION
This is an appeal from a judgment of the district
court for Douglas County, confirming an arbitration
award of $2,997,031 under the Federal Arbitration
Act (FAA)1 and awarding attorney fees as a sanction
under Neb. Rev. Stat. § 25-824 (Reissue 2016).
II. BACKGROUND
These two cases arose out of an arbitration
between family members designated as the “Omaha
Seldins” and the “Arizona Seldins.” The term “Omaha
Seldins” refers to the following individuals, entities,
and trusts: Theodore M. Seldin, individually and in
his capacity as trustee of the Amended and Restated
Theodore M. Seldin Revocable Trust, dated May 28,
2008; Howard Scott Silverman as trustee of the
Amended and Restated Stanley C. Silverman
Revocable Trust, dated August 26, 2006; Silverman
Holdings, LLC, a Nebraska limited liability company;
SCS Family, LLC, a Nebraska limited liability
company; TMS & SNS Family, LLC, a Nebraska
limited liability company; Sarah N. Seldin and Irving
B. Epstein, as trustees of the Theodore M. Seldin and
Sarah N. Seldin Children’s Trust, dated January 1,
1995; Uri Ratner as trustee of the Stanley C.
Silverman and Norma R. Silverman Irrevocable Trust
Agreement (2008), dated April 10, 2008; John W.
1

9 U.S.C. §§ 1 through 16 (2018).

3a
Hancock, Irving B. Epstein, and Randall R. Lenhoff
as trustees of the Theodore M. Seldin and Sarah N.
Seldin Irrevocable Trust Agreement (2008), dated
May 12, 2008. The term “Arizona Seldins” refers to
the following individuals, entities, and trusts: Millard
R. Seldin, individually and as trustee of the Millard
R. Seldin Revocable Trust, dated October 9, 1993;
Scott A. Seldin, individually and as trustee of the
Seldin 2002 Irrevocable Trust, dated December 13,
2002; Seldin Real Estate, Inc., an Arizona
corporation; Kent Circle Investments, LLC, an
Arizona limited liability company; and Belmont
Investments, LLC, an Arizona limited liability
company.
For a period of more than 50 years, the parties
held joint ownership interests as the Seldin Company
in numerous entities located in the Omaha,
Nebraska, area. The three principals of the Seldin
Company were Millard; Millard’s younger brother,
Theodore; and Millard’s brother-in-law, Stanley C.
Silverman. The Seldin Company’s principal place of
business was Omaha. However, in 1987, Millard
began relocating the business operations from Omaha
to Scottsdale, Arizona. Theodore and Stanley coowned the company, and they agreed to manage the
jointly owned properties through management
agreements.
In 2007, the Arizona Seldins (specifically Millard
and Millard’s son, Scott) began to question how
Theodore and Stanley were managing the jointly
owned properties. In 2010, the Arizona Seldins
terminated the management agreements and the
parties entered into an agreement to separate their
joint interests in real estate assets through a bidding
process. The “Separation Agreement” included a

4a
provision whereby the parties agreed to resolve all
“Ancillary Claims” exclusively through binding
arbitration before arbitrator Stefan Tucker with the
Venable, LLP, law firm in Washington, D.C. In case
of Tucker’s inability to serve as arbitrator, the
agreement named a Venable partner as his successor.
If both Tucker and the successor were unable to serve
as arbitrator, the agreement provided that Venable’s
managing partner was responsible for identifying a
substitute successor. The agreement also included
provisions defining the scope of arbitration, as well as
a provision that the “Commercial Division Rules” of
the American Arbitration Association (AAA) would
govern.
After the bidding process was completed, the
parties began arbitration before Tucker in October
2011. While the arbitration was ongoing, the Arizona
Seldins filed three lawsuits in the district court for
Douglas County regarding their claims or,
alternatively, seeking to remove Tucker as arbitrator.
The district court dismissed the lawsuits and
compelled the Arizona Seldins back to arbitration
after finding the FAA governed the arbitration
provision in the agreement. The Arizona Seldins then
filed a demand with the AAA, seeking to disqualify
Tucker as the arbitrator. The AAA denied the
request; however, Tucker subsequently resigned and
neither the successor arbitrator nor Venable was
willing to participate in the arbitration. The parties
agreed to select an arbitrator through the AAA, and
Eugene R. Commander (hereinafter arbitrator) was
appointed.
Arbitration resumed in October 2013. Due to the
number of claims, each involving several independent
causes of action and affirmative defenses, the

5a
arbitrator proposed bifurcating each claim to address
liability and damage claims in separate hearings
when necessary. The parties agreed to the proposal,
and a schedule of hearings was adopted.
After extensive discovery was conducted, 11
evidentiary hearings took place over a span of 14
months. Pursuant to the separation agreement, the
hearings took place in Omaha. During the 53 days of
hearings, 58 fact and expert witnesses testified and
1,985 exhibits were admitted into evidence. As
permitted by the AAA’s rules,2 the arbitrator issued
12 separate interim awards at the end of hearings in
which determinations of liability or damages had
been made. The parties agreed that these interim
awards were not considered final awards and that a
final award would be issued after the arbitration had
closed. The parties also agreed that the entities and
individuals that made up each of the two parties were
jointly and severally liable for any award issued by
the arbitrator.
At some point during the arbitration proceedings,
the Arizona Seldins asserted that the Omaha Seldins’
lack of tender of one of its assets, Sky Financial
Securities, LLC (Sky Financial), was a defense to
damages under the Arizona Securities Act. Sky
Financial is an Arizona limited liability company,
created as part of a plan to acquire and operate a
chain of pizza restaurants in numerous states. In
response, the Omaha Seldins requested that the
arbitrator take possession of Sky Financial as a form
of interpleader so as to permit the award of the asset
2 American
Arbitration
Association,
Commercial
Arbitration Rules and Mediation Procedures R-37 at 24 (Oct. 1,
2013).

6a
to the appropriate party after a determination was
made. The Arizona Seldins did not object to the
procedure, and when asked whether the assignment
as a form of interpleader was acceptable to both sides,
the Arizona Seldins stated, “Yes.” The Omaha
Seldins then tendered Sky Financial to the arbitrator
by assignment.
In one of the interim awards, the arbitrator
determined that the Arizona Seldins had breached
their fiduciary duties and engaged in securities law
violations relating to Sky Financial. After finding
that none of the affirmative defenses raised by the
Arizona Seldins were meritorious, the arbitrator
awarded the Omaha Seldins $1,962,528 in damages
for their lost corporate opportunities claims, as well
as an additional $3,135,681 in recessionary damages
for the securities violation claims.
On April 12, 2017, the arbitration was officially
closed. On April 27, the arbitrator issued a final net
award in favor of the Omaha Seldins and against the
Arizona Seldins in the amount of $2,997,031, plus
postaward simple interest.
The final award
incorporated each of the prior interim awards issued
and found the Arizona Seldins jointly and severally
liable for the entire amount.
On May 23, 2017, the Omaha Seldins filed a
motion to confirm the final award in district court.
Opposing confirmation, the Arizona Seldins filed a
motion seeking to modify, correct, and/or vacate the
award. The Arizona Seldins argued, summarized,
that the arbitrator (1) engaged in misbehavior
regarding assignment of the Sky Financial asset, and
thus the Omaha Seldins lacked standing after the
assignment; (2) failed to provide a reasoned award on
three of the Arizona Seldins’ key affirmative defenses;

7a
(3) exceeded his power in awarding legal fees and
expenses to the Omaha Seldins, because the
separation agreement precluded the award of
attorney fees; and (4) materially miscalculated the
amount of prejudgment interest by applying the
incorrect interest rate or, alternatively, exceeded his
power in awarding damages that included the
calculated amount of prejudgment interest.
Scott, one of the Arizona Seldins, sought further
and separate relief. Scott argued that with regard to
the Sky Financial claims, the arbitrator made an
“evident material mistake in the description of
‘Respondents’ ” and made an award on matters not
submitted to him. Scott alternatively argued that the
arbitrator exceeded his power or imperfectly executed
it, by issuing an award of liability against Scott on
those claims.
In addition, Scott filed multiple
applications seeking to vacate, confirm, and/or modify
some of the interim awards in companion cases CI 167509, CI 16-8394, CI 17-506, CI 17-651, and CI 173637. The district court held that the interim awards
were nonfinal arbitration orders and dismissed the
applications.
On May 3, 2018, the district court issued an order
sustaining the Omaha Seldins’ motion to confirm the
arbitration award and overruling the Arizona Seldins’
motion to vacate the award. The district court also
awarded the Omaha Seldins
an amount equal to the attorneys’ fees and costs
[the Omaha Seldins] incurred in resisting [the
Arizona Seldins’] application seeking vacation or
modification of the Final Award and in seeking
dismissal of the various applications (Case Nos.
CI 16-7509; CI 16-8394; CI 17-506; CI 17-651;
and CI 17-3637) . . . Scott . . . filed seeking to

8a
modify, vacate, or confirm the Arbitrator’s
Interim Awards [under Neb. Rev. Stat. “§ 25834”].
The district court had mistakenly referred to the
statute authorizing the sanction as Neb. Rev. Stat.
§ 25-834 (Reissue 1995), instead of § 25-824.
On July 30, 2018, the Omaha Seldins offered into
evidence affidavits with attached fee statements from
two law firms, demonstrating the amount of fees
incurred on behalf of the Omaha Seldins in resisting
the Arizona Seldins’ motion to vacate and in seeking
dismissal of Scott’s interim award applications. The
affidavits established that the law firm of McGill,
Gotsdiner, Workman & Lepp, P.C., L.L.O. (McGill),
had incurred $131,184.45 in fees and that the law
firm of Bryan Cave Leighton Paisner LLP (Bryan
Cave) had incurred $211,676.50 in fees, both on behalf
of the Omaha Seldins. The exhibit containing the
McGill firm’s statement of fees had been redacted for
privilege purposes. At a subsequent hearing, the
Omaha Seldins offered an unredacted version of the
McGill firm’s fee statement, which the court received
into evidence under seal.
On February 28, 2019, the district court issued its
order denying the Arizona Seldins’ and Scott’s
motions to alter or amend. In the same order, the
district court awarded the Omaha Seldins attorney
fees in the amount of $131,184.45.
On June 3, 2019, the Omaha Seldins filed a motion
for order nunc pro tunc, requesting that the district
court modify the amount of attorney fees to include
Bryan Cave’s fees of $211,676.50, for a total award of
$342,860.95. After a hearing on the motion, in a
written order dated August 26, 2019, the district court

9a
denied the Omaha Seldins’ motion for order nunc pro
tunc. In its order, the district court stated that it had
“clearly intended to award attorney fees to [the
Omaha Seldins] in an amount, as stated in the Court’s
Order of February 28, 2019, equal to the attorney fees
and costs incurred,” but denied the motion after
concluding that “[a]n Order Nunc Pro Tunc [could not]
be used to enlarge the judgment or substantially
amend[ ] the judgment even though said judgment
was not the order intended.”
On May 11, 2018, Scott filed a motion to alter or
amend the district court’s May 3 order. Scott argued
that the award of attorney fees and costs was beyond
the amount permitted as damages and that the
arbitrator’s award of attorney fees was improper. The
motion further asserted that the order had referenced
§ 25-834 as authorizing the sanction against the
Arizona Seldins, but that § 25-834 is unrelated to an
award of attorney fees and had been repealed by the
Legislature in 2002.
The Arizona Seldins also filed a motion to alter or
amend the order. The motion incorporated Scott’s
arguments and additionally asserted that the district
court failed to specifically address some of the Arizona
Seldins’ prior arguments, including whether the final
award violated the automatic bankruptcy stay,
whether the final award violated Nebraska’s public
policy and resulted in a massive windfall to the
Omaha Seldins, and whether the arbitrator engaged
in evident partiality.
On February 28, 2019, the district court issued a
13-page order detailing its findings and overruling
both motions to alter or amend the May 3, 2018, order.
The February 28, 2019, order included a nunc pro
tunc modification, substituting § 25-824 for the

10a
references to § 25-834 in the previous order. When
discussing the sanction ordered against the Arizona
Seldins, the district court noted that its May 3, 2018,
order had “repeatedly identified the absence of
rational factual or legal basis to support [the Arizona
Seldins’] theories of modifying or vacating the Final
Award.” The district court articulated that “[w]hat
should have been a fairly simple procedure, [the
Arizona Seldins] literally turned into a re-litigation of
the Arbitration itself.”
The Arizona Seldins appeal the district court’s
order confirming the award and the district court’s
order of sanctions under § 25-824. Scott, individually,
filed a cross-appeal asserting that the final award
against him should be modified, corrected, or vacated
by law and that the district court abused its discretion
in imposing sanctions and overruling his motion to
alter or amend. The Omaha Seldins also filed a crossappeal, challenging the amount of attorney fees and
costs ordered by the district court and the district
court’s denial of the Omaha Seldins’ motion for order
nunc pro tunc. The Arizona Seldins subsequently
filed a motion to dismiss the Omaha Seldins’ crossappeal, claiming the Omaha Seldins’ registration of
the district court’s judgment with an Arizona state
court constituted an acceptance of the benefits of the
judgment and, thus, precluded them from appealing
the judgment.
We granted the parties’ petition to bypass the
Nebraska Court of Appeals, and the two cases, S-190310 and S-19-0311, have been consolidated for
purposes of oral argument and disposition.

11a
III. ASSIGNMENTS OF ERROR
The Arizona Seldins’ assignments, renumbered
and restated, are that the district court erred in
(1) failing to vacate the Sky Financial award because
the award was secured through misbehavior by the
arbitrator; (2) failing to vacate the final award
because the Sky Financial award violates Nebraska
public policy by creating a massive windfall for the
Omaha Seldins; (3) confirming the arbitrator’s award
of attorney fees because the award exceeded the scope
of the separation agreement, which expressly
prohibited an award of attorney fees; (4) awarding
sanctions under § 25-824; and (5) excluding evidence
of the Omaha Seldins’ acting contrary to the
separation agreement and the award by currently
seeking additional damages in other litigation for the
same Sky Financial investment.
Scott’s assignments of error on cross-appeal,
summarized, are that the district court erred in
(1) failing to modify or correct an evident material
mistake in the description of respondents in the final
award relating to him; (2) failing to vacate the final
award on the ground of arbitrator misbehavior;
(3) failing to vacate the final award on the ground that
the arbitrator exceeded his authority in regard to the
claims bar date; and (4) imposing sanctions pursuant
to § 25-824 and denying Scott’s motion to alter or
amend the district court’s order regarding the
sanctions.
The Omaha Seldins assign on cross-appeal that
the district court erred in (1) denying their motion for
order nunc pro tunc and (2) failing to award the
Omaha Seldins their reasonable attorney fees and
costs incurred. While not specifically assigned as

12a
error, the Omaha Seldins also assert that the Arizona
Seldins’ public policy argument is time barred.
IV. STANDARD OF REVIEW
A jurisdictional question which does not involve a
factual dispute is determined by an appellate court as
a matter of law.3
In reviewing a decision to vacate, modify, or
confirm an arbitration award under the FAA, an
appellate court is obligated to reach a conclusion
independent of the trial court’s ruling as to questions
of law.4 However, the trial court’s factual findings
will not be set aside on appeal unless clearly
erroneous.5
On appeal, a trial court’s decision awarding or
denying attorney fees will be upheld absent an abuse
of discretion.6 When an attorney fee is authorized,
the amount of the fee is addressed to the discretion of
the trial court, whose ruling will not be disturbed on
appeal in the absence of an abuse of discretion.7
A motion to alter or amend a judgment is
addressed to the discretion of the trial court, whose
decision will be upheld in the absence of an abuse of
that discretion.8

3

J.S. v. Grand Island Public Schools, 297 Neb. 347, 899
N.W.2d 893 (2017).
4

Ronald J. Palagi, P.C. v. Prospect Funding Holdings,
302 Neb. 769, 925 N.W.2d 344 (2019).
5

Id.

6

White v. Kohout, 286 Neb. 700, 839 N.W.2d 252 (2013).

7

Rapp v. Rapp, 252 Neb. 341, 562 N.W.2d 359 (1997).

8 Breci v. St. Paul Mercury Ins. Co., 288 Neb. 626, 849
N.W.2d 523 (2014).

13a
A judicial abuse of discretion exists when the
reasons or rulings of a trial judge are clearly
untenable, unfairly depriving a litigant of a
substantial right and denying just results in matters
submitted for disposition.9
V. ANALYSIS
1. APPEAL IS GOVERNED BY FAA
Prior to addressing the arbitration issues raised by
the parties on appeal, we must determine which law
governs—the Uniform Arbitration Act (UAA)10 or the
FAA. Arbitration in Nebraska is governed by the FAA
if it arises from a contract involving interstate
commerce; otherwise, it is governed by the UAA.11
The district court determined that the issues
presented in this case were governed by the FAA. We
agree. Arbitration that arises from a contract
involving interstate commerce is governed by the
FAA.12 Because this case arose from a commercial
dispute involving properties and companies located in
multiple states, the arbitration agreement clearly
involves interstate commerce and thus is governed by
the FAA.
2. MOTION TO VACATE WAS TIMELY
Before reaching the legal issues presented for
review, it is the power and duty of an appellate court
to determine whether it has jurisdiction over the
9

Id.

10 See Neb. Rev. Stat. §§ 25-2601 to 25-2622 (Reissue 2016

& Cum. Supp. 2018).
11 Garlock v. 3DS Properties, 303 Neb. 521, 930 N.W.2d 503

(2019).
12 Aramark Uniform & Career Apparel v. Hunan, Inc., 276
Neb. 700, 757 N.W.2d 205 (2008).

14a
matter before it.13 The Omaha Seldins claim the
Arizona Seldins are precluded from seeking
modification or vacatur of the final award on public
policy grounds because this argument was not raised
within 3 months of the final order being issued as
required by § 12 of the FAA.
Section 12 of the FAA sets forth the specific service
requirements for motions to vacate, modify, or correct
an award and requires notice of an application
seeking judicial vacatur to “be served upon the
adverse party or his attorney within three months
after the award is filed or delivered.” This court has
held that these notice requirements are jurisdictional
and that failure to strictly comply deprives the
district court of authority under the FAA to vacate the
arbitration award.14 And, where the district court
lacks jurisdiction, this court lacks jurisdiction.15
The relevant portion of § 12 provides:
Notice of a motion to vacate, modify, or
correct an award must be served upon the
adverse party or his attorney within three
months after the award is filed or delivered. If
the adverse party is a resident of the district
within which the award was made, such service
shall be made upon the adverse party or his
attorney as prescribed by law for service of
notice of motion in an action in the same court.
If the adverse party shall be a nonresident then
the notice of the application shall be served by
13 State v. Uhing, 301 Neb. 768, 919 N.W.2d 909 (2018).
14 See Karo v. Nau Country Ins. Co., 297 Neb. 798, 901

N.W.2d 689 (2017).
15 State v. Dorcey, 256 Neb. 795, 592 N.W.2d 495 (1999).

15a
the marshal of any district within which the
adverse party may be found in like manner as
other process of the court.
Thus, the FAA’s notice requirements are satisfied
if the notice provided complies with Nebraska’s
statutory notice requirements. Neb. Rev. Stat. § 25910 (Reissue 2016) requires that the notice be in
writing and provides that it
shall state (1) the names of the parties to the
action or proceeding in which it is to be made,
(2) the name of the court or the place where and
the day on which it will be heard, (4) the nature
and terms of the order or orders to be applied
for, and (5) if affidavits are to be used on the
hearing, the notice shall state that fact. It shall
be served a reasonable time before the hearing.
The record reflects that the final arbitration award
was issued on April 27, 2017. The Arizona Seldins
moved to modify, correct, or vacate the award on July
25. On the same day, the Arizona Seldins provided
the other parties with notice of the motion via U.S.
mail and electronic mail. While the motion did not
specifically assert the Arizona Seldins’ public policy
argument, the notice included each of the five
requirements set forth in § 25-910 and was provided
within 3 months of the final order being issued. The
Arizona Seldins’ notice complied with Nebraska’s
statutory notice requirements; thus, the notice
requirements under § 12 of the FAA were satisfied.
The public policy argument was timely raised, and
therefore, this court has jurisdiction over the claim.

16a
3. CLAIMS BY ARIZONA SELDINS AND SCOTT
(a) Arbitrator Misbehavior
In their first assignment of error, the Arizona
Seldins claim the district court erred in failing to
vacate the Sky Financial award because the award
was secured through misbehavior by the arbitrator.
On cross-appeal, Scott also asserts that the
arbitrator’s acceptance of Sky Financial constituted
misconduct. Scott further asserts that the Arizona
Seldins could not have accepted or consented to the
interpleader because the transfer abrogated the
Omaha Seldins’ interest in Sky Financial and thus
the interpleader never existed. Scott also claims that
the interpleader procedure was not disclosed or
explained and that he “should not be bound by a
secret interpleader procedure of which he was never
informed since he had no need for concern regarding
any securities claim at the time the purported
interpleader was first proposed for that purpose.”16
Congress enacted the FAA to provide for
“expedited judicial review to confirm, vacate, or
The FAA favors
modify arbitration awards.”17
arbitration agreements and applies in both state and
federal courts.18 It also preempts conflicting state
laws and “ ’foreclose[s] state legislative attempts to
undercut
the
enforceability
of
arbitration

16 Brief for appellee Scott on cross-appeal at 24.
17 Hall Street Associates, L. L. C. v. Mattel, Inc., 552 U.S.

576, 578, 128 S. Ct. 1396, 170 L. Ed. 2d 254 (2008).
18 Preston v. Ferrer, 552 U.S. 346, 128 S. Ct. 978, 169 L. Ed.
2d 917 (2008).

17a
When arbitration has already
agreements.’ ”19
occurred and a party seeks to vacate, modify, or
confirm an award, “ ’ ”an extraordinary level of
deference” [is given] to the underlying award
itself.’ ”20 The U.S. Supreme Court has instructed
that under the FAA, a court may vacate an
arbitrator’s decision “ ’only in very unusual
circumstances.’ ”21
The FAA sets forth four grounds under which a
court may vacate an arbitration award, and in the
absence of one of these grounds, the award must be
confirmed.22 These grounds are as follows:
(1) where the award was procured by
corruption, fraud, or undue means;
(2) where there was evident partiality or
corruption in the arbitrators, or either of them;
(3) where the arbitrators were guilty of
misconduct in refusing to postpone the hearing,
upon sufficient cause shown, or in refusing to
hear evidence pertinent and material to the
controversy; or of any other misbehavior by
which the rights of any party have been
prejudiced; or
(4) where the arbitrators exceeded their
powers, or so imperfectly executed them that a
19 Id., 552 U.S. at 353, 128 S.Ct. 978 (quoting Southland

Corp. v. Keating, 465 U.S. 1, 104 S. Ct. 852, 79 L. Ed. 2d 1
(1984)).

20 SBC Advanced v. Communications Workers of America,

794 F.3d 1020, 1027 (8th Cir. 2015).
21 Oxford Health Plans LLC v. Sutter, 569 U.S. 564, 568,

133 S. Ct. 2064, 186 L. Ed. 2d 113 (2013).
22 Hall Street Associates, L. L. C., supra note 17.

18a
mutual, final, and definite award upon the
subject matter submitted was not made.23
Both the Arizona Seldins and Scott claim the
arbitrator engage in misbehavior by accepting
ownership of Sky Financial. We reject this claim
because the Arizona Seldins expressly agreed to the
transfer of Sky Financial during the arbitration
proceedings, and there is no evidence that the
arbitrator engaged in misconduct by accepting the
transfer.
The Omaha Seldins attempted to “tender” Sky
Financial as a form of interpleader after the Arizona
Seldins asserted that a lack of tender is a defense
under the Arizona Securities Act in regard to
damages. The Omaha Seldins transferred ownership
of Sky Financial to the arbitrator “ ’for purposes of
effectuating the relief to be awarded.’ ” The relief
contemplated was the award of the asset to the
appropriate party after a determination had been
made.
At the time the assignment was made, the
following colloquy occurred:
ARBITRATOR: Well, I’m in uncharted
waters here. I guess my first question is why
would the assignment come to me?
[Counsel for the Omaha Seldins]: It’s largely
in the sense of an interpleader. Is this to be—I
mean, it emphasizes the point which is the
impossibility, to whom do we tender, do we
tender to Millard, do we tender to Sky
Financial, to whomever it is that it is deemed
you think, to the extent it isn’t impossible and
23 9 U.S.C. § 10(a).

19a
excused by impossibility, you’re welcome to
determine to whomever it should be tendered.
....
ARBITRATOR: Well, the only way I know
how to deal with this right now is to consider
this an act of interpleading these interests to
me. I’m not an officer of the court, but I do have
jurisdiction over this matter, so for the time
being, at least, I’ll accept them. With that
understanding in mind. Is that acceptable to
both sides?
[Counsel for the Arizona Seldins]: Yes.
“A party seeking to vacate an award for
misconduct under § 10(a)(3) must show that he [or
she] was ‘deprived of a fair hearing.’ ”24 When a party
“ ’who contests the merits of an arbitration award in
court fails to first present the challenges on the merits
to the arbitrators themselves, review is compressed
still further, to nil.’ ”25 Here, the district court noted
that the Arizona Seldins appeared to have consented
to the arbitrator’s acceptance of the assignment as a
form of interpleader. We agree. Not only did the
Arizona Seldins not object to the assignment at the
time it was made, but they agreed that the transfer
as an act of interpleading was acceptable after the
purpose of the procedure was explained.
By
consenting to the assignment, the Arizona Seldins
waived the argument that the arbitrator’s acceptance
24 Brown v. Brown-Thill, 762 F.3d 814, 820 (8th Cir. 2014)

(quoting Grahams Service Inc. v. Teamsters Local 975, 700 F.2d
420 (8th Cir. 1982)).

25 Medicine Shoppe Intern. v. Turner Investments, 614 F.3d
485, 489 (8th Cir. 2010) (quoting Intern. Broth. v. Hope Elec.
Corp., 380 F.3d 1084 (8th Cir. 2004)).

20a
of the transfer constituted misconduct. And, the
record clearly refutes Scott’s claim that the intended
interpleader was not disclosed or explained.
Furthermore, while the Arizona Seldins’ attempt
to invoke the grounds set forth in § 10(a)(3) of the
FAA by using the term “misconduct,” their argument
focuses only on the arbitrator’s possible partiality as
the purported owner of Sky Financial.
Under
§ 10(a)(2), a court may vacate an award for the
arbitrator’s “evident partiality.” However, this is a
“ ’heavy burden’ ”26 because the standard “ ’is not
made out by the mere appearance of bias.’ ”27
“Evident partiality exists where the non-disclosure at
issue ‘objectively demonstrate[s] such a degree of
partiality that a reasonable person could assume that
the arbitrator had improper motives.’ ”28
The Arizona Seldins assert that the arbitrator’s
taking actual possession of Sky Financial without
first securing mutual consent of the parties in writing
and making it part of the record disqualified him as
an interested party under Neb. Rev. Stat. § 24-739
(Reissue 2016). Section 24-739 provides, in relevant
part, that a judge shall be disqualified in any case in
which he or she is a party or interested except by
mutual consent of the parties, which mutual consent
is in writing and made part of the record.
The Arizona Seldins contend that § 24-739 applies
to arbitrators as well as judges per this court’s
26 Williams v. National Football League, 582 F.3d 863, 885

(8th Cir. 2009) (quoting Choice Hotels Intern. v. SM Property
Management, 519 F.3d 200 (4th Cir. 2008)).
27 Id.
28 Id. (quoting Dow Corning Corp. v. Safety National Cas.

Corp., 335 F.3d 742 (8th Cir. 2003)).

21a
instruction that “ ‘judges and arbitrators are subject
to the same ethical standards.’ ”29 However, this
court has expressly rejected a “judicial ethics”
standard when analyzing the FAA’s requirement of
“evident partiality.” In Dowd v. First Omaha Sec.
Corp.,30 we held that “ ‘ “evident partiality” within the
meaning of 9 U.S.C. § 10 will be found where a
reasonable person would have to conclude that an
arbitrator was partial to one party to the
arbitration.’ ”
Here, the record contains no evidence that the
arbitrator engaged in misconduct or partiality by
accepting the assignment of Sky Financial. Rule R37(a) of the AAA rules, which was incorporated into
the parties’ separation agreement, provides that
“[t]he arbitrator may take whatever interim
measures he or she deems necessary, including
injunctive relief and measures for the protection or
conservation of property and disposition of perishable
goods.” Moreover, the Arizona Seldins’ argument that
the arbitrator’s acceptance of Sky Financial
constituted misconduct is confuted by their express
acceptance of the procedure. This argument is
without merit.
(b) Public Policy
In their second assignment of error, the Arizona
Seldins assert that the district court erred in failing
to vacate the final award because the Sky Financial
award violates Nebraska public policy by creating a
29 See brief for appellants at 24 (quoting Barnett v. City of

Scottsbluff, 268 Neb. 555, 684 N.W.2d 553 (2004)).
30 Dowd v. First Omaha Sec. Corp., 242 Neb. 347, 358, 495
N.W.2d 36, 43 (1993) (quoting Morelite Const. v. N.Y.C. Dist.
Council Carpenters, 748 F.2d 79 (2d Cir. 1984)).

22a
massive windfall for the Omaha Seldins. The Arizona
Seldins argue that the Omaha Seldins profited
substantially from Sky Financial and that the award
of damages results in a double recovery and windfall
for the Omaha Seldins in violation of public policy.
The Arizona Seldins further assert that a court may
refuse to enforce an arbitration award on the ground
that it is contrary to public policy. In making this
assertion, the Arizona Seldins rely on this court’s
prior holding in State v. Henderson.31
In Henderson, a Nebraska State Patrol officer had
been terminated based on his membership in a Ku
Klux Klan-affiliated organization. An arbitrator
determined that the State Patrol had violated the
officer’s constitutional rights because his affiliation
with the organization was not “ ’just cause’ ” for
termination.32
The arbitrator issued an award
ordering the officer to be reinstated.33 The district
court vacated the award after concluding that the
officer’s reinstatement violated Nebraska public
policy, and this court affirmed the judgment.34
Unlike the present case, Henderson was governed
by Nebraska’s UAA.35 However, this court found
none of the UAA’s statutory bases for vacating an
Noting that the applicable
award applied.36
provisions in the UAA and the FAA were similar, the
majority, in a 4-to-2 decision, relied on three U.S.
31 State v. Henderson, 277 Neb. 240, 762 N.W.2d 1 (2009).
32 Id. at 242, 762 N.W.2d at 3.
33 Id.
34 Id.
35 See §§ 25-2601 to 25-2622.
36 Henderson, supra note 31.

23a
Supreme Court cases applying the FAA when holding
that an arbitration award could be vacated on public
policy grounds.37
The majority in Henderson held that a court may
refuse to enforce an arbitration award that is contrary
to a public policy when the policy is explicit, well
defined, and dominant. The majority concluded that
Nebraska has “an explicit, well-defined, and
dominant public policy” that “the laws of Nebraska
should be enforced without racial or religious
discrimination” and that the arbitrator’s decision
reinstating the officer violated this public policy
because the policy “incorporates, and depends upon,
the public’s reasonable perception that the laws are
being enforced without discrimination.”38
The
dissent argued that the U.S. Supreme Court’s narrow
public policy exception did not bar judicial
enforcement of the award and that the majority was
doing precisely what the Supreme Court had
prohibited in Paperworkers v. Misco, Inc.39: engaging
in factfinding, which is the arbitrator’s function, not
the appellate court’s.40

37 Id.
38 Id. at 263, 762 N.W.2d at 16-17.
39 See Paperworkers v. Misco, Inc., 484 U.S. 29, 108 S. Ct.

364, 98 L. Ed. 2d 286 (1987).
40 Henderson, supra note 31 (Stephan J., dissenting). See,

also, Misco, Inc., supra note 39, 484 U.S. at 44, 45, 108 S.Ct. 364
(criticizing federal Court of Appeals’ conclusion that machine
operator had ever been or would be under influence of marijuana
while he was on job from fact that marijuana was located in his
car as “an exercise in factfinding” that “exceeds the authority of
a court asked to overturn an arbitration award”).

24a
Prior to 2008, a circuit split existed on whether
courts could apply nonstatutory standards when
reviewing arbitration awards under the FAA. Many
courts had been relying on language in the 1953 case
of Wilko v. Swan,41 which indicated courts could
vacate an award made in “manifest disregard” of the
law. In Hall Street Associates, L. L. C. v. Mattel,
Inc.,42 the U.S. Supreme Court resolved the split and
held that under the FAA, courts lack authority to
vacate or modify arbitration awards on any grounds
other than those specified in §§ 10 and 11 of the
FAA.43 The Court was explicit that
[o]n application for an order confirming the
arbitration award, the court “must grant” the
order “unless the award is vacated, modified, or
corrected as prescribed in sections 10 and 11 of
this title.” There is nothing malleable about
“must grant,” which unequivocally tells courts
to grant confirmation in all cases, except when
one of the “prescribed” exceptions applies.44
Pointedly, the Eighth Circuit Court of Appeals has
explained that prior to 2008, “a court could vacate
arbitration awards on grounds other than those listed
in the FAA.”45 However, “Hall Street, resolving a
41 Wilko v. Swan, 346 U.S. 427, 436, 74 S. Ct. 182, 98 L. Ed

168 (1953).
42 Hall Street Associates, L. L. C., supra note 17.
43 See John M. Gradwohl, Arbitration: Interface of the

Federal Arbitration Act and Nebraska State Law, 43 Creighton
L. Rev. 97 (2009).
44 Hall Street Associates, L. L. C., supra note 17, 552 U.S.

at 587, 128 S.Ct. 1396 (quoting 9 U.S.C. § 9).
45 Medicine Shoppe Intern., supra note 25, 614 F.3d at 489.

25a
circuit split, held that ‘the text [of the FAA] compels a
reading of the §§ 10 and 11 categories as
exclusive.’ ”46
Because the U.S. Supreme Court’s decision in Hall
Street Associates, L. L. C. abrogated public policy as
grounds for vacating an arbitration award under the
FAA, we reject the Arizona Seldins’ argument. We
hold that under the FAA, a court is not authorized to
vacate an arbitration award based on public policy
grounds because public policy is not one of the
exclusive statutory grounds set forth in § 10 of the
FAA. We also clarify that Henderson was governed
by the UAA—not the FAA—and expressly disapprove
of any language in Henderson that could be construed
as authorizing courts to vacate awards on public
policy grounds under the FAA.47
Because public policy is not a ground for vacating
an arbitration award under the FAA, we need not
address the merits of the Arizona Seldins’ argument
that the purported windfall in favor of the Omaha
Seldins is contrary to public policy.
(c) Arbitrator’s Award of Fees and Costs
In their third assignment of error, the Arizona
Seldins argue that the district court erred in
confirming the arbitrator’s award of attorney fees
because the award exceeded the scope of the
separation agreement.
Pursuant to § 10(a)(4) of the FAA, a court is
authorized to set aside an arbitration award where
the arbitrator exceeded his or her powers. However,
“ ’[i]t is not enough . . . to show that the [arbitrator]
46 Id.
47 Henderson, supra note 31.

26a
committed an error—or even a serious error.’ ”48 The
analysis is “whether the arbitrator (even arguably)
interpreted the parties’ contract, not whether he got
its meaning right or wrong.”49 “Because the parties
‘bargained for the arbitrator’s construction of their
agreement,’ an arbitral decision ‘even arguably
construing or applying the contract’ must stand,
regardless of a court’s view of its (de)merits.”50
In the final award, the arbitrator ordered the
parties to pay their own attorney fees, expenses, and
costs arising from the arbitration proceedings,
“[e]xcept as specifically provided in Supplemental
Interim Award Claim 16,” which awarded $1,001,051
in attorney fees and costs to the Omaha Seldins as a
partial measure of the damages caused by securities
violations related to Sky Financial. The Arizona
Seldins assert that the award of attorney fees
exceeded the scope of the separation agreement
because the agreement expressly prohibited such an
award.
This assertion is based on a provision of the
separation agreement, which states:
In General: Except as otherwise provided in
this Agreement, each Party shall bear its own
costs and expenses (including legal fees and
48 Oxford Health Plans LLC, supra note 21, 569 U.S. at

569, 133 S.Ct. 2064 (quoting Stolt-Nielsen S. A. v. AnimalFeeds
Int’l. Corp., 559 U.S. 662, 130 S. Ct. 1758, 176 L. Ed. 2d 605
(2010)).
49 Oxford Health Plans LLC, supra note 21, 569 U.S. at

569, 133 S.Ct. 2064.
50 Id., 569 U.S. at 569, 133 S.Ct. 2064 (quoting Eastern
Associated Coal Corp. v. Mine Workers, 531 U.S. 57, 121 S. Ct.
462, 148 L. Ed. 2d 354 (2000)).

27a
expenses) incurred in connection with this
Agreement and the transactions contemplated
hereby. No party shall be required to pay to the
other Party any commissions, penalties, fees or
expenses arising out of or associated with any
of the transactions contemplated by this
Agreement.
In “Supplemental Interim Award Claim 16,” the
arbitrator interpreted the parties’ agreement
regarding the award of fees and costs and found that
the agreement did not preclude an award of fees and
costs incurred in prosecuting the lost corporate
opportunity and securities violations claims related to
Sky Financial. The arbitrator concluded that the
agreement’s “transactions contemplated” language
referred to the transactions and process contemplated
by the parties in separating their joint ownership
interests in the jointly owned properties and entities
and not ancillary claims.
The arbitrator’s conclusion was based, in part, on
the location of the provision within the separation
agreement, and on another provision which stated:
“Cooperation. The Parties acknowledge and agree
that the transactions contemplated by this
Agreement are intended to permit the Omaha
Seldins, on the one hand, and the Arizona Seldins, on
the other hand, to separate their joint ownership of
the Properties.” In addition, the arbitrator found that
the rules of the AAA, which the parties had
incorporated into the separation agreement,
authorized the award of attorney fees and costs under
circumstances such as those presented here.
We hold that the arbitrator did not exceed his
authority under the separation agreement by issuing

28a
the award of fees and costs. In the parties’ separation
agreement, the parties each agreed to resolve their
disputes relating to severing their jointly owned
properties through final and binding arbitration. By
entering into the agreement, the parties bargained for
the arbitrator’s construction of that agreement. The
arbitrator construed the agreement as permitting the
award of attorney fees for the parties’ ancillary
claims. The Sky Financial claim was an ancillary
claim, and thus, the arbitrator did not exceed his
authority in awarding costs and fees related to that
claim. The Arizona Seldins’ third assignment of error
is without merit.
(d) Sanctions Under § 25-824
In their fourth assignment of error, the Arizona
Seldins argue that the district court erred in
awarding sanctions against them under § 25-824.
Scott individually asserts on cross-appeal that the
district court abused its discretion in imposing
sanctions against Scott for filing the various
applications in CI 16-7509, CI 16-8394, CI 17-506, CI
17-651, and CI 17-3637 and in overruling his motion
to alter or amend the district court’s order.
Section 25-824(2) provides that
in any civil action commenced or appealed in
any court of record in this state, the court shall
award as part of its judgment and in addition
to any other costs otherwise assessed
reasonable attorney’s fees and court costs
against any attorney or party who has brought
or defended a civil action that alleges a claim or
defense which a court determines is frivolous or
made in bad faith.

29a
We have stated that attorney fees shall be
awarded against a party who alleged a claim or
defense that the court determined was frivolous,
interposed any part of the action solely for delay or
harassment, or unnecessarily expanded the
proceeding by other improper conduct.51 A frivolous
action is one in which a litigant asserts a legal
position wholly without merit; that is, the position is
without rational argument based on law and evidence
to support the litigant’s position.52
The term
“frivolous” connotes an improper motive or legal
position so wholly without merit as to be ridiculous.53
Any doubt about whether a legal position is frivolous
or taken in bad faith should be resolved in favor of the
one whose legal position is in question.54
In seeking to modify or vacate the final award, the
Arizona Seldins asserted four arguments.
As
previously summarized, these arguments were that
the arbitrator (1) engaged in misbehavior relating to
the assignment of the Sky Financial property,
(2) failed to provide a reasoned award on three
affirmative defenses raised by the Arizona Seldins
related to the Sky Financial claims, (3) exceeded his
power in awarding legal fees and expenses to the
Omaha Seldins, and (4) materially miscalculated the
prejudgment interest when awarding damages.
In its May 3, 2018, order, the district court entered
judgment in favor of the Omaha Seldins and against
51 Moore v. Moore, 302 Neb. 588, 924 N.W.2d 314 (2019).
52 TFF, Inc. v. SID No. 59, 280 Neb. 767, 790 N.W.2d 427

(2010).
53 Id.
54 Id.

30a
the Arizona Seldins under § 25-824. When evaluating
the Arizona Seldins’ claim that the arbitrator engaged
in misbehavior, the district court noted that the
Arizona Seldins appeared to have consented to the
assignment of Sky Financial, they had presented no
evidence demonstrating the arbitrator had improper
motives when accepting the assignment of Sky
Financial, and their argument “conflicts with the
facts and the law.”
With regard to the argument that the arbitrator
had failed to provide a reasoned award in relation to
the Arizona Seldins’ affirmative defense involving the
claims bar date, the district court found this
argument lacked merit and “mischaracterize[d]” the
significance of the relation-back doctrine under Fed.
R. Civ. P. 15. In doing so, the district court called
attention to the arbitrator’s written findings and
awards relating to the Sky Financial claim, which
consisted of 60 pages and contained multiple
paragraphs explaining the arbitrator’s reasoning
when rejecting the defense.
The district court also rejected the argument that
the arbitrator exceeded his power when awarding
legal fees and expenses. Recognizing that the cases
cited by the Arizona Seldins when asserting this
argument either did not support their argument or
were not relevant, the district court found the
arbitrator had correctly interpreted and applied the
separation agreement when awarding the fees and
costs.
The district court characterized the Arizona
Seldins’ argument that the arbitrator had materially
miscalculated
the
prejudgment
interest
as
“misleading” and “fundamentally misplaced.” Noting
that allegations of an arbitrator’s legal error are not

31a
reviewable, the district court found that the Arizona
Seldins had failed to identify any “ ’mathematical
error’ ” in the arbitrator’s calculations. The court
recognized that in making this assertion, the Arizona
Seldins were attempting to challenge the merits of the
final award by arguing that the arbitrator had
committed legal error.
Addressing Scott’s individual claims, the district
court found there was no legal basis for Scott’s
challenge of the interim awards as the parties had
agreed that the arbitrator’s interim awards were
nonfinal. Further, each of the 12 interim awards
included the following statement: “The parties
understand this Interim Award is not a final
appealable arbitration award, but it will be part of the
law of the case moving forward.”
Still, Scott
proceeded to file lawsuits seeking to modify, vacate,
and/or confirm five of these awards. In addition to
finding the interim applications frivolous, the district
court found Scott’s argument that he should not be
held jointly and severally liable to be “misleading.”
Reviewing the record and arguments in this case,
we agree with the district court in that “[w]hat should
have been a fairly simple procedure, [the Arizona
Seldins] literally turned into a re-litigation of the
Arbitration itself.” The district court issued the § 25824 sanction after repeatedly finding the absence of
rational factual or legal bases to support the Arizona
Seldins’ theories of modifying or vacating the final
award. We hold that the district court did not abuse
its discretion in awarding attorney fees and costs
under § 25-824.
We also reject Scott’s claim that the district court
abused its discretion in overruling his motion to alter
or amend the district court’s order and judgment.

32a
Scott argues that his arguments were not ridiculous
and that the applications regarding the interim
awards “were filed only in an ‘abundance of caution’
and sought an ‘immediate stay’ to minimize any
action by the parties or the district court.”55
In support of his argument, Scott first cites In re
Chevron U.S.A., Inc.,56 in which the Texas Court of
Appeals held that an arbitrator’s interim awards were
sufficiently final for purposes of confirmation and
vacation. The district court specifically rejected this
argument in its February 28, 2019, order. The district
court noted that In re Chevron U.S.A., Inc. lacked
evidence demonstrating that the parties or
arbitration panel had agreed or intended the interim
decision to be nonfinal and non-appealable. The
district court also recognized that the Arizona Seldins
had “not cited to a case where an interim award that
both the parties and the Arbitrator intended to be
non-final was treated as a final, appealable
arbitration award.”
Scott also cites American Intl. Specialty Lines Ins.
Co. v. Allied Capital Corp.57 However, that case is
clearly distinguishable from the facts presented here
as the parties had specifically requested that the
arbitration panel make a final determination on one
of the issues.

55 Brief for appellee Scott on cross-appeal at 34.
56 In re Chevron U.S.A., Inc., 419 S.W.3d 329 (Tex. App.

2010).
57 American Intl. Specialty Lines Ins. Co. v. Allied Capital
Corp., 167 A.D.3d 142, 86 N.Y.S.3d 472 (2018).

33a
We hold that the district court did not abuse its
discretion in finding Scott’s interim applications to be
frivolous and ordering sanctions accordingly.
(e) Evidence of Omaha Seldins’ Claims
in Arizona State Court
In their fifth assignment of error, the Arizona
Seldins argue that the district court erred in
excluding evidence of the Omaha Seldins’ acting
contrary to the separation agreement and the award
by currently seeking additional damages in other
litigation for the same Sky Financial investment.
This court has held that “ ’[a]n appeal or error
proceeding, properly perfected, deprives the trial
court of any power to amend or modify the record as
to matters of substance[.]’ ”58 An appeal is taken by
filing a notice of appeal and depositing the required
docket fee with the clerk of the district court.59
The Arizona Seldins filed their notice of appeal in
these cases on March 27, 2019. On July 5, the Arizona
Seldins filed a motion in the district court seeking to
supplement the bill of exceptions and/or to reopen the
record. The Arizona Seldins claimed that after the
arbitration award had been confirmed, the Omaha
Seldins filed a complaint in an Arizona state court
alleging the same or similar claims regarding Sky
Financial that had been arbitrated in these cases.
The Arizona Seldins sought to supplement the record
with evidence of the newly filed Arizona cases for
purposes of this appeal. The district court overruled
the motion on the ground that perfection of an appeal
58 Samardick of Grand Island-Hastings, Inc. v. B.D.C.

Corp., 183 Neb. 229, 231, 159 N.W.2d 310, 313 (1968).
59 See Neb. Rev. Stat. § 25-1912 (Cum. Supp. 2018).

34a
deprives the trial court of any power to amend or
modify the record as to matters of substance.
We hold that the district court did not err when
overruling the motion to supplement the record.
Because the Arizona Seldins had perfected their
appeal prior to the filing of the motion, the district
court did not have jurisdiction to supplement the
record with evidence of the Omaha Seldins’ purported
filings. The Arizona Seldins’ fifth assignment of error
is without merit.
(f) Description of “Respondents”
Scott individually asserts on cross-appeal that the
district court erred in failing to modify or correct an
evident material mistake in the description of
“Respondents” in the final award relating to Scott.
Scott argues that the parties agreed Scott had not
personally violated any securities laws and, therefore,
he cannot be jointly and severally liable on the Sky
Financial award.
In the Arizona Seldins’ motion to modify or vacate
the arbitration award, Scott individually asserted
that the arbitrator had made a material mistake in
the final award relating to the description of
“Respondents.” In its May 3, 2019, order overruling
the motion, the district court found the final award
had properly provided that Scott was jointly and
severally liable for all damages awarded. Classifying
Scott’s argument as misleading, the district court
recognized that although the parties agreed Scott had
not violated any securities laws, he usurped corporate
opportunities relating to Sky Financial. The district
court also noted that Scott’s liability was not based on
common-law principles of joint and several liability,

35a
but on his contractual liability as set forth in the
parties’ separation agreement.
Scott attempts to invoke § 11(a) of the FAA, which
permits a court to modify or correct an award “[w]here
there was an evident material miscalculation of
figures or an evident material mistake in the
description of any person, thing, or property referred
to in the award.”
Under the FAA, “arbitration is a matter of
contract, and courts must enforce arbitration
contracts according to their terms.”60 “An evident
material mistake is an error that is apparent on the
face of the record and would have been corrected had
the arbitrator known at the time.61
In the present case, the definition of which
individuals and entities comprised each party was set
forth in the separation agreement and in the first case
management order.
Throughout the arbitration
proceedings, the individuals and entities comprising
the Omaha Seldins and the Arizona Seldins agreed to
joint and several liability for any award entered
against the Omaha Seldins or the Arizona Seldins,
respectively.
Scott entered into a binding agreement to
arbitrate all claims relating to the separation of the
parties’ jointly owned properties, and he is included
in the definition as one of the individuals comprising
the Arizona Seldins. Scott also agreed to joint and
several liability for all awards issued against the
60 Henry Schein v. Archer and White Sales, ––– U.S. ––––,

139 S. Ct. 524, 529, 202 L. Ed. 2d 480 (2019) (citing Rent-ACenter, West, Inc. v. Jackson, 561 U.S. 63, 130 S. Ct. 2772, 177
L. Ed. 2d 403 (2010)).
61 94 Am. Jur. Trials 211, § 96 at 359 (2004).

36a
Arizona Seldins. According to the terms of the
separation agreement, Scott is jointly and severally
liable for all awards issued. We hold that the district
court did not err in overruling Scott’s motion.
(g) Claims Bar Date
Scott individually asserts that the district court
erred in failing to vacate the final award relating to
the Sky Financial claim because the claim was
untimely and the arbitrator exceeded his powers by
permitting the Omaha Seldins to bring the claim.
Again, §§ 10 and 11 of the FAA set forth the
exclusive grounds for vacating or modifying an
arbitration award.62 “ ’[S]o long as the arbitrator is
even arguably construing or applying the contract
and acting within the scope of his authority,’ the
award should be confirmed.”63
The separation agreement contains a provision
stating that “reasonable amendments to Claims in
pending actions shall be allowed in the Mediator’s
discretion based on discovery, admissions, interim
decision, and other developments in the prosecution
of the Claim, consistent with the Federal Rules of
Civil Procedure.”
On December 3, 2013, the
arbitrator granted the Omaha Seldins leave to amend
their claims on or before December 6, “in the interests
of justice and economy.”
Scott complains that the parties’ agreed-upon
claims bar date was July 2, 2012, and that the Omaha
Seldins’ Sky Financial claim was untimely because it
62 See Hall Street Associates, L. L. C., supra note 17.
63 Beumer Corp. v. ProEnergy Services, LLC, 899 F.3d 564,

565 (8th Cir. 2018) (quoting Medicine Shoppe Intern., supra note
25).

37a
was filed on November 14, 2014. Scott argues that
the arbitrator exceeded his powers by granting leave
to amend because under Fed. R. Civ. P. 15, he was
required to apply the relation-back doctrine when
assessing the timeliness of the claim.
Rejecting this argument, the district court found
that the arbitrator interpreted the separation
agreement when concluding leave to amend should be
granted and that the arbitrator’s decision was
consistent with Fed. R. Civ. P. 15(a)(2). That section
provides that “[t]he court should freely give leave [to
amend] when justice so requires.”64 The district court
also found that this argument mischaracterized the
significance of “relation back” under Fed. R. Civ. P. 15
because the amended pleading did relate back to a
claim that had originally been filed on October 9,
2011, prior to the parties’ claims bar date.
We hold that the district court did not err in
rejecting this claim. Scott does not argue that the
arbitrator was not interpreting the separation
agreement; rather, he argues that the arbitrator “was
required to apply the ‘relation-back’ method of review
under the [Federal Rules of Civil Procedure], before
allowing the Sky Financial Claim to be brought after
the Claims Bar Date.”65
The record clearly
demonstrates the arbitrator was construing the
separation agreement when he concluded that leave
should be granted. The arbitrator’s decision to grant
the leave is not grounds to vacate the award. This
argument is without merit.

64 Fed. R. Civ. P. 15(a)(2).
65 Brief for appellee Scott on cross-appeal at 33.

38a
4. OMAHA SELDINS’ CROSS-APPEAL
On cross-appeal, the Omaha Seldins argue they
are entitled to reasonable attorney fees and costs in
the amount of $342,860.95. Alternatively, the Omaha
Seldins seek a determination that the district court
erred in denying their motion for order nunc pro tunc.
In determining the amount of a cost or attorney fee
award under § 25-824(2), Neb. Rev. Stat. § 25-824.01
(Reissue 2016) states that “the court shall exercise its
sound discretion.”
In its May 3, 2018, order, the district court entered
judgment in favor of the Omaha Seldins for an
amount equal to the attorney fees and costs incurred
in resisting the Arizona Seldins’ application seeking
vacation or modification of the final award and in
seeking dismissal of the various applications filed by
Scott. After the judgment was issued, the Omaha
Seldins submitted evidence demonstrating that it had
incurred $342,860.95 in fees and costs: $211,676.50
by the Bryan Cave law firm and $131,184.45 by the
McGill law firm. However, when calculating the
amount of fees to be awarded, the district court
neglected to include the Bryan Cave law firm’s fees of
$211,676.50. Although intending to include the fees
from both law firms, the district court’s order included
only the McGill law firm’s fees for a total amount of
$131,184.45.
The Omaha Seldins filed a motion for order nunc
pro tunc, seeking an order substituting $342,860.95
for the total amount of fees incurred. In a written
order, the district court stated that it had “clearly
intended to award attorney fees to Petitioners in an
amount, as stated in the Court’s Order of February
28, 2019, equal to the attorney fees and costs

39a
incurred.” But the court denied the motion after
concluding that “[a]n Order Nunc Pro Tunc [could not]
be used to enlarge the judgment or substantially
amend[ ] the judgment even though said judgment
was not the order intended.”
Pursuant to the May 3, 2018, order, the Omaha
Seldins are entitled to their judgment for “an amount
equal to the attorneys’ fees and costs [the Omaha
Seldins] incurred in resisting [the Arizona Seldins’]
application seeking vacation or modification of the
Final Award and in seeking dismissal of the various
applications [filed by Scott].” The district court’s error
in calculating the amount of the award resulted in the
Omaha Seldins’ being unfairly deprived of their right
to $211,676.50 in fees incurred by the Bryan Cave law
firm. Thus, the district court abused its discretion in
determining the overall amount of the award.
Ordinarily, an improper calculation of attorney
fees would require a remand in order to reconfigure
the award.66 However, when the record is sufficiently
developed that a reviewing court can apply the law to
the facts and calculate a fair and reasonable fee
without resorting to remand, that route is available to
the appellate court.67
Here, a remand is not required because the Omaha
Seldins presented evidence demonstrating the
amount of fees incurred, and we find these fees to be
reasonable. Further, a remand would serve only to
needlessly prolong this litigation and further
undermine the finality of the arbitration award. We
66 Cedars Corp. v. Sun Valley Dev. Co., 253 Neb. 999, 573

N.W.2d 467 (1998).
67 Id.

40a
conclude that the Omaha Seldins are entitled to a
total fee award of $342,860.95. Accordingly, we order
the Arizona Seldins to pay the Omaha Seldins an
additional $211,676.50 for fees incurred by the Byran
Cave law firm on behalf of the Omaha Seldins.
Because we order the payment of $211,676.50, we
do not reach or address the issue of whether the
district court erred in denying the Omaha Seldins’
motion for order nunc pro tunc. An appellate court is
not obligated to engage in an analysis that is not
necessary to adjudicate the case and controversy
before it.68
5. ARIZONA SELDINS’ MOTION TO
DISMISS CROSS-APPEAL
The Arizona Seldins, along with Scott and Millard,
filed a joint motion to dismiss the Omaha Seldins’
cross-appeal on the ground that the Omaha Seldins’
registration of the district court’s judgment with an
Arizona state court constituted a voluntary
acceptance of the benefits of the judgment and, thus,
prevents the Omaha Seldins from prosecuting their
cross-appeal. The Omaha Seldins maintain that they
have not attempted to collect upon the judgment
entered on February 28, 2019, and that the
registration of the judgment was merely a procedural
act taken for purposes of collecting on the judgment
when collection was permitted.
Generally, under the acceptance of benefits rule,
an appellant may not voluntarily accept the benefits
of part of a judgment in the appellant’s favor and
afterward prosecute an appeal or error proceeding
68 Selma Development v. Great Western Bank, 285 Neb. 37,
825 N.W.2d 215 (2013).

41a
from the part that is against the appellant.69
However, the rule does not apply when the appellant
has conceded to be entitled to the thing he or she has
accepted and where the appeal relates only to an
additional claim on his or her part.70 In asserting
that the acceptance of benefits rule precludes an
appeal, the burden is on the party asserting the rule
to demonstrate that the benefits of the judgment were
accepted.71
Here, the Omaha Seldins agree with the
judgment, except for seeking an additional recovery of
attorney fees that were mistakenly omitted from the
district court’s judgment. Further, the Arizona
Seldins have presented no evidence demonstrating
the Omaha Seldins have accepted the benefits of the
judgment. We hold that the Omaha Seldins’ mere
registration of the judgment does not preclude their
cross-appeal for the recovery of additional fees and
costs. This argument is without merit.
VI. CONCLUSION
The FAA provides that a court must confirm an
arbitration award unless grounds exist for vacating or
modifying the award under § 10 or § 11 of the FAA.72
Because neither the Arizona Seldins nor Scott have
demonstrated any such grounds exist, the parties are
bound by their agreement to arbitrate and the
arbitrator’s construction of that agreement.
We hold that the district court did not err in
confirming the arbitration award and denying the
69 Liming v. Liming, 272 Neb. 534, 723 N.W.2d 89 (2006).
70 Id.
71 See 5 Am. Jur. 2d Appellate Review § 543 (2018).
72 Hall Street Associates, L. L. C., supra note 17.

42a
motions to vacate and/or modify the award, nor did it
err in denying the Arizona Seldins’ motion to
supplement the record. We further hold that the
district court did not abuse its discretion when
awarding attorney fees in favor of the Omaha Seldins
or when denying Scott’s motion to alter or amend the
court’s May 3, 2018, order. We conclude that the
Omaha Seldins’ registration of the district court’s
judgment does not preclude the Omaha Seldins’ crossappeal. Finally, we hold that the Omaha Seldins are
entitled to reasonable attorney fees and costs
incurred in confirming the arbitration award and
resisting the various applications filed by the Arizona
Seldins and Scott and that the district court abused
its discretion when failing to include the Bryan Cave
law firm’s fees in its calculation of the amount of fees
to be awarded.
Accordingly, we (1) affirm the district court’s
confirmation of the arbitration award, (2) affirm the
district court’s denial of the Arizona Seldins’ and
Scott’s motions to vacate and/or modify the award,
(3) affirm the district court’s denial of the Arizona
Seldins’ motion to supplement the record, (4) affirm
the district court’s award of sanctions under § 25-824,
(5) overrule the Arizona Seldins’ motion to dismiss the
Omaha Seldins’ cross-appeal, and (6) sustain the
Omaha Seldins’ cross-appeal and order the fee
judgment in favor of the Omaha Seldins be increased
to $342,860.95.
Affirmed as modified.

43a
THE DISTRICT COURT OF DOUGLAS
COUNTY, NEBRASKA
THEODORE M. SELDIN,
individually and as
Trustee of the AMENDED
AND RESTATED
THEODORE M. SELDIN
REVOCABLE TRUST,
DATED MAY 28, 2008,
Howard Scott Silverman,
as Trustee of the
AMENDED AND
RESTATED STANLEY C.
SILVERMAN
REVOCABLE TRUST,
DATED AUGUST 26,
2006; SILVERMAN
HOLDINGS, LLC, a
Nebraska limited liability
company; SCS FAMILY,
LLC, a Nebraska limited
liability company; TMS &
SNS FAMILY, LLC, a
Nebraska limited liability
company; Sarah N. Seldin
and Irving B. Epstein, as
Trustees of the
THEODORE M. SELDIN
AND SARAH N. SELDIN
CHILDREN’S TRUST,
DATED JANUARY 1,
1995; Uri Ratner, as
Trustee of the STANLEY
C. SILVERMAN AND

Case No. CI 174272 and Case No.
CI 17-6276
(Companion Case
Nos. CI 167509;·CI 16-8394;
CI 17-506; CI 17651; and CI 173637)
ORDER
#44 FILED
IN DISTRICT
COURT
DOUGLAS
COUNTY
NEBRASKA
MAY 03 2018
JOHN M. FRIEND
CLERK DISTRICT
COURT

44a
NORMA R. SILVERMAN
IRREVOCABLE TRUST
AGREEMENT (2008),
DATED APRIL 10, 2008;
John W. Hancock, Irving
B. Epstein, and Randall R.
Lenhoff, as Trustees of the
THEODORE M. SELDIN
AND SARAH N. SELDIN
IRREVOCABLE TRUST
AGREEMENT (2008),
DATED MAY 12, 2008;
and SELDIN COMPANY,
a Nebraska corporation,
Petitioners,
vs.
MILLARD R. SELDIN,
individually and as
Trustee of the MILLARD
R. SELDIN REVOCABLE
TRUST, DATED
OCTOBER 9, 1993,
SCOTT A. SELDIN,
individually and as
Trustee of the SELDIN
2002 IRREVOCABLE
TRUST, DATED
DECEMBER 13, 2002,
SELDIN REAL ESTATE,
INC., an Arizona
corporation; KENT
CIRCLE INVESTMENTS,
LLC, an Arizona limited
liability company; and

45a
BELMONT
INVESTMENTS, LLC, an
Arizona limited liability
company
Respondents.
THESE MATTERS CAME before the Court on
August 31, 2017 and, at the request of the Court’s, a
subsequent hearing was scheduled for January 26,
2018 to allow the parties to submit additional
evidence and argument. Due to scheduling conflicts,
the parties requested that the hearing be
rescheduled. The hearing was held on February 27,
2018 at which time the Court took the matters under
advisement.
Petitioners1 were represented by counsel, Robert
Lepp, Sean McElenney and Gregory Iannelli;
Respondents2 were represented by Bartholomew
Mcleay, Matthew Enenbach, Alison Gutierrez, Jason
Bruno, Robert Sherrets and Diana Vogt.
Petitioners’ filed a Motion to Confirm Arbitration
Award as Judgment (Motion to Confirm) on May 23,
2017 in Case No. CI17-4272 and Respondents filed an
Application to Modify or Correct and Confirm as
Modified or Corrected or, Alternatively to Vacate
Arbitration Award (Motion to Vacate) on July 25,
1

Petitioners are often referred to as “the Omaha Seldins”
in the Interim Awards and Final Award. For consistency, the
Court will, for the most part, refer to the Omaha Seldins as
Petitioners in this Order.
2 Respondents are often referred to as the “the Arizona
Seldins” in the Interim Awards and the Final Award. For
consistency, the Court will, for the most part, refer to the Arizona
Seldins as Respondents in this Order.

46a
2017 in Case No. CI17-6276, pursuant to the Federal
Arbitration Act (“FAA”), 9 U.S.C. § 9, or alternatively,
Neb. Rev. Stats. §§ 25-2612, 25-2615 and 25-2617.
Petitioners seek confirmation of the Arbitrator’s Final
Award and rendition of a judgment in their favor and
against Respondents, jointly and severally, in the
principal amount of $2,997,031, plus post-Final
Award interest as provided by Revised Statutes of
Nebraska § 45-103. In their Motion to Vacate,
Respondents seek to modify, correct and/or vacate the
Arbitrator’s Final Award in a number of respects.
INTRODUCTION
Petitioners are the net prevailing parties in an
arbitration with Respondents in the approximate
amount of $2.997 million. The Arbitrator entered the
Final Award in April, 2017. The Final Award was
entered after several years of protracted discovery
and sixty-one separate telephonic and in-person case
management conferences with the Arbitrator,
followed by arbitration hearings spanning fourteen
months and fifty-three hearing days, during which
fifty-eight tact and expert witnesses testified and
1,985 exhibits were admitted in evidence. After each
of eleven bifurcated hearings, the Arbitrator issued
findings in specifically designated “Interim Awards.”
The Arbitrator provided the parties the opportunity
to seek reconsideration of the Interim Awards, and
Respondents availed themselves of this opportunity.
After the final Interim Award was issued, the
Arbitrator further granted the parties a pre-Final
Award procedure through which the parties again
could challenge any aspects of an Interim Award.
Following oral argument on Respondents’ final
objections, the Arbitrator entered a Final Award in
which Respondents prevailed on some claims,

47a
Petitioners prevailed on other claims, and under
which the Petitioners are the net prevailing parties.
Petitioners are now seeking an Order of the Court
confirming the Final Award and render a judgment in
the amount of $2,997,031 (plus post-award simple
interest on the principal amount from and after the
date of the Final Award until paid in full) in favor of
Petitioners and jointly and severally against the
Respondents.
Respondents oppose confirmation and seek to
vacate and/or modify the Final Award for a number of
reasons, each of which will be discussed below.
Respondents also filed Applications in Case Nos. CI
16-7509; CI 16-8394; CI 17-506; CI 17-651; and CI 173637 (the Companion Cases) seeking to vacate,
confirm and/or modify some of the Interim Awards.
The Court will enter Orders in the Companion Cases
simultaneously to the entry of this Order.
The parties agree that the FAA governs the postarbitration motions before this Court. Under the
FAA, an arbitrator’s award is all but impervious to
judicial review and the Court must confirm the Final
Award absent proof by Respondents that one or more
of the extremely limited and exclusive grounds for
judicial review under the FAA is satisfied.
Respondents seek to modify or vacate the Final
Award, summarized, as follows:
(1) Arbitrator Misbehavior.
Respondent’s
agree that the Court should modify the Final
Award by striking the Sky Financial Claim
Award in the Final Award or, alternatively,
vacate the Final Award based on the
Arbitrator’s alleged misbehavior, by which
the rights of Respondents have been

48a
prejudiced, concerning the assignment of the
Sky Financial Property and further due to
Petitioners lack of standing after the
assignment to the Arbitrator was made;
(2) No Reasoned Award on Key Affirmative
Defense. Respondents argue that the Court
should vacate the Final Award because the
Arbitrator failed to provide a reasoned award
on three key affirmative defenses of
Respondents relating to the Sky Financial
Claims, namely, the Claims Bar Date;
(3) Legal Fees and Expenses Not Allowed.
Respondents argue that the Court should
vacate the Final Award because the
Separation Agreement precludes the award of
attorneys fees and the Arbitrator exceeded his
power in awarding legal fees and expenses to
Petitioners; and
(4) Materially Miscalculated Prejudgment
Interest. Respondents argue that the Court
should modify or correct the Final Award to
reduce the damages in the form of
prejudgment interest awa.r ded to Petitioners
on the Sky Financial Claims by reducing the
applicable interest rate on the Sky Financial
Claims to 4.5%, reducing the total interest for
MTS to $427,117.22 and for SD&M to
$1,114,491.77, on the ground the Arbitrator
materially miscalculated these figures.
Alternatively, Respondents argue that the
Court should vacate the Final Award on the
basis the Arbitrator exceeded his power in
awarding damages that included the

49a
prejudgment interest shown in the Final
Award.
Respondent Scott Seldin also seeks further,
separate relief as follows:
(5) Material Mistake in Description and No
Joint and Several Liability. Respondent
Scott Seldin argues that the Final Award
should be modified or corrected with regard to
the evident material mistake in the
description of “Respondents” and further to
exclude him from joint and several liability
with regard to the Sky Financial Claims on
the ground the Arbitrator awarded upon
matters not submitted to him in finding Scott
liable under the Sky Financial Claims.
Alternatively, Respondent Scott Seldin
argues that the Court should vacate the Final
Award on the basis the Arbitrator exceeded
his power, or so imperfectly executed it, in
rendering an award of liability and/or joint
and several liability against Scott on the Sky
Financial Claims.
FACTUAL AND PROCEDURAL HISTORY
The Separation Agreement
On or about February 18, 2010, Petitioners and
Respondents entered into a “Separation Agreement.”
The Separation Agreement had two paramount
objectives:
(1) to
separate
Petitioners’
and
Respondents’ joint interests in certain real estate
assets through a bidding process; and (2) to resolve by
arbitration all disputes by and between the
Respondents and the Petitioners.

50a
Sections 8.3 and 9.14.1 of the Separation
Agreement govern the scope of arbitration, which
claims the parties generally referred to as “Ancillary
Claims.” The parties to the Separation Agreement
agreed that all Ancillary Claims would be resolved
exclusively through binding arbitration before an
arbitrator, Stefan Tucker (“Tucker”), a lawyer with
the Washington D.C. office of the Venable, LLP law
firm (“Venable”). If Tucker was unable to serve as the
arbitrator, the Separation Agreement identified
Robert Gottlieb (“Gottlieb”), a Venable partner, as
Tucker’s successor. If both Tucker and Gottlieb were
unable to serve as arbitrator, the Separation
Agreement instructed that the managing partner of
Venable would choose the successor arbitrator.
Petitioners and Respondents agreed that their
arbitration proceeding would be conducted in
accordance
with
the
American
Arbitration
Association’s (“AAA”) Commercial Division Rules
(“AAA Rules”).
Sec. 9.1 of the Separation Agreement provides as
follows:
Except as otherwise provided in this
Agreement, each Party shall bear its own costs
and expenses (including legal fees and
expenses) incurred in connection with this
Agreement and the transactions contemplated
hereby. No party shall be required to pay to the
other Party any commissions, penalties, fees,,
or expenses arising out of or associated with
any of the transactions contemplated by this
Agreement.
Sec. 9.14 of the Separation Agreement provides (in
relevant part) as follows:

51a
Any Dispute shall be asserted by the aggrieved
party in writing by setting forth the nature of
the claim or cause of action, the facts
supporting such claim or cause of action, and
the remedy sought (“Claim”) and by providing
notice of the Claim to the other party and the
Mediator . . . .
THE ARBITRATION PROCEEDINGS
Initial Arbitration before Tucker
In October, 2011, after the parties completed the
bidding process to separate their jointly-owned real
estate interests, the parties commenced arbitration of
their Ancillary Claims before Tucker. In April, 2012,
despite the on-going arbitration before Tucker,
Respondents filed the first of three lawsuits before the
Douglas County District Court,3 wherein they sought
to litigate their Ancillary Claims, or in the alternative
remove Tucker as the parties’ arbitrator. All three
lawsuits were dismissed, and Respondents’ claims
were compelled back to arbitration.
On May 23, 2013, Tucker resigned. After Tucker’s
resignation,
Venable
declined
any
further
involvement in the parties’ arbitration.
Appointment of New Arbitrator
Given Tucker’s resignation and Venable’s refusal
to be further involved in the parties’ arbitration, the
parties agreed to select a new arbitrator through the
AAA, consistent with the requirements of the
Separation Agreement. On October 15, 2013, Eugene
R. Commander (the “Arbitrator’), then managing
3 These actions can be found at: CI 12-3558; CI 12-6030;
and CI 12-11522.

52a
partner with the Denver, Colorado office of the
Polsinelli law firm, was appointed as the new
arbitrator.
The Arbitration Hearings
The arbitration recommenced in October, 2013,
before the newly-appointed Arbitrator. Respondents
asserted six Ancillary Claims and Petitioners
asserted four.
Each Ancillary Claim involved
numerous independent causes of action and
affirmative defenses.
In an effort to manage progression of the extensive
paper and electronic discovery conducted by the
parties along with the host of other issues that would
arise and need addressment on a regular basis, the
Arbitrator held routine, bi-weekly case management
conferences. The case management conferences were
typically conducted by telephone; however, the
parties also participated in day-long in-person case
management conferences with the Arbitrator on
separate occasions in Omaha, Denver, and Phoenix.
In total, the parties participated in sixty-one case
management conferences with the Arbitrator.
Due to the number of Ancillary Claims, the
numerous causes of action and affirmative defenses
asserted within each Ancillary Claim, pursuant to his
authority under AAA Rules 8 and 32, the Arbitrator
recommended, and the parties subsequently agreed,
that the arbitration hearing on each claim would be
bifurcated, with the first hearing to address liability
and the second hearing to address damages, if
necessary. The Arbitrator recommended bifurcation
so that the parties could more effectively present their
evidence in a manageable and digestible fashion for
each Ancillary Claim, and so that liability and

53a
damage determinations could be analyzed in a more
efficient and cost-effective manner.
The parties were provided the opportunity to
consider the Arbitrator’s bifurcation proposal, and
agreed to bifurcation and subsequently adopted the
Arbitrator’s proposed schedule of bifurcated
proceedings.
After conducting extensive discovery, the parties
participated in the bifurcated arbitration hearings
which commenced in September, 2015.
Eleven
evidentiary hearings spanning fifty-three hearing
days were held over the next fourteen months.
During the eleven evidentiary hearings, fifty-eight
fact and expert witnesses testified, and 1,985 exhibits
were admitted in evidence. As required by the
Separation Agreement, all of the evidentiary hearings
were held in Omaha, Nebraska.
At the conclusion of each bifurcated hearing, the
Arbitrator issued Interim Awards pursuant to AAA
Rule 37, wherein he made determinations regarding
liability or damages, as appropriate. The parties
agreed that the Interim Awards would not be
considered as final awards. The parties’ chief concern
in this regard was to avoid piecemeal pursuit of
confirmation, modification, or vacation of an Interim
Award before all Ancillary Claims had been
arbitrated, the arbitration proceeding closed, and a
comprehensive Final Award issued.
Between October 17, 2015, and November 14,
2016, the Arbitrator issued twelve Interim Awards
addressing six Ancillary Claims (ten were originally
filed but several were dismissed prior to hearing).
After the last arbitration hearing, the Arbitrator
provided the parties with a final opportunity to

54a
submit extensive pre-final award statements
addressing any relevant evidence or applicable legal
authorities they felt the Arbitrator misconstrued or
disregarded in issuing his Interim Awards. The
parties were then afforded the opportunity to address
these issues before the Arbitrator during a March 22,
2017, telephonic case management conference, at
which time Respondents presented argument and
Petitioners responded to questions posed by the
Arbitrator. On April 12, 2017, the Arbitrator issued
an Order to Close Evidence and Hearings, whereby he
formally closed the evidence and hearings for
purposes of issuing a final award pursuant to AAA
Rule 45.
The Final Award
On April 27, 2017, the Arbitrator served the Final
Award upon the parties in compliance with AAA Rule
49. In compliance with AAA Rule 45, the Final Award
was issued within thirty calendar days from the date
the parties’ arbitration hearing formally closed. The
Final Award incorporates by reference all of the
Arbitrator’s previously issued Interim Awards. The
Final Award renders a net award in favor of
Petitioners and against Respondents in the amount of
$2,997,031, plus post-award simple interest on the
principal amount from and after the date of the Final
Award until paid in full. The Final Award finds that
Respondents are jointly and severally liable for the
full amount awarded to the Petitioners under the
Final Award.
DISCUSSION
The FAA governs transactions affecting
“commerce among the several states.” 9 U.S.C. § 1.
The FAA clearly applies to the disputes between the

55a
parties because the arbitration was a commercial
dispute involving individuals, properties, and
companies located in Arizona, Nebraska, and
elsewhere in the United States. In a prior action
between the parties in Douglas County District Court
which involved the Separation Agreement, Judge
Thomas A. Otepka found the arbitration provision
within the parties’ Separation Agreement “involves
commerce” and is thereby governed by the FAA.
(Case No. CI 12-3558 (Aug. 8, 2012)) Judge Otepka’s
Order states “The Court agrees and finds that the
Separation Agreement, which involves commerce, is
governed by the FAA.”.
The Court must apply the FAA because “[t)he U.S.
Supreme Court has held that the FAA is substantive
law under Congress’ Commerce Clause authority and
that it applies in state and federal court.” Aramark
Unif. & Career Apparel. Inc. v. Hunan, Inc., 276 Neb.
700, 704-705 (2008). Nebraska’s Uniform Arbitration
Act (“UAA”) applies only to purely procedural
matters—provided the procedure does not conflict
with the objectives of the FAA. See, Kremer v. Rural
Community Ins. Co., 280 Neb. 591 (2010). An
application to confirm an arbitration award is a
substantive matter governed by the FAA. See, Dowd
v. First Omaha Securities Corp., 242 Neb. 347, 356
(1993) (in state court action where arbitrating party
sought to vacate arbitration award, the Nebraska
Supreme Court found that arbitration agreement was
governed by the FAA and determined that Section 10
of the FAA was controlling).
The FAA “expresses a presumption that
arbitration awards will be confirmed.” Nationwide
Mutual Ins. Co. v. Home Ins. Co., 429 F.3d 640, 643
(6th Cir. 2005) (affirming judgment confirming

56a
award); Frazier v. CitiFinancial Corp., LLC, 604 F.3d
1313, 1321 (11th Cir. 2010) The FAA provides that
the Court “must grant” an order confirming the award
“unless the award is vacated, modified, or corrected
as prescribed in sections 10 and 11 of this title.” 9
U.S.C. § 9. This means that the Court “has no choice
but to confirm” if the statutory exceptions are not
satisfied. UHC Mgmt. Co. Inc. v. Computer Sciences
Corp., 148 F.3d 992, 997 (8th Cir. 1998).
Under Section 10 of the FM, the only permissible
grounds on which to vacate an award are:
(1) where the award was procured by
corruption, fraud, or undue means;
(2) where there was evident partiality or
corruption in the arbitrators, or either of them;
(3) where the arbitrators were guilty of
misconduct in refusing to postpone the
hearing, upon sufficient cause shown, or in
refusing to hear evidence pertinent and
material to the controversy; or of any other
misbehavior by which the rights of any party
have been prejudiced; or
(3) where the arbitrators exceeded their
powers, or so imperfectly executed them that a
mutual, final, and definite award upon the
subject matter submitted was not made.
9 U.S.C. §§ 11(a)-(c) provides that the Court may
modify or correct an award only:
(a) [w]here there was an evident material
miscalculation of figures or an evident
material mistake in the description of any
person, thing, or property referred to in the
award; (b) [w]here the arbitrators have
awarded upon a matter not submitted to them,

57a
unless it is a matter not affecting the merits of
the decision upon the matter submitted; [and]
(c) [w]here the award is imperfect in matter of
form not affecting the merits of the
controversy.
The grounds enumerated in Sections 10 and 11 of
the FAA upon which an arbitration award may be
vacated or modified are “exclusive” and “extremely
limited.” Rent-A-Center West, Inc. v. Jackson, 561
U.S. 63, 75 (2010); UHC Mgmt. Co. Inc., supra at 998.
These grounds have been described as “one of the
narrowest standards of judicial review in all of
American jurisprudence.” Nationwide, supra at 643
(quotation omitted); see also Manion v. Nagin, 392
F.3d 294, 298 (8th Cir. 2004) (“our scope of review of
the arbitration award itself is among the narrowest
known to the law”).
“‘Judicial review of arbitration awards is narrow
because arbitration is intended to be the final
resolution of disputes. Arbitrators do not act as junior
varsity trial courts where subsequent appellate
review is readily available to the losing party.’”
Marquis Yachts v. Allied Marine Grp., Inc., 2010 WL
1380137 at *9 (D. Minn. Mar. 31, 2010) (quoting Nat’l
Wrecking Co. v. lnt’I Bhd. of Teamsters, Local 731,
990 F.2d 957, 960 (7th Cir. 1993)). Moreover, “as long
as the arbitrator is even arguably construing or
applying the contract and acting within the scope of
his authority, that a court is convinced he committed
serious error does not suffice to overturn his decision.”
United Paperworkers Intern. Union, AFL-CIO v.
Misco, Inc., 484 U.S. 29, 38 (1987); see also, Doral
Financial Corp. v. Garcia- Velez, 725 F.3d 27, 31 (1st
Cir. 2013) (noting that “[a]rbitral awards are nearly
impervious to judicial oversight”). Accordingly, this

58a
Court must afford “great deference” to the
Arbitrator’s decision, and the award “must be
confirmed” even if “the court thinks [the Arbitrator’s]
interpretation of the agreement is in error.” Winfrey
v. Simmons Foods, Inc., 495 F.3d 549, 551 (8th Cir.
2007) (citations omitted).
The parties confirmed their commitment to a
limited standard of review by agreeing in the
Separation Agreement that the Final Award “shall
not be appealable to the courts” and “shall be final,
binding and non-appealable . . . .”. While the law is
unsettled on the effect of such clauses, several courts
have held the inclusion of “non-appealability”
language in an arbitration agreement requires an
even narrower scope of judicial review. See e.g.,
Tabas v. Tabas, 47 F.3d 1280, 1288 (3d Cir. 1995)
(limiting review to the arbitrator’s “corruption, fraud,
or partiality” and to charge that arbitrator “failed to
provide a hearing to consider each party’s views prior
to his decision”); Kim C-1 LLC v. Valent Biosciences
Corp., 756 F. Supp. 2d 1258, 1266-67 (E.D. Cal. 2010)
(limiting review to arbitrator’s bias, misconduct, or
undue influence and precluding review under FAA
Section 10(a)(4)).
Since the Final Award is nearly impervious to
challenge and may be vacated only under the most
unusual circumstances, Petitioner’s Motion to
Confirm must be sustained unless one or more of
Respondents claims supporting their Motion to
Vacate have merit.
Before addressing the merits of each of
Respondents specific claims, the Court, in general,
believes that several of Respondents’ claims have
been waived as a matter of law because they were
never presented to the Arbitrator. “The failure to

59a
pose an available argument to the arbitrator waives
that argument in collateral proceedings to enforce or
vacate the arbitration award.” Ganton Tech., Inc. v.
lnt’I Union, United Auto, Aerospace & Agricultural
Implement Workers of Am., 358 F.3d 459,462 (7th
Cir. 2004) (affirming denial of application to vacate
award); see also, Boehringer lngelheim Vetmedica,
Inc. v. United Food & Commercial Workers, 739 F.3d
1136, 1140 (8th Cir. 2014) (“In general, federal courts
do not permit a party to withhold an issue or
argument during arbitration and then, upon losing,
raise it to the reviewing court.”).
In the arbitration proceeding, Respondents do not
appear to have argued (1) that the arbitrator was not
legally or ethically permitted to accept tender of the
Securities as a form of temporary interpleader,
(2) that Petitioners lost standing to assert their
securities fraud claims after interpleading the
Securities; and (3) that the Arbitrator failed to
provide a reasoned award on the issue of the Claims
Bar Date. Therefore, these claims appear to have
been waived. Nonetheless, the Court will still address
the substantive merits of each of Respondents’ claims.
Arbitrator Misbehavior
At one point in the Arbitration, Petitioners raised
the issue of “tendering” the Sky Financial Securities
as Respondents had raised the issue that a lack of
tender is a defense under the Arizona Securities Act
(the Act) as it relates to damages.
In an attempt to “tender” the Sky Financial
Securities by “interpleading” the securities, the
Petitioners, without objection by Respondents,
requested the Arbitrator to take possession of the Sky
Financial Securities “for purposes of effectuating the

60a
relief to be awarded”—i.e., to award the Sky Financial
Securities either to Petitioners or to whomever might
have been appropriate.
In tendering the Sky Financial Securities, the
following dialogue took place:
ARBITRATOR: Well, I’m in unchartered
waters here. I guess my first question is why
would the assignment come to me?
MR. McELENNEY: It’s largely in the sense of
an interpleaders. Is this to b -- I mean, it
emphasizes the point which is the
impossibility, to whom do we tender, do we
tender to Millard, do we tender to Sky
Financial, to whomever it is that it is deemed
you think, to the extent it isn’t impossible and
excused by impossibility, you’re welcome to
determine to whomever it should be tendered.
Respondents appear to have consented to this
procedure:
ARBITRATOR: Well, the only way I know how
to deal with this right now is to consider this an
act of interpleading these interests to me. I’m
not an officer of the court, but I do have
jurisdiction over this matter, so for the time
being, at least, I’ll accept them. With that
understanding in mind. Is that acceptable to
both sides?
MR. ROYAL: Yes.
Respondents appear to have expressed agreement
that it was “acceptable” for the Arbitrator to accept
the assignments as a form of interpleader.
Respondents apparent consent to this procedure

61a
belies their present claim that such action by the
Arbitrator was “astonishing” and “surreal”.
Given the narrow constraints of judicial review of
arbitration awards, it is not surprising that
Respondents major focus in this proceeding is on
alleged misbehavior on the part of the Arbitrator for
accepting the Sky Financial Securities to hold until
his determination of an award.
Respondents argue that the transfer of the
ownership the Sky Financial Securities to the
Arbitrator was “immediately disqualifying” and that
they were “prejudiced in their right to have a neutral
arbitrator” decide the arbitration. Respondents,
however, fail to explain how this relates in any way
as to whether the Arbitrator actually committed
misconduct. Respondents argue that they were not
“going to commit” to stipulate as to “how the
assignments would be legally recognized” and merely
“acknowledged” that Petitioners had voluntarily come
forward on their own with the intention to “make a
record” at the hearing of the transfer. If Respondents
objected to the “interpleader”, they were required to
object at the hearing.
Boehringer lngelheim
Vetmedica, supra at 1140.
Regardless, Respondents argument conflicts with
the facts and the law. The AAA Rules permit an
arbitrator flexibility in fashioning remedies. See AAA
Rule 37(a) (“The arbitrator may take whatever
interim measures he or she deems necessary . . . .”);
AAA Rule 47(a) (“The arbitrator may grant any
remedy or relief that the arbitrator deems just and
equitable and within the scope of the agreement of the
parties . . . .”). The Arbitrator’s acceptance of the Sky
Financial Securities “as a form of temporary

62a
interpleader” need not be coextensive with the
concept of interpleader under Nebraska law.
Ultimately, the Arbitrator ruled for Petitioners on
the merits and rejected the “tender” defense, thus
finding that Petitioners were not legally required to
relinquish the Sky Financial Securities in order to
recover damages under the Act. Accordingly, the
Arbitrator “disclaim[ed] and release[d] any and all
right, title and interest in any and all membership
interests that were or could have been the subject of
the Original Assignments.” Rather than constituting
misconduct, this procedure appeared a reasonable
and efficient way for the Arbitrator to handle
Respondents’ repeated assertions of the “tender”
defense and ensure they had a fair hearing on the
issue.
The Arbitrator’s choice of procedure is entitled to
great deference and should be viewed in the light of
the purposes of arbitration:
Arbitration proceedings are not constrained by
formal rules of procedure or evidence. By
agreeing to arbitration, a party trades the
procedures and opportunities for review of the
courtroom for the simplicity, informality, and
expedition of arbitration. Arbitrators should be
expected to act affirmatively to simplify and
expedite the proceedings before them. They
need provide only a fundamentally fair hearing.
Courts reviewing arbitral award may not
superimpose rigorous procedural limitations
upon the conduct of the arbitrators.
Halliburton Energy Servs., supra at 754 (quoting
Mantle, 956 F. Supp. at 730-31); see also, Stroh
Container, supra at 749 (“[W]e must . . . accord even

63a
greater deference to the arbitrator’s decision on
procedural matters than those bearing on substantive
grounds.”). Particularly when viewed in this context,
the Arbitrator’s decision to allow a form of
interpleader (which the Respondents expressly
approved by answering “Yes” when the Arbitrator
asked, “Is that acceptable to both sides?”) is not
grounds to vacate the Final Award, and it did not
deprive Respondents of a “fundamentally fair
hearing.” See, Halliburton Energy Servs., supra at
754.
Further, while ostensibly moving under the
“misconduct” prong of the FAA (9 U.S.C. § 10(a)(3)),
Respondents cite to no authority addressing an
arbitrator’s misconduct, instead relying exclusively
on cases under 9 U.S.C. § 10(a)(2) dealing with an
arbitrator’s bias or “evident partiality.” To overturn
an award on grounds of bias, the moving party must
carry the “heavy burden” to produce evidence that
“objectively demonstrates such a degree of partiality
that a reasonable person could assume that the
arbitrator had improper motives.” Williams v. Nat’l
Football League, 582 F.3d 863, 885 (8th Cir. 2009)
(quoting Dow Corning Corp. v. Safety Nat’l Cas.
Corp., 335 F.3d 742, 750 (8th Cir. 2003)) (affirming
confirmation of award). Respondents have presented
no evidence to carry the “heavy burden” of
demonstrating that the Arbitrator had “improper
motives” and rendered an award tainted by actual
bias. This standard would not be satisfied “by the
mere appearance of bias” even if, arguendo, such an
appearance existed here, which the Court does not so
find. Respondents almost admit that no such actual
bias exists when they state that the act of
“interpleader”
“immediately
disqualified”
the

64a
Arbitrator without so much as identifying any actual
decision that demonstrates bias by accepting the Sky
Financial Securities in order to make an eventual
award.
While the Court does not believe that the
Arbitrator’s method of “interpleader” was the best
solution to the issue (e.g., a separate trustee could
have been appointed to hold the Sky Financial
Securities) the Court cannot find that this act
constitutes misconduct and/or such bias that
Respondents did not obtain a fair and impartial
proceeding.
The cases cited by Respondents are inapposite by
their own terms. In Commonwealth Coatings Corp.
v. Cont. Cas. Co., 393 U.S. 145, 149 (1968), the United
States Supreme Court vacated an arbitration award
because a member of the arbitral panel failed to
disclose a material conflict of interest. No conflict or
failure to disclose is alleged in this case (other than
the bare assertion that by accepting the Securities the
Arbitrator was “immediately disqualified”). In Dowd
v. First Omaha Sec. Corp., supra at 357, the Nebraska
Supreme Court affirmed the district court’s entry of
judgment on the arbitration award, refusing to find
partiality. In State v. Pattno, 254 Neb. 733, 743
(1998), which did not involve an arbitration but
rather a criminal sentencing, the Nebraska Supreme
Court vacated a criminal sentence on grounds of
partiality, as the trial judge had “interjected his own
religious views immediately prior to sentencing, [and
thus] a reasonable person could conclude that the
sentence was based upon the personal bias or
prejudice of the judge.” No such conduct occurred or
is alleged to have occurred in this case. In Conkling
v. De Lany, 167 Neb. 4, 13 (1958), the Nebraska

65a
Supreme Court prohibited a justice of the peace from
hearing misdemeanor cases in which she would
receive a fee taxed as costs against defendant if she
convicted Defendant. Respondents do not allege, that
the Arbitrator received or was promised money for his
rulings in this case.
The Court finds no basis to vacate the Final Award
for Arbitrator misconduct and/or bias.
No Reasoned Award on Key Affirmative
Defenses
Respondents argue that the Arbitrator did not
provide a “reasoned award” with respect to the Claims
Bar Date defense. A “reasoned award” is “something
more than a line or two of unexplained conclusions,
but something less than full findings of fact and
conclusions of law on each issue raised before the
panel.” Leeward Constr. Co. Ltd. v. Am. Univ. of
Antigua - College of Med., 836 F.3d 634, 640 (2nd Cir.
2016) (affirming confirmation of award). A reasoned
award “sets forth the basic reasoning of the arbitral
panel on the central issue or issues raised before it. It
need not delve into every argument made by the
parties.” Id.
Respondents do not argue that the Final Award as
a whole is not reasoned. Instead, Respondents argue
that the Arbitrator failed to include sufficient reasons
to justify his decision to reject one of dozens of
affirmative defenses asserted by Respondents to the
Sky Financial Claim. Because a reasoned award
“need not delve into every argument made by the
parties,” Respondents’ argument lacks merit,
particularly here, where the Arbitrator’s written
findings and awards related to Sky Financial Claim
(including the Final Award) total sixty pages, not

66a
including attachments. Respondents primary defense
during the arbitration was that the claims were
untimely under the substantive statute of
limitations—not the Claims Bar Date in the
Separation Agreement. The Arbitrator provided
multiple paragraphs of reasoning explaining his
rejection of Respondents statute of limitations
defense.
The Arbitrator gave a detailed listing of his
reasons for finding the Sky Financial Claim to be
timely under the Separation Agreement:
Claimants have satisfied their notice pleading
obligations through, among others, (A) their
Demand for Arbitration and Amended Demand
for Arbitration; (B) their mandatory disclosures
and discovery responses served in this
proceeding; (C) their deposition testimony
given in this proceeding; and (D) the joint final
pretrial order. The allegations asserted by the
Petitioners during the evidentiary hearing in
support of Ancillary Claim 13 were all
encompassed within the allegations set forth in
their formal pleadings, and the allegations that
Respondents objected to in the joint final
pretrial order and during the evidentiary
hearing could not genuinely have been a
surprise to [Respondents] given the extensive
deposition testimony that was given by
Claimants in this proceeding and through prior
discovery conducted by Respondents and others
in related Sky Financial litigation in other
jurisdictions.
The foregoing paragraph from the Final Award
specifically references two of the primary reasons

67a
urged by Respondents as justifying the timeliness of
the Sky Financial Claim: (1) a “mandatory disclosure”
(the Rule 26(f) Report) served by Petitioners on
November 21, 2011 (eight months before the original
Claims Bar Date), setting forth all of the factual
grounds for the Sky Financial Claim on which
Petitioners ultimately prevailed; and (2) the
“Amended Demand for Arbitration” that Petitioners
served on December 6, 2013, pursuant to the leave
expressly granted by the Arbitrator to all parties.
In addition, the Arbitrator subsequently held that
Respondents had “failed to meet their burden of
proving any of their affirmative defenses” to the Sky
Claim. Further, the Final Award explains that “in
accordance with Section 9.14, the parties were given
the opportunity to amend and clarify their original
Ancillary Claims, which they elected to do during
December 2013 - April 2014.” Respondents do not
argue that the Amended Demand for Arbitration
submitted by Petitioners pursuant to this leave
granted by the Arbitrator did not provide sufficient
notice of the claims on which Petitioners prevailed
nearly three years later.
Thus, Respondents’ argument reduces to the
technical position that these reasons are not
enumerated in the paragraph specifically rejecting
the. Claims Bar Date defense. This is not the
standard under the FAA:
Given the deference employed when evaluating
arbitral awards, and as all doubts implicated by
an award must be resolved in favor of the
arbitration, the award in this case is sufficient
to withstand Conoco’s request for vacatur.
Conoco’s argument against the award hinges on

68a
the summary nature of the arbitrator’s
statement that, based upon all of the evidence,
he found that the initial price formula should
remain in effect. Conoco ignores that the
preceding paragraph thoroughly delineates
Rain’s contention that Conoco had failed to
show that the initial formula failed to yield
market price, a contention that the arbitrator
obviously accepted. Conoco would have this
court vacate the arbitration award merely
because the arbitrator did not reiterate this
reason in the following paragraph. Such a
narrow approach is inconsistent with the
deference owed to arbitral awards and the
congressional policy favoring arbitration of
commercial disputes, and is also contrary to the
interest·of finality.
Rain CII Carbon, LLC v. ConocoPhillips Co., 674 F.3d
469, 474 (5th Cir. 2012) (affirming confirmation of
award).
Because the Final Award and the Interim Awards
incorporated therein clearly demonstrate that the
Arbitrator accepted at least two of the arguments
urged by Petitioners and found that Respondents had
failed to prove their affirmative defense of
untimeliness, it meets the standard of a “reasoned
award” under the FAA.
Acknowledging that the Arbitrator based his
ruling, in part, on a December, 2013 Amended
Demand for Arbitration submitted by Petitioners
with the Arbitrator’s leave, Respondents next argue
that the Arbitrator did not apply the correct “method”
in granting leave to amend.

69a
The Separation Agreement provides that
“reasonable amendments to claims in pending actions
shall be allowed in the Mediator’s discretion based on
discovery, admissions, interim decisions, and other
developments in the prosecution of the Claim
consistent with the Federal Rules of Civil Procedure.”
On December 3, 2013, the Arbitrator ordered:
Claimants shall amend their claims against
Respondents on or before December 6, 2013, by
submitting a Demand for Arbitration in
accordance with the Rules, which shall
incorporate all claims against Respondents
arising out of or related to the parties’ rights
and obligations under the Separation
Agreement (‘Ancillary Claims’ as defined in the
Separation Agreement). This leave to amend is
freely granted in the interests of justice and
economy . . . .
The Arbitrator’s decision to “freely grant” an
amendment “in the interests of justice and economy”
is consistent with the Federal Rules of Civil
Procedure. See Fed. R. Civ. P. 15(a)(2) (“The court
should freely give leave [to amend] when justice so
requires”).
The Arbitrator was construing and
applying the Separation Agreement in granting leave
to amend consistent with the Federal Rules of Civil
Procedure. Winfrey v. Simmons Foods, Inc., 495 F.3d
549, 551 (8th Cir. 2007) (“The award must be
confirmed so long as the arbitrator is even arguably
construing or applying the agreement even if the
court thinks that his interpretation of the agreement
is in error”).
Respondents argue that amendments to claims
must meet the standard of “relation back” under

70a
Federal Rule of Civil Procedure 15(c)(1)(B). Although
the Arbitrator did not address the concept of “relation
back” in the Final Award, he determined on the record
at the liability hearing that the amendment did relate
back because it involved “the same transactions and
occurrences” as the prior pleadings. In any event, the
Separation Agreement does not require a finding that
an amendment to a claim “relates back” to the Claims
Bar Date, and the Arbitrator’s determination that it
was sufficient under the Separation Agreement for
amendment to be freely granted when justice so
requires is conclusive and entitled to deference.
Respondents mischaracterize the significance of
“relation back” under Federal Rule of Civil Procedure
15. The concept of “relation back” comes into play
only when an amended pleading asserts a new claim
that is otherwise barred by the statute of limitations.
Farber v. Wards Co., Inc., 825 F.2d 684, 689 (2d Cir.
1987). Here, while the Amended Notice of Claim sets
forth additional legal theories such as securities
fraud, the claim itself is the same as pied in the Rule
26(f) Report. County of Boyd v. U.S. Ecology, Inc., 858
F. Supp. 960, 967 (D. Neb. 1994) (two theories that
“arise[] out of the same nucleus of operative facts, or
[are] based upon the same factual predicate” are
“really the same ‘claim’ or ‘cause of action’”); Sanitary
& Improvement Dist. No. 57 v. City of Elkhorn, 248
Neb. 486 (1995) (“A cause of action consists of the fact
or facts which give one a right to judicial relief against
another. A theory of recovery is not itself a cause of
action.”). Because no new “claims” were pled in the
Amended Notice of Claim, the concept of “relation
back” has no application here.

71a
Legal Fees and Expenses Awarded by the
Arbitrator are not Allowed in the Separation
Agreement
Respondents argue that the Court should vacate,
or modify and correct, the Final Award because the
Arbitrator incorrectly applied or interpreted the
Separation Agreement as allowing him to fully
enforce the Arizona Securities Act, which provides for
an award of attorneys’ fees because the Separation
Agreement provides that each party shall bear its own
costs and expenses including legal fees and expenses.
Respondents believe the Separation Agreement
prevents an award of any attorney fees to either
party.
Petitioners brought a claim under an Arizona
statute that expressly provides for an award of
attorneys’ fees as an element of damages. A.R.S. § 442001(A). Respondents argue that the Separation
Agreement precluded the Arbitrator from fully
enforcing that statute because the Separation
Agreement provides:
Except as otherwise provided in this
Agreement, each Party shall bear its own costs
and expenses (including legal fees and
expenses) incurred in connection with this
Agreement and the transactions contemplated
hereby.
In an eight-paragraph, reasoned decision, the
Arbitrator rejected Respondents’ argument, holding
that Section 9.1.1 of the Separation applies only to the
business ‘transactions contemplated by the
Separation Agreement, not the parties’ of pursuit
Ancillary Claims in arbitration, particularly where

72a
attorneys’ fees are an element of damages under a
statute.
The cases Respondents cite are not to the contrary.
In Missouri River Servs., Inc. v. Omaha Tribe of Neb.,
267 F.3d 848 (8th Cir. 2001), the Eighth Circuit U. S.
Court of Appeals reversed a judgment confirming an
award because the gaming contract containing the
parties’ arbitration agreement specified that the
Omaha Tribe would waive sovereign immunity and
allow satisfaction of any judgment or award only out
of the profits earned by the Tribe “under this
Agreement,” but the arbitrator inexplicably ordered
the Tribe to satisfy the award out of profits from “all
gaming operations on the reservation of the Omaha
Tribe of Nebraska.” The Eighth Circuit held that the
award “failed to draw its essence from the Agreement”
because the arbitrator ignored “unambiguous
language” to “craft her own remedy.”
Here, the Arbitrator did not ignore the Separation
Agreement or craft his own remedy. Rather, the
Arbitrator enforced the plain terms of the Arizona
Securities Act after determining that the Separation
Agreement required him to do so. Significantly,
unlike the clear directive of the gaming contract in
Missouri River Servs., supra, the Separation
Agreement does not categorically forbid awards of
attorneys’ fees in arbitration. Rather, in a provision
separate from the arbitration provision of the
Separation Agreement, it provides that the parties
shall bear their own costs “in connection with this
[Separation] Agreement and the transactions
contemplated hereby,” not categorically, but only
“[e]xcept as otherwise provided in this Agreement.”
The Arbitrator determined that the former clause did
not apply to Ancillary Claims in arbitration, and in

73a
any event, that the latter clause controlled because
the Separation Agreement expressly incorporates the
AAA Rules, which do authorize an arbitrator to award
attorneys’ fees if permitted by law, which the Arizona
Securities Act does. Thus, the Final Award interprets
the Separation Agreement (rather than simply
disregards it) and draws its essence from that
interpretation. The conduct of the arbitrator in
Missouri River Servs, supra was fundamentally
different.
The remaining cases cited by Respondents are not
relevant. The Ninth Circuit U.S. Court of Appeals in
S.M. Wilson & Co. v. Smith lnt’l Inc., 587 F.2d 1363,
1375 (9th Cir. 1978), was not reviewing an arbitration
award; the case concerned only the enforceability of a
contract limiting recovery of consequential damages.
In Barbier v. Shearson Lehman Hutton, Inc., 948 F.2d
117 (2d Cir. 1991), the Second Circuit U.S. Court of
Appeals did not consider whether the arbitrator failed
to arguably interpret the agreement; rather, the court
reversed a judgment confirming an award of punitive
damages because the governing state law did not
permit arbitrators to award punitive damages. Here,
the governing law—Arizona Revised Statutes § 442001(A) (which the parties agreed applied to
Petitioners securities Claims)—expressly directs the
Arbitrator to award attorneys’ fees as an element of
damages. Likewise, in Bacardi Corp. v. Congreso de
Uniones lndustriales de Puerto Rico, 692 F.2d 210,
214 (1st Cir. 1982), the award provided for $200 in
attorneys’ fees but “cites no provision of the contract
authorizing . . . attorneys’ fees. Indeed, it gives no
rationale for these awards. Nor is there anything in
the record to show that the grieving union made any
claim for such damages . . . .” Here, Petitioners

74a
demanded fees in the pleadings and the Arbitrator
cited both Arizona Revised Statutes § 44-2001(A) and
AAA Rules 47(a) and 47(d) as authority to award
attorneys’ fees.
Finally, Barrentine v. Arkansas-Best Freight Sys.,
Inc., 450 U.S. 728,745 (1981), stands only for the basic
proposition that an arbitrator is “confined to
interpretation and application of the [arbitration]
agreement” and that his “award is legitimate only so
long as it draws its essence from the [arbitration]
agreement.”
Here, the Arbitrator did correctly
interpret and apply the Separation Agreement.
Material
Miscalculation
of
Prejudgment
Interest
Respondents next argue that the Arbitrator
materially miscalculated the prejudgment interest in
the Award. The Arbitrator awarded Petitioners
interest at 10% for the securities violations.
Respondents argue that 10% is far in excess of the
prime plus1% interest allowed by Arizona law.
Under the FAA, an arbitration award may be
modified upon a showing that there was “an evident
material miscalculation of figures.” 9 U.S.C. § 11(a).
To make this showing, the challenging party must
demonstrate more than “a mistake of
fact or
misinterpretation of law by an arbitrator.” Apex
Plumbing Supply, Inc. v. U.S. Supply Co., Inc., 142
F.3d 188, 194 (4th Cir. 1998) (affirming judgment
confirming award). (“[w]here no mathematical error
appears on the face of the award an arbitration award
will not be altered.”)
Respondents’
argument
is
fundamentally
misplaced because they have not identified any
“mathematical error’’ in the calculation of

75a
prejudgment interest under the Final Award. Rather,
Respondents argue the merits of the Final Award by
contending the Arbitrator committed legal error in his
determination of the correct rate of pre-judgment
interest under Arizona law. Legal error is not
reviewable by this Court. See,e.g., SBC Advanced,
794 F.3d at 1027 (precluding merit-based review); Air
Line Pilots, supra at 578 (recognizing elimination of
manifest disregard for the law as basis to seek
vacatur).
Further, Respondents’ characterization that the
Arbitrator “mistakenly identified the wrong number
in the statute” is misleading. The parties contested
the appropriate rate of pre-judgment interest
awarded as damages under the Arizona Securities
Act, an issue of statutory ‘interpretation that
apparently has not been decided in any published
Arizona case. Ultimately, the Arbitrator selected the
statutory rate proposed by Petitioners over the
statutory rate proposed by Respondents.
The
Arbitrator’s selection of the applicable statutory rate
of interest is not a miscalculation and it is not
reviewable by this Court. Apex Plumbing, supra at
194.
Respondents do not cite to any case in which a
reviewing court reversed an arbitrator’s selection of
the pre-judgment interest rate under the FdAA. The
only case is an unpublished case from Minnesota, in
which the reviewing court applied the Minnesota
Arbitration Act, not the FAA. See, Alpine Glass, Inc.
v. Am. Family Ins. Co., 2010 WL 5088188 at *2 (D.
Minn. Dec. 7, 2010). Notably, under Minnesota law,
“questions of law are subject to de novo review” upon
review of an arbitration award. Thus, in Alpine
Glass, the court conducted a searching review of the

76a
legal grounds for the award of pre-judgment interest
and re-determined the appropriate rate of interest to
reflect the court’s view that the arbitrator committed
legal error in his interpretation of the pre-judgment
interest statute. This broader scope of review is
foreign to the FAA. See e.g., Manion, supra at 298
(“our scope of review of the arbitration award itself is
among the narrowest known to the law”).
The other cases cited by Respondents on this issue
are inapposite. In Priority One Servs., Inc. v. W&T
Travel Servs:, LLC, 825 F. Supp. 2d 43 (D.D.C. 2011),
the court modified the arbitrator’s award to eliminate
a double recovery evident on the face of the award. Id.
at 57 (“When an arbitration award orders a party to
pay damages that have already been paid or which
are included elsewhere in the award, a court may
modify the award”). Respondents do not argue that
the Arbitrator’s pre-judgment interest calculation
awards a double recovery—they argue that the
Arbitrator applied the wrong rate as a matter of law.
Likewise, in Ford v. Merkle, Inc., 2014 WL 11510421
(E.D. Ark. Dec. 16, 2014), the court modified the prejudgment interest award because the arbitrator used
the wrong dates to calculate interest, resulting in a
“windfall” to the claimant. Respondents do not argue
that the Arbitrator’s calculation is incorrect nor do
they argue that his calculation gave Petitioners a
windfall.
In New Jersey Regional Council of
Carpenters v. AG Constr. Corp., 2015 WL 1472011
(D.N.J. Mar. 30, 2015), the court merely declined to
confirm the interest component of an award because
the award did not reveal the start and end dates for
the interest calculation. No such infirmity is alleged
in this case.

77a
Scott Seldin’s Separate Relief to Modify or
Vacate the Arbitration Award Due to Material
Mistake in Description and No Joint and
Several Liability
Respondent Scott Seldin argues that he did not
violate any securities laws and therefore cannot be
jointly and severally liable for the Sky Financial
Claim. Initially, this argument is misleading because
the Sky Financial Claim includes a securities fraud
claim and a claim for theft of corporate opportunity.
While Petitioners agreed that Respondent Scott
Seldin did not·personally violate any securities laws,
Respondent Scott Seldin did take corporate
opportunities from SD&M and M.T.S..
As with every other issue raised by Respondents,
the Final Award is firmly rooted in the terms of the
Separation Agreement in regard to Respondent Scott
Seldin’s liability. The parties agreed years ago that
“[t]he individuals and entities that comprise
[Petitioners] and [Respondents] shall be jointly and
severally liable for any Award entered against the
[Petitioners] and/or the [Respondents], respectively.”
The Sky Financial Claim was pleaded as a claim by
Petitioners against Respondents and the awards
reflect the same alignment of parties. Respondents
acknowledged on the record that all claims in this
arbitration were pursued by and against Petition rs
and Respondents collectively:
ARBITRATOR: And haven’t we been working
since Day 1 with the understanding that the
claims were being asserted on behalf of Omaha
Seldins or on behalf of Arizona Seldins with the
belief that, if and when a final award is entered,
you all will organize that as you see fit for
collection?

78a
MR. ROYAL: Yes.
ARBITRATOR: That’s been the deal, hasn’t it?
MR. ROYAL: Yes.
Thus, all awards in this proceeding have been
awards against Petitioners and Respondents, within
the meaning of Case Management Order No. 1.
Pursuant to Respondent Scott Seldin’s contractual
agreement reflected in that case management order,
the Final Award properly provides that Respondent
Scott Seldin is jointly and severally liable for all
damages awarded. Whether or not Respondent Scott
Seldin would be subject to the same liability under
common law principles of joint and several liability is
not relevant in the arbitration as he has contractually
agreed to the possibility of liability.
CONCLUSION
The Court enters the following Order:
(1) The Court overrules Respondents’ Motion to
Vacate the Arbitrator’s Final Award and CI176276 is dismissed;
(2) The Court sustains Petitioners’ Motion to
Confirm Arbitration Award as Judgment at
CI17-4272;
(3) Judgment is entered at CI17-4272 for
Petitioners as provided in the Final Award in
the amount of $2,997,031 plus interest on the
principal amount from April 27, 2017, at the
statutory post-judgment interest rate provided
by Revised Statutes of Nebraska § 45-103; and
(4) Judgment is entered at CI17-4272 for
Petitioners and against Respondents, jointly
and severally, pursuant to Neb. Rev. Stat. § 25834 in an amount equal to the attorneys’ fees

79a
and costs Petitioners incurred in resisting
Respondents application seeking vacation or
modification of the Final Award and in seeking
dismissal of the various applications (Case
Nos. CI 16-7509; CI 16-8394; CI 17-506; CI 17651; and CI 17-3637) Respondent Scott Seldin
filed seeking to modify, vacate, or confirm the
Arbitrator’s Interim Awards.
DATED THIS 2 DAY OF MAY, 2018.
BY THE COURT:
s/ J. Russell Derr
J. RUSSELL DERR
DISTRICT COURT JUDGE

80a
THE DISTRICT COURT OF DOUGLAS COUNTY,
NEBRASKA
THEODORE M. SELDIN,
individually and as
Trustee of the AMENDED
AND RESTATED
THEODORE M. SELDIN
REVOCABLE TRUST,
DATED MAY 28, 2008,
Howard Scott Silverman,
as Trustee of the
AMENDED AND
RESTATED STANLEY C.
SILVERMAN
REVOCABLE TRUST,
DATED AUGUST 26,
2006; SILVERMAN
HOLDINGS, LLC, a
Nebraska limited liability
company; SCS FAMILY,
LLC, a Nebraska limited
liability company; TMS &
SNS FAMILY, LLC, a
Nebraska limited liability
company; Sarah N. Seldin
and Irving B. Epstein, as
Trustees of the
THEODORE M. SELDIN
AND SARAH N. SELDIN
CHILDREN’S TRUST,
DATED JANUARY 1,
1995; Uri Ratner, as
Trustee of the STANLEY
C. SILVERMAN AND

Case No. CI 174272 and Case No.
CI 17-6276
(Companion Case
Nos. CI 167509;·CI 16-8394;
CI 17-506; CI 17651; and CI 173637)
ORDER ON
Motion to Alter or
Amend, Motion
for Attorney Fees
and Costs, Motion
for Supersedeas
Bond.
#41 FILED
IN DISTRICT
COURT
DOUGLAS
COUNTY
NEBRASKA
FEB 28 2019
JOHN M. FRIEND
CLERK DISTRICT
COURT

81a
NORMA R. SILVERMAN
IRREVOCABLE TRUST
AGREEMENT (2008),
DATED APRIL 10, 2008;
John W. Hancock, Irving
B. Epstein, and Randall R.
Lenhoff, as Trustees of the
THEODORE M. SELDIN
AND SARAH N. SELDIN
IRREVOCABLE TRUST
AGREEMENT (2008),
DATED MAY 12, 2008;
and SELDIN COMPANY,
a Nebraska corporation,
Petitioners,
vs.
MILLARD R. SELDIN,
individually and as
Trustee of the MILLARD
R. SELDIN REVOCABLE
TRUST, DATED
OCTOBER 9, 1993,
SCOTT A. SELDIN,
individually and as
Trustee of the SELDIN
2002 IRREVOCABLE
TRUST, DATED
DECEMBER 13, 2002,
SELDIN REAL ESTATE,
INC., an Arizona
corporation; KENT
CIRCLE INVESTMENTS,
LLC, an Arizona limited
liability company; and

82a
BELMONT
INVESTMENTS, LLC, an
Arizona limited liability
company
Respondents.
THESE MATTERS CAME before the Court on
July 30, 2018 and November 15, 2018.
The Court entered an Order on May 3, 2018
confirming the Arbitrators Award (the Order).
There are four Motions presently before the Court.
Arizona Seldins and Scott Seldin (collectively
Respondents as referenced in the Order) have filed a
Motion to Alter or Amend and a Motion to Set
Supersedeas Bond. Omaha Seldins (Petitioners) have
filed a Motion to Set Attorney Fees and Costs.1
MOTION TO ALTER OR AMEND
“A motion to alter or amend a judgment is
addressed to the discretion of the trial court, whose
decision will be upheld in the absence of an abuse of
that discretion.” Lombardo v. Sedlacek, 299 Neb. 400,
411 (2018). A motion to alter or amend pursuant to
Revised Statutes of Nebraska § 25-1329 is the
“functional equivalent” of a motion under Federal
Rule of Civil Procedure 59(e). Woodhouse Ford, Inc.
1

Petitioners are often referred to collectively as “the
Omaha Seldins” in the Interim Awards and Final Award. For
consistency and simplicty, the Court will, for the most part, refer
to the Omaha Seldins as Petitioners in this Order. Respondents
are often referred to collectively as the “the Arizona Seldins” in
the Interim Awards and the Final Award. Again, the Court will,
for the most part, refer to the Arizona Seldins as Respondents in
this Order. The Court used these references in the Order for
consistency and will continue to do in this Order.

83a
v. Laflan, 268 Neb. 722, 726 (2004). “Relief under
Rule 59(e) is granted in only ‘extraordinary’
circumstances.” Blue Cross Blue Shield of Minn. v.
Wells Fargo Bank, N.A., 2017 U.S. Dist. LEXIS 89240
at *9 (D. Minn. June 8, 2017) (quoting United States
v. Young, 806 F.2d 805, 806 (8th Cir. 1986)).
The Court will address each of Respondents’
arguments.
THE COURT’S FAILURE TO ADDRESS ALL OF
RESPONDENT’S ARGUMENTS
One of the arguments made by Respondents in the
Motion to Alter/Amend is that the Court failed to
explicitly address several of their arguments in the
Order.
“Generally . . . when a trial court clearly intends
its order to serve as a final adjudication of the rights
and liabilities of the parties, the order’s silence on
requests for relief can be construed as a denial of
those requests.” Nowak v. Hedke (In re Estate of
Hedke), 278 Neb. 727, 757 (2009) (construing order as
denying all relief, although it did not mention “the
specific transactions that the appellants complain
about”); Dawes v. Wittrock Sandblasting & Painting,
Inc., 266 Neb. 526, 537 (2003), overruled in part on
other grounds, Kimminau v. Uribe Refuse Serv., 270
Neb. 682, 684-85, (2005) (construing order’s silence
as rejection of arguments, where the judge did not
reserve them for “further determination,” and where
“the substantial effect of the judgment was to dispose
of the entire case”).
The Court did not overlook or intend to reserve
determination of any of Respondents’ arguments. The
Court’s recitation of the issues in the Order is, in fact,
taken directly from Respondents’ Brief in Support of

84a
Application to Modify or Correct and Confirm as
Modified or Corrected or, Alternatively, to Vacate
Arbitration Award (pp. 27 29). The Court addressed
all of those issues in the Order.
THE ARBITRATOR’S AWARD OF ATTORNEY
FEES
With regard to the award of attorney fees by the
Arbitrator, Respondents direct the Court to a recent
opinion of the United States District Court for the
District of New Jersey, Sabre GLBL, Inc. v. Shan,
2018 U.S. Dist. LEXIS 68010 (D.N.J. April 23, 2018),
appeals filed, 18-2079 (May 1, 2018), 18-2144 (May
21, 2018) with regards to the Arbitrators award of
attorney fees. Respondents contend the dispute
decided in Sabre, where the Court found an award of
attorney fees to be improper, is “indistinguishable
from the facts here.”
Respondents present the following—truncated—
passage from Sabre in their brief:
“Here, the
Arbitrator [sic] awarded attorney’s fees despite the
parties’ unambiguous agreement that each ‘shall bear
their own attorneys’ fees . . . .’ By including this
provision, the parties restricted the Arbitrator’s
authority to award attorney fees.” (emphasis in
Respondent’s brief). As presented by Respondents,
the passage is broken-up with an ellipsis. The
language omitted by the ellipsis is critical to the
analysis of whether the fee clauses in Sabre and the
Separation Agreement are similar. Inclusion of the
omitted language reveals they are not.
Quoted in full—without an ellipsis—the passage
in Sabre actually states:
Here, the Arbitrator awarded attorney’s fees
despite the parties’ unambiguous agreement

85a
that each “shall bear their own attorney’s fees,
and shall bear equally the expenses of the
arbitral
proceedings,
including
without
limitation the fees of the Arbitrator.” By
including this provision, the parties restricted
the Arbitrator’s authority to award attorney
fees.
2018 U.S. Dist. LEXIS 68010 at 13-14 (internal
citation omitted).
The language omitted by Respondents identifies
the parties’ “arbitral proceedings” and their
“Arbitrator.” It is thereby clear the fee clause in
Sabre was intended to apply to the parties’ arbitration
proceedings.
By contrast, the fee clause in the Separation
Agreement provides:
Except as otherwise provided in this
Agreement, each Party shall bear its own costs
and expenses (including legal fees and
expenses) incurred in connection with this
Agreement and the transactions contemplated
hereby. No Party shall be required to pay to the
other Party any commissions, penalties, fees or
expenses arising out of or associated with any
of the transactions contemplated by this
Agreement.
Unlike the clause in Sabre, the fee clause in the
Separation Agreement—which is contained in a
different section of the Separation Agreement (Sec.
9.1.1) from the clauses governing the parties’
agreement to arbitrate (Secs. 8.3, 9.14.1)—does not
reference the parties’ arbitration proceedings.
Instead, the clause relates solely to fees “incurred in
connection with this Agreement and the transactions

86a
contemplated hereby.” (emphasis added).
The
Arbitrator correctly found the “transactions”
identified in the Separation Agreement’s fee clause
did not encompass the parties’ arbitral claims. This
determination is thoroughly discussed in nine
paragraphs of a reasoned decision issued by the
Arbitrator.
There is no clause in the Separation Agreement
that limited the Arbitrator’s authority to award
attorney fees as a measure of damage in the
arbitration. Conversely, the fee clause in Sabre
expressly applied to the parties’ arbitration
proceedings. This is an important, differentiating
feature between the fee clauses in Sabre and the
Separation Agreement.
Respondents’ ignore—
indeed, omit—this distinguishing aspect from their
presentation
of
the
“indistinguishable”
circumstances in Sabre to this Court.
The Court finds no merit to Respondent’s
argument with regard to the award of attorney fees
by the Arbitrator.
ATTORNEY FEES AS A SANCTION
Respondents argue that the Court did not have the
authority to award attorney fees under a statute “that
has been repealed.” The Court made an error in the
Order. In the Order, the Court stated that attorney
fees were awarded pursuant to Neb. Rev. Stat. § 25834. Unfortunately, this error was repeated several
times in the Order. However, despite this error it is
patently obvious that the Court intended to award
attorney fees pursuant to Neb. Rev. Stat. § 25-824.
Next, Respondents argue that “neither the
requisite rules nor conditions” of § 25-824 “has been
satisfied.” and that “[t]he Order did not identify,

87a
discuss or make any of the necessary findings or
conclusions required by Neb. Rev. Stat. § 25-824.” To
the contrary, the Order sets out detailed findings
supporting its award of attorney fees and costs under
§ 25-824.
§ 25-824(4) provides:
The court shall assess attorney’s fees and costs
if, upon the motion of any party or the court
itself, the court finds that an attorney or party
brought or defended an action or any part of an
action that was frivolous or that the action or
any part of the action was interposed solely for
delay or harassment. If the court finds that an
attorney or party unnecessarily expanded the
proceedings by other improper conduct,
including, but not limited to, abuses of civil
discovery procedures, the court shall assess
attorney’s fees and costs.
Neb. Rev. Stat. § 25-824.01 sets forth those factors
a court must consider when evaluating whether to
award attorney fees under § 25-824. Those factors
are: 1) the extent to which any effort was made to
determine the validity of the claim before it was
asserted; 2) the availability of facts to assist the party
to determine the validity of a claim or defense; 3) the
relative financial position of the parties involved;
4) whether or not the action was prosecuted in whole
or in part in bad faith; 5) whether or not issues of fact,
determinative of the validity of the party’s claim, were
reasonably in conflict; and 6) the extent to which the
party prevailed with respect to the amount of and
number of claims in controversy.
While § 25-824.01 “requires the court to specify
the reasons for an award of attorney fees, . . . [it]

88a
imposes no such requirement as to the factors” set
forth in the statute. White v. Kohout, 286 Neb. 700,
708 (2013). Rather, § 25-824.01 solely “directs the
court to consider the delineated factors when
determining whether to assess attorney fees and costs
and the amount to be assessed.” White, supra at 708.
The reasons supporting the Court’s award of attorney
fees are stated throughout the Order.
Confirmation of the Final Award did not involve
resolution of complicated factual disputes; rather, it
involved mere procedural issues—Respondents
alleged the Arbitrator engaged in misconduct by
accepting a “tender” of the Sky Financial Securities as
a form of interpleader, which was an issue raised only
in these actions to confirm and, as the Order
thoroughly discusses, was meritless and frivolous.
Respondents’ simply refused to abide by the
Arbitrators award even though they had agreed to
arbitration.
The U.S. Court of Appeals for the Eleventh Circuit
addressed the impropriety of a non-prevailing
arbitration participant’s “never-say-die attitude” in
B.L. Harbert lnt’I v. Hercules Steel Co., 441 F.3d 905,
913 (11th Cir. 2006). The non-prevailing party in
Hercules Steel (Harbert) sought to vacate the
Arbitrator’s award on grounds the award manifestly
disregarded the law. The court found “[t]he only
manifest disregard of the law evident in th[e] case
[wa]s Harbert’s refusal to accept the law of th[e]
circuit which narrowly circumscribes judicial review
of arbitration awards.” Id. Rebuking the practice of
seeking vacatur without an objectively reasonable
belief of prevailing,’ the court discussed why
sanctioning parties in such circumstances is
necessary:

89a
In litigating this case without good basis
through the district court and now through this
Court, Harbert has deprived Hercules and the
judicial system itself of the principal benefits of
arbitration.
Instead of costing less, the
resolution of this dispute has cost more than it
would have had there been no arbitration
agreement. Instead of being decided sooner, it
has taken longer than it would have to decide
the matter without arbitration. Instead of
being resolved outside the courts, this dispute
has required the time and effort of the district
court and this Court.
When a party who loses an arbitration award
assumes a never-say-die attitude and drags the
dispute through the court system without an
objectively reasonable belief it will prevail, the
promise of arbitration is broken. Arbitration’s
allure is dependent upon the Arbitrator being
the last decision maker in all but the most
unusual cases. The more cases there are, like
this one, in which the Arbitrator is only the first
stop along the way, the less arbitration there
will be. If arbitration is to be a meaningful
alternative to litigation, the parties must be
able to trust that the Arbitrator’s decision will
be honored sooner instead of later.
Courts cannot prevent parties from trying to
convert arbitration losses into court victories,
but it may be that we can and should insist that
if a party on the short end of an arbitration
award attacks that award in court without any
real legal basis for doing so, that party should
pay sanctions. A realistic threat of sanctions
may discourage baseless litigation over

90a
arbitration awards and help fulfill the purposes
of the pro-arbitration policy contained in the
FAA. It is an idea worth considering.
Id. at 913-14
The U.S. Court of Appeals for the Eighth Circuit
has long-held a similar view. See St. John’s Mercy
Med. Ctr. v. Delfino, 2006 U.S. Dist. LEXIS 13844 at
*12 (E.D. Mo. Mar. 29, 2006) (quoting lnt’I Union v.
United Farm Tools, Inc., 762 F.2d 76, 77 (8th Cir.
1985)) (“‘An unjustified refusal to abide by an
Arbitrator’s award may constitute bad faith for the
purpose of awarding attorneys’ fees’ under Rule 11.”)2
Say Elec., Inc. v. IBEW, Local 292, 1985 U.S. Dist.
LEXIS 17697 at *5 (D. Minn. July 19, 1985) (citing
General Drivers & Helpers Union v. Young & Hay
Transportation Co., 522 F.2d 562 (8th Cir. 1975);
United Steel Workers v. Butler Manufacturing Co.,
439 F.2d 1110 (8th Cir. 1971)) (“A party is entitled to
reasonable attorney’s fees and costs when required to
bring an action to confirm an Arbitrator’s award if the
opposing party’s refusal to abide by the award is
without justification.”).
Other jurisdictions are in accord. See e.g. Dreis &
Krump Mfg. Co. v. lnt’I Ass’n of Machinists & Aero.
Workers, 802 F.2d 247, 255-56 (7th Cir. 1986) (“It is
human nature to crave vindication of a passionately
held position even if the position lacks an objectively
reasonable basis in the law. But the amended Rule
11 makes clear that he who seeks vindication in such
2

Federal Rule of Civil Procedure 11, just like Revised
Statutes of Nebraska § 25-824, focuses on whether an attorney
has “abused the judicial process by pursuing a claim that is
frivolous or made in bad faith.” Fla. ex rel. Dep’ t of Ins. of Fla.
v. Countrywide Truck Ins. Agency, Inc., 294 Neb. 400, 406 (2016).

91a
circumstances and fails to get it must pay his
opponent’s reasonable attorney’s fees. A company
dissatisfied with the decisions of labor Arbitrators . . .
will not be permitted to nullify the advantages to the
union by spinning out the arbitral process
unconscionably through the filing of meritless suits
and appeals. For such conduct the law authorizes
sanctions that this court will not hesitate to
impose. . . .
Lawyers practicing in the Seventh
Circuit, take heed!”); Burke v. Hogan, 418 F. Supp. 2d
236, 243 (W.D.N.Y. 2005) (citations and quotations
omitted) (“A court may properly make an award of
attorneys’ fees in certain circumstances; for example,
when a party has unjustifiably refused to abide by an
Arbitrator’s award, or when a party spin[s] out the
arbitral process unconscionably through the filing of
meritless suits and appeals.”); Unite Here Local 23 v.
I.L. Creations of Md. Inc., 148 F. Supp. 3d 12, 24
(D.D.C. 2015) (“[E]ven a cursory examination of the
governing law should have dissuaded I.L. Creations
from resisting compliance with the Arbitrator’s
decision,
from
challenging
the
Arbitrator’s
jurisdiction (for the first time) in the context of a
counterclaim filed in this Court, and from attacking
the award’s scope without any basis for doing so in
light of the extremely deferential applicable standard.
Thus, whether or not I.L. Creation’s conduct
ultimately amounts to subjective bad faith, it is
clearly sufficient to entitle Unite Here to reasonable
attorneys’ fees.”); Rutan v. George Kerasotes Corp.,
2008 Mich. App. LEXIS 1017 at **7-8 (May 15, 2008)
(“After receiving an unfavorable arbitration decision,
defendants attempted to re-litigate the issue in circuit
court under the guise of arguing a material error of
law, despite the existence of a bona fide evidentiary

92a
dispute . . . . The circuit court did not clearly err by
finding that defendants’ attempt to re-litigate the
facts of this case was frivolous. Moreover, defendants’
motion to vacate the arbitration award, which did
nothing more than attack the Arbitrators’ findings of
fact, was devoid of legal merit. We perceive no clear
error in the circuit court’s award of sanctions.”).
In the Order, the Court found Respondents’
positions
were
not
credible,
legally
“mischaracterize[d],” “fundamentally misplaced,” and
repeatedly “misleading.” (finding Respondents’
explicit consent to the tender procedure “belies their
present claim that such action by the Arbitrator was
‘astonishing’
and
‘surreal’”);
(“Respondents
mischaracterize the significance of ‘relation back’
under Federal Rule of Civil Procedure 15.”);
(“Respondents’ argument is fundamentally misplaced
because they have not idehtified any ‘mathematical
error’ in the calculation of prejudgment interest under
the Final Award.”); (finding Respondents “argue[d]
the merits of the Final Award” even though legal error
is not a basis upon which vacatur or modification can
be pursued); (“Respondents’ characterization that the
Arbitrator ‘mistakenly identified the wrong number
in the statute’ is misleading.”); (finding Scott Seldin’s
argument that he should not be held jointly and
severally liable because he did not violate any
securities laws “is misleading”).
Arguments that mislead, mischaracterize, and
refusing to accept the governing legal standard are
sanctionable. Cornett v. City of Omaha Police & Fire
Ret. Sys., 266 Neb. 216, 221 (2003) (citation omitted)
(“We have said that the term ‘frivolous,’ as used in
§ 25-824(2), connotes an improper motive or legal
position so wholly without merit as to be ridiculous.”);

93a
see also, Soroof Trading Dev. Co. v. GE Fuel Cell Sys.
LLC, 842 F. Supp. 2d 502, 519 (S.D.N.Y. 2012)
(quoting Williamson v. Recovery Ltd. Partnership,
542 F.3d 43, 51 (2d Cir. 2008)) (“Financial sanctions,
such as an order to pay an award of attorneys’ fees
and costs to the opposing party, may be imposed
pursuant to Federal Rule of Civil Procedure 11 when
a party makes ‘false, misleading, improper, or
frivolous representations to the court.”‘).
When a party does not present “rational argument
based on law and evidence to support [the] litigant’s
position,” the position is equally frivolous under § 25824. First Nat’I Bank v. Union Ins. Co., 246 Neb. 636,
645 (1994); see also Shanks v. Johnson Abstract &
Title, Inc., 225 Neb. 649, 655-56 (1987) (quoting
Ltown Ltd. v. Sire Plan, 108 A.D.2d 435, 442-43 (N.Y.
1985)) (holding that a claim is frivolous “when it
indisputably has no merit”).
The Order repeatedly identified the absence of
rational factual or legal basis to support Respondents’
theories of modifying or vacating the Final Award.
The Order found that Respondents “fail[ed] to
explain” how the transfer of the Sky Financial
Securities to the Arbitrator “relates in any way as to
whether the Arbitrator actually committed
misconduct” and that “while ostensibly moving under
the ‘misconduct’ prong of the FAA (9 U.S.C.
§ 10(a)(3)), Respondents cite to no authority
addressing
an
Arbitrator’s
misconduct”);
“Respondents have presented no evidence to carry the
‘heavy burden’ of demonstrating that the Arbitrator
had ‘improper motives’ and rendered an award
tainted by actual bias.”; “Respondents almost admit
that no such actual bias exists . . . without so much
as identifying any actual decision that demonstrates

94a
bias . . . .” finding the cases cited by Respondents were
“inapposite by their own terms,” “not relevant,” and
“not to the contrary” of the Arbitrator’s findings; and
(“Respondents have presented no evidence to carry
the ‘heavy burden’ of demonstrating that the
Arbitrator had ‘improper motives’ and rendered an
award tainted by actual bias.”).
The Court also found three of Respondents’
principal arguments claiming Arbitrator error had
been waived because Respondents never apprised the
Arbitrator of the alleged error during the arbitration.
This included Respondents’ belated assertion that the
Arbitrator committed “misconduct” by taking
temporary possession of the Sky Financial Securities
the focal point of their briefing and argument in these
proceedings, a claim first raised in these proceedings.
In United Food & Commercial Workers, Local 400
v. Marval Poultry Co., 876 F.2d 346, 353 (4th Cir.
1989), a losing arbitration party sought to vacate an
award by asserting waived defenses never raised in
the arbitration. The U.S. Court of Appeals for the
Fourth Circuit Court reprimanded this practice,
holding:
“Parties to arbitration proceedings cannot sit
idle while an arbitration decision is rendered
and then, if the decision is adverse, seek to
attack the award collaterally on grounds not
raised before the Arbitrator.”
While the district court rightly recognized that
a losing party’s “afterthoughts should not form
the basis of continued, protracted litigation in
federal courts.’’ it then failed to hold, as it
should have, that for this very reason Marval’s
litigation conduct here was “unjustified.” The

95a
mere fact that there may have been an
“arguable basis” for the substantive position
belatedly raised, did not justify its belated
raising for the first time in district court.
Id. at 353.
Similarly, the non-prevailing arbitration party in
Deluxe Labs., Inc. v. lnt’l All., Local 683, 2001 U.S.
Dist. LEXIS 18099 at 24 (C.D. Cal. Aug. 30, 2001),
was sanctioned for belatedly asserting a factually
unsupported claim of arbitrator bias. Concluding the
argument was frivolous not only because it was never
raised in arbitration, but also because it was factually
unfounded, the court held:
This is a classic case of waiver. A party “cannot
remain silent, raising no objection during the
course of the arbitration proceeding, and when
an award adverse to him has been handed down
complain of a situation of which he had
knowledge from the first.”
...........
Deluxe’s legal and factual contentions are
without merit. The facts clearly establish that
Deluxe waived the right to challenge the award
on the ground of Arbitrator bias under existing
law. Nevertheless, . . . Deluxe and its counsel
maintained the position that Deluxe may
properly raise this challenge at this late date.
Additionally, the bias argument is based on
nothing more than an unfavorable award and
the Arbitrator’s post- award comment . . .
acknowledging that the award was “tough on
[Mr. Franklin] personally.”
Deluxe’s bias
argument is frivolous.

96a
Id. at 15, 24 (citations omitted).
Courts have also sanctioned parties for failing to
adhere to the limited standard of review when
arguing an arbitrator has exceeded his authority;
specifically, that an award must be confirmed if the
arbitrator even arguably construed the contract at
issue. In Corp. Printing Co. v. N.Y. Typographical
Union No. 6, 1994 U.S. Dist. LEXIS 9728 at **10-11
(S.D.N.Y. July 14, 1994), the losing arbitration
participant sought vacatur on grounds the award
violated public policy and was based upon a flawed
interpretation of the contract at issue. The court
rejected both arguments and confirmed the
arbitration award. In addition to confirming the
award, the court found the losing party’s “treatment
of th[e] matter and its arguments in opposition to
confirmation of the Award [we]re wholly without
merit, unsupported by the facts and the law and
reflect bad faith and wantonness, justifying an award
of costs and fees to the” prevailing arbitration party.
Respondents
argued
the
Arbitrator’s
interpretation of the contract at issue—the
Separation Agreement—was incorrect . But that is
not the standard.
Instead, Respondents were
required to show the Arbitrator was not “even
arguably construing or applying” the Separation
Agreement. See, e.g., Misco, 484 U.S. at 38.
On the attorney fee issue, the Order stated that
the Arbitrator explained why the Separation
Agreement permitted an award of attorney fees in “an
eight-paragraph, reasoned decision” As in Hercules
Steel, supra and Corp. Printing, supra, Respondents
should not have raised this issue.

97a
Similarly, on the issue of the Claims Bar Date,
Respondents alleged the Arbitrator did not issue a
reasoned award and failed to apply the correct
“method” specified by the Separation Agreement. In
making this allegation, Respondents ignored that
“[t]he Arbitrator gave a detailed listing of his reasons
for finding the Sky Financial Claim to be timely under
the Separation Agreement[.]” as stated in the Order.
Courts forbid parties from challenging factual and
legal determinations under the pretext of the very
limited allowable FAA challenges as Respondents did
here. Halim v. Great Gatsby’s Auction Gallery, Inc.,
2007 U.S. Dist. LEXIS 21891 (N.D. Ill. Mar. 12, 2007)
is instructive. Dealing with similar conduct, the court
in Halim ordered the imposition of sanctions, and in
so doing described the impropriety of “dressing up”
otherwise barred arguments as legitimate challenges
under the FAA:
Halim’s contentions are wholly unsupported
by the evidence, and his ·attempt to shoehorn
his disagreement with the Arbitrator’s
interpretation of the law and the evidence into
grounds for vacatur is groundless. Halim’s
briefs supporting his motion to, vacate make
clear he is aware of the law. He should have
known, then, that the Arbitrator’s conduct did
not
approach
grounds
for
vacatur.
Nonetheless, he sought to vacate the award. . . .
Even though Halim expressly recognizes that
courts will not review an Arbitrator’s errors of
law but only his or her refusal to follow the law
set out in the parties’ arbitration agreement, he
has dressed up his arguments concerning his
disagreement with the substance of the
Arbitrator’s determination as arguments that

98a
the Arbitrator had exceeded his authority
under the parties’ contract. This type of
subterfuge is not sufficient to avoid sanctions.
Thus, we conclude that sanctions under Fed. R.
Civ. P. 11(c) are warranted.
Id. at 8-9 (internal citations omitted).
As for the multiple interim applications filed by
Respondents, they had no legal basis to selectively
pursue modification, vacation, and/or confirmation of
five of the Arbitrator’s twelve interim awards
(collectively “interim applications”), the interim
applications were frivolous. Respondents state the
interim applications were filed “solely to avoid an
adverse result by a court reviewing the interim
awards and declaring one or more of them to be final
awards under the FAA, even despite an explicit
agreement of the parties and the consent of the
Arbitrator to the contrary
Respondents cite to In re: Chevron, 419 S.W. 3d
329 (Tex. App. 2010) in support of their argument on
this issue. Chevron involved an arbitration where the
parties agreed to bifurcate certain claims, just as
Petitioners and Respondents did here. In Chevron,
there is no mention that either the parties or the
arbitration panel agreed or intended the interim
decisions, as was done here, to be non-final and nonappealable. Respondents have not cited to a case
where an interim award that both the parties and the
Arbitrator intended to be non-final was treated as a
final, appealable arbitration award.
As a final thought, the Court has reviewed the
recent decision of the Nebraska Supreme Court in
Pinnacle Enters. v. City of Papillion, 302 Neb 297
(2019) and finds that case inapplicable to the

99a
determinations that must be made by the Court in
this matter.
The Court awards attorney fees pursuant to Neb.
Rev. Stat. § 25-824 in the amount of $131,184.85
(Exhibit 54A). This amount is for fees and costs
incurred by Petitioners in confirming the Arbitration
award. What should have been a fairly simple
procedure, Respondents literally turned into a relitigation of the Arbitration itself.
CONCLUSION
For the foregoing reasons, the Court:
-Overrules the Arizona Seldins Motion to
Alter/Amend;
-The Court orders a nunc pro tunc modification of
the May 3, 2018 Order to substitute “25-824” for
references to “25-834”;
-The award of attorney fees by the Arbitrator was
proper and not in conflict with the Separation
Agreement
-Exhibit 54A is placed under seal and received into
evidence; and
-The Omaha Seldins are awarded attorney fees in
the amount $131,184.45 as a sanction pursuant to
Neb. Rev. Stat. § 25-824.
The total judgment is approximately $3,000,000
plus the attorney fees awarded as a sanction of
$131,184.45 The Court sets the supercedeas bond at
$3,300,000..
DATED this 28 DAY OF FEBRUARY, 2019.
BY THE COURT:
s/ J Russell Derr
J RUSSELL DERR
DISTRICT COURT JUDGE

100a

[seal
omitted]

CLERK OF THE NEBRASKA
SUPREME COURT
AND NEBRASKA COURT OF
APPEALS
2413 State Capitol, P.O. Box 98910
Lincoln, Nebraska 68509-8910
(402) 471-3731
FAX (402) 471-3480

August 4, 2020
Matthew Mark Enenbach
matthew.enenbach@kutakrock.com
IN CASE OF: S-19-000310, Seldin v. Estate of
Silverman
S-19-000311, Seldin v. Seldin
TRIAL
COURT/ID:
Douglas County District Court
CI17-6276
Douglas County District Court
CI17-4272
The following filing: Motion Appe Seldin for
Rehearing & Brief
Filed on 03/16/20
Filed by appellee Scott A Seldin Individually
Has been reviewed by the court and the
following order entered:
Motion of appellee for rehearing overruled.

101a
Respectfully,
Clerk of the Supreme Court
and Court of Appeals

102a
9 U.S.C. § 9
§ 9.

Award of arbitrators;
jurisdiction; procedure

confirmation;

If the parties in their agreement have agreed that
a judgment of the court shall be entered upon the
award made pursuant to the arbitration, and shall
specify the court, then at any time within one year
after the award is made any party to the arbitration
may apply to the court so specified for an order
confirming the award, and thereupon the court must
grant such an order unless the award is vacated,
modified, or corrected as prescribed in sections 10 and
11 of this title. If no court is specified in the
agreement of the parties, then such application may
be made to the United States court in and for the
district within which such award was made. Notice
of the application shall be served upon the adverse
party, and thereupon the court shall have jurisdiction
of such party as though he had appeared generally in
the proceeding. If the adverse party is a resident of
the district within which the award was made, such
service shall be made upon the adverse party or his
attorney as prescribed by law for service of notice of
motion in an action in the same court. If the adverse
party shall be a nonresident, then the notice of the
application shall be served by the marshal of any
district within which the adverse party may be found
in like manner as other process of the court.

103a
9 U.S.C. § 10
§ 10. Same; vacation; grounds; rehearing
(a) In any of the following cases the United States
court in and for the district wherein the award was
made may make an order vacating the award upon
the application of any party to the arbitration—
(1) where the award was procured by
corruption, fraud, or undue means;
(2) where there was evident partiality or
corruption in the arbitrators, or either of them;
(3) where the arbitrators were guilty of
misconduct in refusing to postpone the hearing,
upon sufficient cause shown, or in refusing to hear
evidence pertinent and material to the
controversy; or of any other misbehavior by which
the rights of any party have been prejudiced; or
(4) where the arbitrators exceeded their
powers, or so imperfectly executed them that a
mutual, final, and definite award upon the subject
matter submitted was not made.
(b) If an award is vacated and the time within
which the agreement required the award to be made
has not expired, the court may, in its discretion, direct
a rehearing by the arbitrators.
(c) The United States district court for the district
wherein an award was made that was issued
pursuant to section 580 of title 5 may make an order
vacating the award upon the application of a person,
other than a party to the arbitration, who is adversely
affected or aggrieved by the award, if the use of
arbitration or the award is clearly inconsistent with
the factors set forth in section 572 of title 5.

104a
9 U.S.C. § 11
§ 11. Same;
modification
grounds; order

or

correction;

In either of the following cases the United States
court in and for the district wherein the award was
made may make an order modifying or correcting the
award upon the application of any party to the
arbitration—
(a) Where there was an evident material
miscalculation of figures or an evident material
mistake in the description of any person, thing, or
property referred to in the award.
(b) Where the arbitrators have awarded upon a
matter not submitted to them, unless it is a matter
not affecting the merits of the decision upon the
matter submitted.
(c) Where the award is imperfect in matter of
form not affecting the merits of the controversy.
The order may modify and correct the award, so as
to effect the intent thereof and promote justice
between the parties.

